<html>
<title> - NOMINATIONS OF ERIC D. HARGAN, DAVID MALPASS, ANDREW K. MALONEY, AND BRENT JAMES McINTOSH</title>
<body><pre>[Senate Hearing 115-245]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-245
 
                     NOMINATIONS OF ERIC D. HARGAN,
                   DAVID MALPASS, ANDREW K. MALONEY,
                        AND BRENT JAMES McINTOSH

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                 on the

                             NOMINATIONS OF

ERIC D. HARGAN, TO BE DEPUTY SECRETARY, DEPARTMENT OF HEALTH AND HUMAN 
   SERVICES; DAVID MALPASS, TO BE UNDER SECRETARY FOR INTERNATIONAL 
 AFFAIRS, DEPARTMENT OF THE TREASURY; ANDREW K. MALONEY, TO BE DEPUTY 
 UNDER SECRETARY FOR LEGISLATIVE AFFAIRS, DEPARTMENT OF THE TREASURY; 
  AND BRENT JAMES McINTOSH, TO BE GENERAL COUNSEL, DEPARTMENT OF THE 
                                TREASURY

                               __________

                              JUNE 7, 2017

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               

                                     
                                     

            Printed for the use of the Committee on Finance
            
            
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-209-PDF              WASHINGTON : 2018                 
 
 
            


                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)
  

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     2
Portman, Hon. Rob, a U.S. Senator from Ohio......................     8

                                WITNESS

Thompson, Hon. Tommy, former Governor of Wisconsin, Madison, WI..     6

                        ADMINISTRATION NOMINEES

Hargan, Eric D., nominated to be Deputy Secretary, Department of 
  Health and Human Services, Washington, DC......................     9
Malpass, David, nominated to be Under Secretary for International 
  Affairs, Department of the Treasury, Washington, DC............    11
Maloney, Andrew K., nominated to be Deputy Under Secretary for 
  Legislative Affairs, Department of the Treasury, Washington, DC    12
McIntosh, Brent James, nominated to be General Counsel, 
  Department of the Treasury, Washington, DC.....................    14

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Casey, Robert P., Jr.:
    Letter from Senator Casey to Secretary Mnuchin, May 25, 2017.    23
Hargan, Eric D.:
    Testimony....................................................     9
    Prepared statement...........................................    24
    Biographical information.....................................    25
    Responses to questions from committee members................    30
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    40
Maloney, Andrew K.:
    Testimony....................................................    12
    Prepared statement...........................................    41
    Biographical information.....................................    42
    Responses to questions from committee members................    55
Malpass, David:
    Testimony....................................................    11
    Prepared statement...........................................    56
    Biographical information.....................................    58
    Responses to questions from committee members................    67
McIntosh, Brent James:
    Testimony....................................................    14
    Prepared statement...........................................    74
    Biographical information.....................................    75
    Responses to questions from committee members................    82
Portman, Hon. Rob:...............................................
    Opening statement............................................     8
Thompson, Hon. Tommy:............................................
    Testimony....................................................     6
Wyden, Hon. Ron:
    Opening statement............................................     2
    Prepared statement...........................................    88


                  NOMINATIONS OF ERIC D. HARGAN, TO BE.
                    DEPUTY SECRETARY, DEPARTMENT OF.
                    HEALTH AND HUMAN SERVICES; DAVID.
                   MALPASS, TO BE UNDER SECRETARY FOR.
                  INTERNATIONAL AFFAIRS, DEPARTMENT OF.
                  THE TREASURY; ANDREW K. MALONEY, TO.
                     BE DEPUTY UNDER SECRETARY FOR.
                 LEGISLATIVE AFFAIRS, DEPARTMENT OF THE.
                  TREASURY; AND BRENT JAMES McINTOSH,.
                         TO BE GENERAL COUNSEL,.
                       DEPARTMENT OF THE TREASURY

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:15 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Grassley, Crapo, Portman, Toomey, Heller, 
Cassidy, Wyden, Stabenow, Cantwell, Menendez, Bennet, Casey, 
and McCaskill.
    Also present: Republican Staff: Chris Campbell, Staff 
Director; Mark Prater, Deputy Staff Director and Chief Tax 
Counsel; Kimberly Brandt, Chief Health-care Investigative 
Counsel; and Nicholas Wyatt, Tax and Nominations Professional 
Staff Member. Democratic Staff: Joshua Sheinkman, Staff 
Director; Michael Evans, General Counsel; Peter Gartrell, 
Investigator; and Ian Nicholson, Investigator.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    I would like to welcome everyone to this morning's hearing.
    Today we will consider the nominations of Eric Hargan to 
serve as Deputy Secretary of Health and Human Services; David 
Malpass to serve as Under Secretary for International Affairs 
of the Treasury; Andrew Maloney to serve in a position to be 
designated as Assistant Secretary for Legislative Affairs of 
the Treasury; and Brent McIntosh to serve as General Counsel 
for the Treasury.
    We welcome all of you to the Finance Committee. We 
appreciate your willingness to serve in these important 
positions.
    Now before I get too far along, I want to thank all of my 
fellow Senators for their support and presence today. As we all 
know, the government is like a giant clock with many important 
pieces, gears, and cogs. Today we are taking an important step 
toward adding several more important pieces to keep that clock 
functioning as it should.
    It is also good to see that despite some frustrations over 
the past few months, we have been able to return to normal 
working order for processing nominees. As we all know, that 
process includes bipartisan input, comity, good faith, and a 
fair and robust vetting process. I would like to thank my 
colleagues, particularly Senator Wyden, for working to move 
this process along.
    Each of these nominees will have important roles in the 
administration, and we will talk more about the individual 
posts and our nominees' excellent credentials and experience as 
the hearing goes on.
    Before we get to that, I want to be very clear about my 
expectations regarding responsiveness to congressional 
inquiries. Regardless of party affiliation, it is essential 
that the administration make it a top priority to respond to 
inquiries from members of Congress.
    Let me say this a bit differently to make sure I am clear. 
It does not matter who the President is, nor does it matter 
which member of Congress is making the request. When an inquiry 
is submitted to any administrative agency, we rightly expect to 
receive a timely and responsive answer in return.
    In the years that I have been the lead Republican on this 
committee, I have asked virtually all of our nominees to commit 
to being cooperative and responsive to congressional inquiries. 
I have full confidence in each of the nominees who are before 
us today. I do not have any reason to believe that they intend 
to stonewall members of Congress, but I will ask all of them to 
make a similar pledge to provide timely and responsive answers 
to questions coming from members of this committee.
    With that, I look forward to hearing from each of our 
nominees as they share their visions and views here today. I 
also look forward to what I hope will continue to be a full and 
fair committee process that allows us to process these 
nominations and report them to the full Senate in short order.
    I will now recognize Senator Wyden for his opening 
statement.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, thank you. I want to begin by 
thanking you for your courtesy this morning, and on a regular 
basis. As you know, I am going back and forth between 
Intelligence and this committee. I very much appreciate this.
    The Chairman. Well, we are happy to work with you, Senator. 
You are a good partner.
    Senator Wyden. We have four nominees. After I make my 
opening statement, the chairman has some questions for the 
nominees, and he and I will have a brief colloquy, and we will 
be on our way.
    With the four nominees, I want to begin with Mr. Hargan's 
nomination to be Health and Human Services Deputy Secretary. It 
is the second highest ranking position at the Department, 
effectively the chief operating officer, a huge job that 
encompasses a lot more than making sure the trains run on time.
    As an example, Mr. Hargan held this job on an acting basis 
during the Bush administration. If The Wall Street Journal is 
to be believed, Mr. Hargan used his position to block efforts 
by the Food and Drug Administration to increase food safety 
inspections.
    Today, with the Department pushing a radical agenda that 
would send the number of Americans without health coverage 
through the roof, endanger seniors who count on Medicaid for 
nursing home care, and slash programs that lay out basic living 
standards for working families, Mr. Hargan and each department 
nominee at Health and Human Services face serious questions 
about how they would approach their roles.
    Next, Mr. Malpass would lead the Office of International 
Affairs at Treasury. This is the job where you advance our 
leadership in the global economy. It is a tough one.
    Senior Trump officials regularly contradict each other on 
major economic policy questions. Then the President contradicts 
them.
    Is the administration for a strong dollar or a weak dollar? 
Nobody knows. Statements and actions on climate, on trade, and 
on NATO have alienated long-time allies and close economic 
partners, handing China greater power and influence. We need 
policies that give all Americans the chance to get ahead.
    Mr. McIntosh is nominated to be Treasury General Counsel. A 
key part of his portfolio would be, if confirmed, to guarantee 
that sanctions and rules on foreign investment are enforced and 
adhered to.
    In an administration rife with conflicts, with scandals--
reportedly including undisclosed meetings with a Russian bank 
under sanction--the Treasury General Counsel has to be 
unflinching in their commitment to protect the public interest.
    Finally, I want to take a moment to address the issue of 
congressional oversight. It is closely relevant to the jobs Mr. 
McIntosh, as General Counsel, and Mr. Maloney, as Deputy Under 
Secretary for Legislative Affairs, are nominated to fill at the 
Treasury Department.
    Word has come from the Trump administration that the 
executive branch, essentially, has free reign to ignore the 
questions that come from Democrats conducting oversight. The 
White House Counsel's Office is quoted as saying that the 
administration will only respond to the chairmen of 
congressional committees, and of course, the chairs are 
Republicans. So this is a stated policy of stonewalling 
Democratic lawmakers.
    I want to be clear on this. I believe this is a disgrace. I 
believe it is deeply undemocratic. Congressional members do not 
conduct oversight of the executive branch for sport.
    Our obligation to perform vigorous oversight is derived 
from the powers laid out in article 1 of the Constitution. We 
ask questions directly on behalf of the people we represent, 
and it is those people--not just us in Congress--the 
administration owes answers to.
    Bottom line, this is not the behavior of a government that 
sees itself as answerable to the American people.
    Our committee, fortunately, has a bipartisan tradition of 
supporting the right of the minority to get responses from the 
administration regardless of party. One of the questions this 
committee poses to every executive branch nominee that comes 
before us is, ``Do you commit to provide a prompt response in 
writing to any questions addressed to you by any Senator of 
this committee?'' I will repeat the last part: it is ``any 
Senator of the committee,'' not any Senator of the committee 
with an ``R'' next to their name. When nominees answer ``yes,'' 
we take them at their word.
    This is an issue near and dear to the Finance Committee. 
Senator Grassley has a track record of fighting as hard as 
anybody for transparency and responsiveness from the executive 
branch. And I would wager that every member on my side of the 
dais could rattle off examples of letters they have sent to the 
administration only to get nothing substantive in return.
    It is true that in the Trump administration, Treasury has 
not been the worst culprit in terms of stonewalling oversight. 
If confirmed, Mr. McIntosh and Mr. Maloney will have a direct 
hand in working with Congress on these issues. Very shortly 
they will get that same question asked of every nominee who 
sits before this dais.
    So it is my expectation that Mr. McIntosh and Mr. Maloney 
will help guarantee that the Department responds to the 
inquiries of all of the committee's members, not just those of 
the President's party.
    Mr. Chairman, I know we have a colloquy after you have some 
obligatory matters that you have to take care of.
    The Chairman. Well, thank you, Senator.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. I have some obligatory questions I am going 
to ask all the nominees. First, is there anything you are aware 
of in your background that might represent a conflict of 
interest with the duties of the office to which you have been 
nominated?
    Mr. Hargan. No, sir.
    Mr. Malpass. No, sir.
    Mr. Maloney. No, sir.
    Mr. McIntosh. No, Mr. Chairman.
    The Chairman. Okay.
    Do you know of any reason, personal or otherwise, that 
would in any way prevent you from fully and honorably 
discharging the responsibilities of the office to which you 
have been nominated?
    Mr. Hargan. No, Mr. Chairman.
    Mr. Malpass. No, sir.
    Mr. Maloney. No, sir.
    Mr. McIntosh. No, Mr. Chairman.
    The Chairman. Thank you.
    Do you agree without reservation to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of the Congress if you are confirmed?
    Mr. Hargan. I agree, Mr. Chairman.
    Mr. Malpass. I do.
    Mr. Maloney. I agree.
    Mr. McIntosh. I agree.
    The Chairman. Finally, do you commit to provide a prompt 
response in writing to any questions addressed to you by any 
Senator of this committee?
    Mr. Hargan. I do, Mr. Chairman.
    Mr. Malpass. I agree.
    Mr. Maloney. Yes, Mr. Chairman.
    Mr. McIntosh. I agree.
    The Chairman. Yes.
    Senator Wyden. Did all four get to answer?
    The Chairman. They have all answered in the affirmative of 
our questions.
    Senator Wyden. Mr. Chairman, if I might just have a brief 
colloquy--and it follows up on what I touched on in my opening 
statement.
    I want to thank you, Mr. Chairman, for asking those 
questions, as we both feel it has been a bipartisan tradition 
in the Finance Committee for the chairman to ask those four 
questions to every nominee, regardless of which party holds the 
Senate majority, and regardless who is President.
    In particular, I want to emphasize the fourth question. We 
ask each nominee to assure us that he or she will provide a 
prompt response in writing to any questions addressed to them 
by any Senator of the committee. I emphasize the word ``any'' 
to remind our nominees the chairman and I expect nominees 
confirmed by this committee to provide prompt responses to 
questions from any member of the committee, Republican or 
Democrat.
    The Chairman. Well, thank you, Senator. I want to thank the 
ranking member. I agree with him on this. When I was the 
ranking member of this committee, the chairman, whether it was 
Senator Baucus or Senator Wyden, insisted that nominees agree 
to respond to questions asked by any member of this committee. 
I have taken the same position, and I will continue to do so.
    Senator Grassley. Mr. Chairman, can I give my comment on 
that?
    The Chairman. Yes, sir.
    Senator Wyden. And, Senator Grassley, if I could just 
respond very quickly to Chairman Hatch--and I know that you 
have been tenacious in working with both sides of the aisle on 
this, and I appreciate it. I am just running off to 
Intelligence.
    I want everybody to understand that what both Chairman 
Hatch and I have said this morning is that we are insisting 
that nominees agree to respond to questions asked by any member 
of this committee. As Chairman Hatch noted, this has been a 
really strong tradition of our committee.
    It goes back to Max Baucus and Chairman Grassley, and I 
just appreciate the chairman saying that he shares my view, 
that we are going to insist that nominees agree to respond to 
questions asked by--and underline it--any member of this 
committee.
    Senator Grassley, excuse my bad manners for having to run 
out. I am in the Intelligence Committee right now, but I 
appreciate both Chairman Hatch and you, because both of you 
have made a strong commitment to this over the years.
    The Chairman. I thank you, Senator.
    Senator Grassley?
    Senator Grassley. Well, as Senator Wyden was bringing up, I 
think part of this has been emphasized by something that the 
new administration made a decision to do. I just testified 
before the House Oversight Committee, where the issue was 
brought up by both Republicans and Democrats, and the 
Republican chairman responded very positively to the Democratic 
ranking member of the Oversight Committee about the necessity 
of any member of Congress, whether it is Republican or 
Democrat, having their oversight questions be answered as a 
constitutional responsibility of anybody in the executive 
branch of government as we do our constitutional 
responsibility.
    I am going to be sending a letter to the White House 
expressing my view as former chairman of this committee, as 
chairman of the Judiciary Committee, that whether you are 
Republican or Democrat, there is a 1979 court decision that 
makes it very clear that any member of Congress, not just the 
chairman, should have their requests answered, their questions 
answered, whatever the case might be.
    The Chairman. Well, thank you, Senator.
    Senator, I will turn to you for questions first. I will 
hold my questions until later.
    Let me just say, as I noted briefly in my opening remarks, 
today we have these four nominations under consideration by the 
committee. We are going to hear from each of the nominees 
today, in the order they are introduced.
    First, let me welcome Governor Tommy Thompson, one of the 
people I really most respect, whom I have had a lot of 
experience with over the years. He was just a terrific 
Governor--the longest-serving Governor in Wisconsin's history. 
Governor Thompson will be introducing Eric D. Hargan.
    Governor Thompson, the floor will be yours. We will go to 
you first.

               STATEMENT OF HON. TOMMY THOMPSON, 
           FORMER GOVERNOR OF WISCONSIN, MADISON, WI

    Governor Thompson. Thank you very much, Chairman Hatch, 
Senator Wyden. Members of this very distinguished committee, 
thank you very much.
    It is an honor and privilege for me to return to this 
distinguished committee to introduce a friend and outstanding 
individual, Eric Hargan, someone whom I was privileged to have 
worked with when I was Secretary of Health and Human Services.
    Eric has been nominated to serve as a Deputy Secretary of 
Health and Human Services. I am confident that there is no one 
more qualified, and he will serve with honor and great ability.
    Eric has outstanding academic credentials, including a 
degree from Harvard University--almost as good as the 
University of Wisconsin--and has had an incredible career. It 
is not well-known, but Eric can speak Mandarin Chinese. It 
gives you a sense of his impressive intellectual capabilities.
    But what most impresses me about Eric is where he came 
from. In many ways Eric's story parallels my own story.
    Eric grew up in Mounds, IL. I grew up in Elroy, WI. Both 
are small towns of under 1,500 individuals in rural America. 
They are towns under stress. Both had more people living there 
10 years ago than they do today, but they are places of 
wonderful communities. They are the kind of places where you 
can dial the wrong number and still end up talking for an hour.
    Eric's dad was a union steward, Commissioner on the county 
as my father was, and lived and owned land in the community. 
Eric grew up on a gravel road. He did chores early in the 
morning, and much of the food that his family ate came from 
their own land.
    Eric was taught early about the value of hard work and 
dedication. Like me, Eric still owns the family homestead. He 
remembers his values, where he came from.
    Eric has led a distinguished career, both in public service 
and in private practice. I had the privilege and pleasure of 
working with Eric at the Department during my time as 
Secretary. Eric served first as my Deputy General Counsel, 
managing a team of over 400 attorneys on a wide range of 
important matters. He went on to serve as Principal Associate, 
Deputy Secretary, and later on became the Acting Deputy 
Secretary, successfully overseeing all operations within the 
Department.
    I like to think of the Deputy Secretary, as Senator Wyden 
said, as the Department's chief operating officer. It is a 
position that keeps the trains running on time and makes sure 
the important public health programs of that great department 
are being run effectively and efficiently.
    It is a challenging job, but Eric did not start in life on 
a paved road, and I know he has the hard work, the dedication, 
and the intellectual capabilities to do the job well and in the 
best interest of the American people.
    In short, I strongly recommend the confirmation of Eric 
Hargan to serve as Deputy Secretary of Health and Human 
Services without any hesitation, and with a high degree of 
confidence. I want to thank this committee for giving me the 
opportunity to appear in front of you and to absolutely 
encourage you to support Eric Hargan.
    The Chairman. Thank you, Governor.
    Eric, that is a pretty strong statement there. I think it 
is a real tribute to you.
    I want to thank the Governor for showing up here.
    Next on our list is David Malpass. Mr. Malpass is an 
American economist who works for Encima Global, an economic 
research firm he founded in 2008.
    Recently, Mr. Malpass also served as an economic advisor to 
President Trump, during the 2016 presidential election. He has 
previously served as Deputy Assistant Treasury Secretary under 
President Ronald Reagan, Deputy Assistant Secretary of State 
under George H.W. Bush, and also worked as a chief economist 
for Bear Stearns. Prior to all of that, Mr. Malpass worked in 
Portland, OR as a CPA with Arthur Andersen System Consulting 
Group.
    Mr. Malpass holds a BA in physics from Colorado College and 
an MBA from the University of Denver. He also studied 
International Economics at Georgetown University School of 
Foreign Service.
    Third, we will hear from Andrew K. Maloney. Mr. Maloney has 
over 25 years of various government experience, including most 
recently as the vice president of global and external affairs 
for the Hess Corporation. Mr. Maloney also has served as CEO of 
Olgivy Government Relations, a prominent bipartisan government 
affairs firm. He has also served as a senior advisor to several 
presidential campaigns and counseled on presidential 
legislative transition efforts.
    Mr. Maloney's experience on the Hill includes senior 
positions in the House, including working for members of the 
House leadership.
    Mr. Maloney received his BA from Randolph-Macon College and 
his JD from the Catholic University's Columbia School of Law.
    Last but not least, we will hear from Brent McIntosh, who 
will be introduced by Senator Portman.
    Senator Portman, please take it away. We will turn to you 
to introduce Brent McIntosh.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
                    A U.S. SENATOR FROM OHIO

    Senator Portman. Mr. Chairman, thank you very much.
    I am honored to have the opportunity to introduce Brent 
McIntosh, who is a good friend and a former colleague who has 
been nominated to serve as General Counsel at the Treasury 
Department. As was indicated by the ranking member earlier, 
this is an incredibly important job.
    I also want to mention briefly, if I could, that I am 
delighted that David Malpass is willing to step up and serve 
again. He has provided good economic advice to me and many 
colleagues over the years, and I appreciate his service going 
back to the Reagan administration.
    With regard to Mr. McIntosh, however, let me just say 
briefly, I have known him for a long time. He served as Deputy 
Assistant Attorney General when I was U.S. Trade Representative 
in the George W. Bush administration. When I moved to OMB, the 
Office of Management and Budget, he served as the Associate 
Counsel to the President, as Deputy Assistant to the President, 
and as Deputy Staff Secretary.
    Mr. Chairman, as you know, I am a former Associate White 
House Counsel myself, and I served with a very distinguished 
lawyer by the name of Brent Hatch, your son. And as Brent will 
tell you, the jobs that this Brent has had are very tough jobs. 
He not only performed them well--and it is easy in those jobs 
to get people upset with you from time to time because of the 
advice you have to give--but he gained the respect of people 
across the board.
    In his time at the White House and at the Justice 
Department, I saw him rise through the ranks because people 
believed in his honesty, his intelligence, and his integrity. 
He was a professional, and I am really delighted that he is 
willing to step up and serve again.
    After his service in the Bush administration, he returned 
to private practice at the prestigious firm Sullivan and 
Cromwell, now head of their cybersecurity practice--a 
specialty, actually, which will be really important for the 
Treasury Department at this time as we deal with the growing 
threat of cyber-attacks.
    So I think that Brent McIntosh's diverse experience as a 
law clerk for two Federal Appeals Court judges, as an attorney 
in three different roles in the Bush administration, and as an 
attorney in private practice--a successful one--make him 
exactly the kind of candidate we ought to be promoting. I am 
very delighted to be here today to support his nomination, and 
I urge my colleagues to do the same.
    I thank you, Mr. Chairman, for giving me the opportunity to 
say a few words about Mr. McIntosh.
    The Chairman. Well, thank you, Senator. Those words are 
very, very influential with all of us, I am sure.
    That concludes the introductions for the four nominees as 
far as I can see. Because there are four nominees, I would ask 
that each of you limit your opening statements to no longer 
than 5 minutes each.
    We will start with you, Mr. Hargan. Please proceed if you 
will.

STATEMENT OF ERIC D. HARGAN, NOMINATED TO BE DEPUTY SECRETARY, 
    DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Mr. Hargan. Well, thank you, Mr. Chairman.
    I would like to start by acknowledging some of the members 
of my family who have joined me here today: my wife Emily, my 
sons Thomas and Joe, and my sister Jody, who has come in from 
Paducah, KY. So thank you all for being here with me today.
    I would also like to thank Governor Thompson for that warm 
introduction, and also thank all of the many dedicated public 
servants who have loaned their talents to such great effect at 
HHS over the years, such as Secretary Leavitt and Deputy 
Secretary Azar during my previous time at HHS. I learned a lot 
from Governor Thompson, Secretary Leavitt, and Deputy Secretary 
Azar.
    Thank you also, Chairman Hatch, and all of the members of 
the committee, many of whom I have already visited during this 
process. It has been a tremendous honor to meet with all of 
you, and I look forward, if I have the privilege to receive the 
approval of the Senate, to meet with and work with all of you 
on the future challenges and opportunities at HHS.
    Now I think it would be informative for me to give you some 
of my personal background over and above what Governor Thompson 
gave you. I am currently an attorney, most recently with a law 
firm in its Chicago office, specializing in health-care law. 
Before returning to the private practice of law, I served at 
HHS under the George W. Bush administration as Deputy General 
Counsel, then as Chief of Staff to the Deputy Secretary, and 
finally as Acting Deputy Secretary.
    My time at HHS serving in the position of Deputy Secretary 
has provided me with valuable experience that would help inform 
my work in the same role in this administration. I believe that 
my years at HHS will help me with understanding the Department 
and helping it fulfill the unique role the Department plays in 
ensuring that the many programs that you in Congress have 
committed to it are carried out well and faithfully, for the 
benefit of the millions of Americans who rely on them.
    And I understand this role, coming from my own personal 
background. Although I live in Chicagoland now, I am originally 
from deep southern Illinois, from a farm near a small town 
called Mounds, population 810 or so, now I believe. My father 
worked at a local DOE plant as a technician, and my mother was 
an X-ray tech. My father was also a Korean War veteran, having 
served as a sergeant in the Air Force as a mechanic. He was 
also, on and off--as Governor Thompson noted--a local 
politician, county commissioner, Pulaski County, VFW commander 
in Mounds, and he also served as a union shop steward at the 
local plant.
    My mother, originally from a small Finnish community near 
Duluth, MN, worked at our local health-care facility for 58 
years prior to passing away a few years ago. I say ``health-
care facility'' advisedly because she started at what was then 
St. Mary's Hospital in Cairo, IL. But this hospital underwent 
the same evolution that has happened to so many small-town 
hospitals throughout the country, as rural areas and their 
health-care systems have suffered so much in the past decades. 
St. Mary's, as is the unfortunate case with so many rural 
hospitals, is no longer around, although the good local people 
still continue to provide care to our community.
    After leaving high school, I attended Harvard College, then 
Columbia Law School, followed by years of private practice. And 
all along, I have tried to carry on the family tradition of 
public service, not only by joining President Bush's HHS, but 
serving as Governor Rauner's co-chair for his health care and 
human services transition in Illinois in 2014 and 2015, then 
working with the State of Illinois in its State Health 
Improvement Planning Council and the State Innovation Model 
Workgroup.
    So, between my father's example of public service and my 
mother's longtime work at our local hospital, in some ways 
combining public service and health care seems like fate to me. 
I am proud President Trump has shown confidence in me to 
nominate me to return to my former position at HHS.
    And in Secretary Price, I see a leader with an ideal 
background, a physician with experience as a provider in HHS's 
programs, as well as having been a leading legislator on 
Capitol Hill. I am hopeful that my experience as an attorney 
and administrator will serve as a good complement to him and 
enable us and the Department to achieve our mission on behalf 
of the American people.
    People have asked me, why go back in? But I cannot imagine, 
if given the opportunity by you, that I could turn away. The 
challenges are so great, whether in public health, in health-
care finance, in fostering innovation in health care, and in 
the administration of human services, that I cannot imagine not 
wanting to participate and to lend to the government both my 
past experience at HHS as well as the fruit of my years of work 
in the health-care sector since then to help as much as I can.
    At HHS, I found in my previous tenure a congenial group of 
public servants--who are dedicated to fulfilling their given 
tasks. There is a level of patriotism and good attitude that I 
think many outside would find surprising, given the level of 
rhetoric we often see. Certainly, in a reversal of many 
people's experiences, I walked out of a place of employment, 
HHS, less cynical than I went in. I believe that there is a lot 
we can do. We cannot solve everything at once, but we can, I 
believe, make a real and lasting difference in Americans' lives 
and health. That, in itself, will be a worthy goal.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Mr. Hargan appears in the 
appendix.]
    The Chairman. Mr. Malpass, we will turn to you.

STATEMENT OF DAVID MALPASS, NOMINATED TO BE UNDER SECRETARY FOR 
INTERNATIONAL AFFAIRS, DEPARTMENT OF THE TREASURY, WASHINGTON, 
                               DC

    Mr. Malpass. Chairman Hatch, Ranking Member Wyden, and 
distinguished members of the Finance Committee, thank you for 
the opportunity to appear before you today and for your 
consideration of my nomination to be Under Secretary of 
Treasury for International Affairs. I am deeply honored by the 
President's decision to nominate me, and I have very much 
appreciated meeting with many members of the committee and your 
staff this spring.
    Before discussing my own background, I would like to 
introduce my family and thank my wonderful wife, Adele, and our 
four children, Robert, Emily, Julia, and Peter. Robert and 
Julia are here beside me; my wife Adele is behind. They have 
shown wonderful support. My wife, Adele, is a former Budget 
Committee staffer and someone who cares deeply about pursuing 
policies that promote prosperity for all Americans. I am 
particularly grateful for her hard work and support over the 
last year and her unwavering commitment to our Nation. Thank 
you.
    Adele and I especially miss our parents on this occasion. 
They were keenly interested in public policy and would have 
been very proud to be here. Both our fathers died last year. 
They were intensely patriotic. They served in the army in World 
War II and chose to be buried with military honors. Adele's 
mother died earlier, and my mother was not able to travel from 
Colorado today, but I can feel their encouragement today as the 
Nation faces major challenges.
    While the position to which I have been nominated primarily 
relates to international issues, my meetings with many of you 
focused on the local impact on your constituents. I listened to 
the variety and depth of your interests and concerns, and it 
was a particular pleasure to meet with Senators from States 
where I have strong personal ties, namely Oregon, Colorado, 
Georgia, and Louisiana. If confirmed, I look forward to working 
with you on a wide range of international issues, knowing they 
will have significant impacts on citizens of every State.
    The Under Secretary for International Affairs is 
responsible for directing U.S. financial and economic relations 
with foreign countries and managing our roles in multilateral 
financial institutions such as the IMF and World Bank. The 
position also involves supervising those charged with running 
the CFIUS process, coordinating global financial regulatory 
standards, negotiating agreements affecting the U.S. financial 
sector, providing technical assistance to foreign financial 
systems, and protecting the trustworthiness of the U.S. dollar.
    I am ready and eager to take on these important 
responsibilities and believe my upbringing, education, and 40-
year career spanning government, finance, and economics have 
provided me with a solid foundation.
    I was raised in East Jordan, MI, a small town in northern 
Michigan. My great grandfather started an iron foundry there in 
1883 that was expanded by my grandfather, my father, and the 
cousins I grew up with. The East Jordan Iron Works, now called 
EJ Co., is a fifth-generation foundry which still prides itself 
on productivity, hard work, good-paying jobs, and strong 
communities.
    After earning a degree in physics, I then worked as a 
contract administrator at Esco Corporation, a steel foundry in 
Portland, OR. We made high-alloy steel used in digging 
equipment, nuclear castings, and pulp mills. Both companies are 
emblematic of the challenges and opportunities that will 
continue to face our economy in the coming decades: they battle 
foreign competition yet have prospered through innovation, 
flexibility, talented leadership, and strong, skilled workers.
    During the Reagan and first Bush presidencies, I worked on 
economic and international affairs at the Treasury and State 
Departments and served on the staff of the Senate Budget 
Committee and the Joint Economic Committee. I had the privilege 
of working for Secretary James Baker and for Senators Pete 
Domenici and Bill Roth on many of the economic issues of the 
1980s and early 1990s.
    After completing my government service, I moved to New York 
to work for Bear Stearns on macroeconomic analysis, later 
becoming chief economist. I subsequently started my own firm, 
Encima Global, which produced research on monetary and fiscal 
policy, markets, and currencies. I have written extensively for 
Forbes, The Wall Street Journal, and other national 
publications on growth, ways to improve spending and tax 
policies, the Federal Reserve, and currency stability as a core 
path to higher living standards.
    Thus, the theme of my upbringing, career, and publications 
is that policies have a big impact on growth, jobs, and wages, 
and that a key goal of fiscal and monetary policy development 
is to create higher living standards for working and middle-
income citizens in the United States and around the world.
    If confirmed, I will endeavor to fulfill my duties by 
working closely with this committee and others in the Senate 
and House.
    Thank you again for the opportunity to appear before you 
today. I would be happy to answer any questions.
    The Chairman. Thank you.
    [The prepared statement of Mr. Malpass appears in the 
appendix.]
    The Chairman. Mr. Maloney?

 STATEMENT OF ANDREW K. MALONEY, NOMINATED TO BE DEPUTY UNDER 
SECRETARY FOR LEGISLATIVE AFFAIRS, DEPARTMENT OF THE TREASURY, 
                         WASHINGTON, DC

    Mr. Maloney. Chairman Hatch, Ranking Member Wyden, and 
distinguished members of the Senate Finance Committee, it is an 
honor to appear before you today. I am humbled to have been 
recommended by the Treasury Secretary, Steven Mnuchin, and 
nominated by the President of the United States to serve as 
Assistant Secretary for Legislative Affairs at the Treasury 
Department. I have a deep respect for the history of the 
Department and fully appreciate the footsteps that I must 
follow in to uphold the traditions and mission of this 
position.
    I would like to take a moment to thank my family who are 
here today: first, my wife, Dr. Sabra Klein, who is an 
accomplished professor at Johns Hopkins University; our two 
children, Madeline and Stella; my father, a former Marine, 
Kerry Maloney, and my mother, Geri Maloney, whose first job was 
as a staffer to Congressman Sonny Montgomery on the Hill, here; 
my father-in-law, Colonel Peter Klein; and also my sister, 
Elise Kowalski, her husband, Ben, and their two children, Sam 
and Oliver.
    I would also like to thank all of the members and staff 
whom I have been able to visit with over the past couple of 
weeks. I enjoyed meeting with you and hearing your perspective. 
If confirmed, I look forward to continuing the dialogue that we 
have started, and my door will always be open.
    I grew up on a small farm in Rockingham County, VA. We 
raised poultry, sheep, and some beef cows. I was active in 4-H 
and the Future Farmers of America. Since my mother worked on 
Capitol Hill and my uncle was convention coordinator to Hubert 
Humphrey's presidential campaign, politics was always a 
discussion at our dinner table. I caught the bug early in life 
and wanted to work in government.
    My first opportunity to work on Capitol Hill was a college 
internship, working in the press office of Virginia Senator 
John Warner. My job was to look through hard copies of local 
newspapers for articles where he was mentioned, cut each 
article out, tape it on another piece of paper, photocopy and 
distribute it as part of the press clippings. I might add that 
the Internet has replaced that role.
    Upon completing college, I worked as a legislative aide in 
the Virginia General Assembly, gaining a firsthand view of how 
States must address budget and economic concerns. Upon 
completion of the General Assembly, I returned to Washington, 
DC to pursue law school and work on Capitol Hill. I was able to 
spend a summer working for Hon. Laurence J. Whalen at the U.S. 
Tax Court. Following law school, I was very fortunate to spend 
5 years working in the House of Representatives. I oversaw and 
managed legislative and State staff, reinforcing the importance 
of responding to the needs of constituents. I worked on a range 
of issues that included energy, financial services, tax, trade, 
appropriations, and transportation. I also served in House 
leadership and keenly understand the legislative dynamic 
between leadership and the committees and the need to work with 
colleagues in a bipartisan manner.
    I left Capitol Hill in 2002 to join a government affairs 
firm. During my tenure at the firm, I was asked to become the 
chief executive officer. In addition to providing strategic 
counsel to the firm clients, I was responsible for managing the 
day-to-day business of the company, coordinating with our 
parent company, and handling marketing and staffing decisions.
    I was very proud to have helped build one of the most 
successful bipartisan firms. After leaving the firm, I joined 
an American energy company, where I created an integrated 
global external affairs function, focusing on the intersection 
of public policy, public affairs, and economic conditions.
    As you know, the Treasury Department helps preserve and 
promote financial stability and security here in the U.S. and 
around the world. The Department has one of the most important 
functions in our government and is the premier financial 
institution in the world. I fully understand the enormity of 
the role of the Office of Legislative Affairs and the 
importance of the relationship this office has with Congress.
    If confirmed, I commit to being responsive to you and your 
staff. I will strive to ensure your views are communicated 
within the Department and pledge to maintain an open line of 
communication between the Department and Congress.
    Again, I would like to thank Chairman Hatch, the ranking 
member, the Senators, and the staff for your consideration. I 
look forward to responding to any questions that you may have.
    The Chairman. Well, thank you so much.
    [The prepared statement of Mr. Maloney appears in the 
appendix.]
    The Chairman. Mr. McIntosh, we will turn to you.

  STATEMENT OF BRENT JAMES McINTOSH, NOMINATED TO BE GENERAL 
      COUNSEL, DEPARTMENT OF THE TREASURY, WASHINGTON, DC

    Mr. McIntosh. Chairman Hatch, Ranking Member Wyden, members 
of the committee, thank you for the opportunity to appear 
before you today. I also thank Senator Portman for that 
generous introduction.
    I am honored to be the President's nominee to be General 
Counsel for the Department of the Treasury, and I am grateful 
to the Secretary for his confidence in recommending me for the 
position.
    I would like to take a moment to introduce the members of 
my family who are here today, starting with my wonderful wife 
Laura, without whom there is no chance I would be here; my 
three terrific kids: Mia, age 13; Rhys, age 10; and Ethan, age 
7--whom I would note had essentially memorized the musical 
``Hamilton'' before becoming aware that I was in consideration 
for a position at the Treasury--my parents, Carl and Shirley 
McIntosh, who have driven in from Williamston, MI for this 
hearing, and who have been represented ably by Senator Stabenow 
since she was an Ingham County commissioner in the 1970s. And I 
would acknowledge the absence of my sister, Beth Eiler, who 
wanted to be here today but is administering 8th grade science 
exams at Sexton High School in Lansing, MI.
    Since being nominated, I have had the opportunity to meet 
with several of you and your staffs, and I appreciate the 
courtesies you afforded me in hosting those meetings. From my 
prior Federal service, I am acutely aware of the need for a 
close working relationship with the Congress, and I look 
forward to working with you and your staffs to foster such a 
relationship, should I be confirmed.
    The challenges that the Treasury confronts, and the 
responsibilities of its chief legal officer in helping to 
navigate them, are daunting in both breadth and complexity. In 
the past 2 decades, I have twice watched the Treasury--
including in particular the General Counsel's office--grapple 
with pressing, emergent issues of grave global consequence. 
Having been in Manhattan's financial district on September 11, 
2001, I saw with my own eyes the horrors that terrorism wreaked 
that day.
    In the years following, I watched with deep gratitude the 
heroic work of Treasury personnel to bring to bear powerful 
financial tools to thwart those who would do us harm. And while 
serving on the White House staff from 2006 to 2009, I watched 
the tireless work of Treasury personnel to address urgent 
issues in the American economy.
    In both cases, the Treasury's dedicated, experienced, and 
immensely talented legal staff was central to the Department's 
efforts. It has long been apparent to me that it would be the 
honor of a lifetime to work among and lead that staff.
    One prior Treasury General Counsel said at his confirmation 
hearing that ``the legal issues facing the Treasury today are 
among the most critical in government.'' That statement has 
often been true, and I believe it is true today. Treasury has a 
crucial role to play in safeguarding the dynamism of the U.S. 
economy, in ensuring a fair and efficient tax system, in 
advancing this Nation's interests in the international arena in 
the world, and in bolstering our national security.
    I pledge that if confirmed, I will bring to my share of 
these tasks a commitment to rigorous legal analysis, zeal in 
the pursuit of the interests of the American people, and 
steadfast dedication to upholding the rule of law. I would 
strive to bring an unstinting devotion to duty inspired by the 
work ethic of my parents, both raised on farms in the thumb of 
Michigan. I would be guided at all times by the obligation of 
fidelity to the Constitution. And I would keep ever in mind the 
fundamental truth, articulated by a mentor of mine, that the 
demands of honor have special application to government 
service.
    Thank you for the opportunity to appear today. I look 
forward to your questions.
    The Chairman. Well, thank you so much.
    [The prepared statement of Mr. McIntosh appears in the 
appendix.]
    The Chairman. All four of you are just excellent, as far as 
I am concerned.
    I am going to defer my questioning to Senator Grassley, let 
him go first, and then we will go to our Senator from 
Pennsylvania.
    Senator Grassley?
    Senator Grassley. Mr. Chairman, I thank you for doing that.
    Congratulations to all of you for your important positions. 
I hope I can get one question to each of you. If I cannot, I 
will submit what I do not ask for answer in writing.
    I am going to start with Mr. McIntosh. As you may be aware, 
I have long been an advocate for whistleblowers. In 2006, I was 
successful in enacting legislation to enhance the IRS 
whistleblower program.
    That program has been one of the most effective programs in 
addressing tax evasion, leading to the recovery of more than 
$3.4 billion in taxes that otherwise the IRS would have never 
known about, except for whistleblowers reporting it.
    However, there have been concerns that some within Treasury 
and also some within IRS have resisted the whistleblower 
program and may be undermining its effectiveness. One concern 
is that Treasury and IRS have narrowly interpreted the 
whistleblower law to the detriment of whistleblowers in several 
instances.
    Example: the IRS has interpreted the term ``collective 
proceeds,'' which is the base for determining the amount of an 
award, to exclude criminal penalties and certain other 
proceeds, such as penalties assessed for undisclosed foreign 
bank accounts.
    My question is, should you be confirmed as General Counsel 
for the Treasury, could I count on you to be supportive of the 
whistleblower program and work to ensure its success? Would you 
be willing to review Treasury and IRS interpretation of the 
whistleblower law, including the present interpretation of 
``collective proceeds''?
    My question comes from just the common-sense approach that 
this $3.4 billion would not have been collected if somebody had 
not come forth and told about it.
    Mr. McIntosh. Senator Grassley, thank you for that 
question. I have long admired your leadership on whistleblower 
issues. I will commit to do the things that you have asked me 
to do.
    Senator Grassley. Thank you. That is all I can ask at this 
point, and I will try to keep in touch with you.
    I now go to Mr. Hargan. In your testimony, you mentioned 
your mother's work at St. Mary's Hospital in Cairo, IL. You 
said that the hospital is no longer around.
    You have hit upon an issue that is very important to me: 
the survival of rural hospitals. Along with Senators Klobuchar 
and Gardner, so it is a bipartisan bill--we call it the Rural 
Emergency Acute Care Hospital, and that is REACH, R-E-A-C-H, 
for short. The bill was introduced because of the alarming rate 
of closures of rural hospitals in the past several years. And 
of course, when a rural hospital closes, the community loses 
all health-care providers in the area.
    So put simply, my bill would allow critical access 
hospitals that no longer have the necessary inpatient volume to 
keep the doors open, to establish an emergency room, along with 
other services--just as an example: dialysis, home health, 
telemedicine, and outpatient. We do not dictate what they have 
to do, but we give those as examples.
    The center would not have inpatient, because it is about 
4.5 percent inpatient use of those beds. So you see, it is a 
high overhead.
    With a REACH designation, these centers would need to 
provide 24/7 transport of critical patients to tertiary care 
centers. That would be one of the main reasons for this 
legislation.
    So I hope you think it is a common-sense solution. I do not 
expect you to give me an answer on the bill now, but I would 
hope that you would be willing to work with my office to assure 
people living in rural areas, like most of Iowa, will have 
access to this just-in-time medical care.
    Mr. Hargan. Senator, I would be delighted to work with you 
and your staff on that. Rural health is very important to me.
    Senator Grassley. Okay. Thank you.
    I will have to quickly ask this question to Mr. Malpass. 
Over the last several years, we have seen an increase in the 
amount of foreign direct investment in the United States, 
specifically by China.
    In general, I do not oppose direct foreign investment, when 
people outside of the United States invest here and create 
jobs. I generally think that is a very good thing.
    However, the rise of state-owned enterprises, which operate 
in many cases on behalf of their governments, has changed the 
traditional foreign direct investment model. Today we read 
about Chinese state-owned enterprises buying American companies 
specifically to acquire technology and intellectual property.
    I know others in Congress have the same concerns. So just 
how do you view the rise of these state-owned enterprises in 
the global economy over the last decade? And by the way, this 
is in regard to beefing up the Committee on Foreign Investment, 
which is in your department.
    Mr. Malpass. Yes, thank you very much, Senator. That is an 
important question. These are complicated issues.
    So, as we think about the changing world, it is moving 
quickly, and as you said, China is gathering a role. The CFIUS 
process is an important one in evaluating national security 
interests, and I commit to making sure that it is supervised 
and staffed in a way that makes it possible to evaluate 
national security concerns as they relate to foreign investment 
in the United States.
    Senator Grassley. Thank you.
    Mr. Malpass. Thank you.
    Senator Grassley. I will submit Mr. Maloney my last 
question for answer in writing.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator.
    Senator Stabenow has one question.
    Senator Stabenow. Thank you, Mr. Chairman. I appreciate you 
allowing me to take a moment.
    I first want to thank my friend and colleague, Senator 
Grassley. He and I are working together on CFIUS and issues 
around food safety and food security. I want to associate 
myself with your comments.
    Mr. Chairman, I just had to take a moment, as we all do, in 
juggling a number of things today. I appreciate you letting me 
take just a moment to welcome the nominees.
    When I looked at the four nominees and two of them are from 
Michigan, I think that says a lot about how great our State is. 
So I just wanted to have the opportunity to welcome both of 
you. Public service is very important, and I am so pleased that 
you are putting yourselves forward.
    Brent McIntosh, I know your mom and dad are here, and your 
family. It is good to see you. Williamston is not far from 
where I live. So it is wonderful to have you. I know you are 
very proud of your son, a highly respected attorney, most 
recently at Sullivan and Cromwell. I am here today saying good 
words--even though I am a Michigan State grad and you went to 
the University of Michigan.
    Mr. McIntosh. Thank you so much, Senator.
    Senator Stabenow. I also want to welcome Mr. David Malpass, 
another Michigan native. I think your family is here as well. 
We thank you for your service in previous administrations, the 
Reagan administration, as well as in the George H.W. Bush 
administration. I appreciate your coming forward and being 
willing to serve.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator.
    We will now go to Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much.
    Let me start by saying how much I appreciate the statements 
by Chairman Hatch, Ranking Member Wyden, and Senator Grassley 
regarding the responsiveness--the duty to respond that Federal 
agencies have. I am grateful for that.
    I am also grateful for the nominees' willingness to serve, 
in some cases to serve yet again, and your families' dedication 
to that service as well, because I know when you serve, they 
serve along with you and sacrifice on your behalf.
    I will start my questions with Mr. McIntosh, with regard to 
the duties you would have as General Counsel at the Treasury 
Department. I will focus specifically on requests for 
information that a Senator would submit, and the question of 
responding to those requests regardless of party affiliation.
    Here is my question, Mr. McIntosh. As General Counsel, 
would you advise Secretary Mnuchin that it is improper--
improper--to only respond to requests from Republican offices 
and not requests from Democratic offices?
    Mr. McIntosh. Senator, thank you for that question. It is 
my view that a good working relationship with both houses of 
Congress and with both sides in both Houses is an essential 
aspect of service in the executive branch, and I would bring 
that message and that ethic to my role as general counsel.
    Senator Casey. And I appreciate that sentiment, but I need 
a ``yes'' or ``no'' answer to that question.
    Mr. McIntosh. Senator, I would want to look at the law 
underlying the request, but I would expect that it is not 
proper to simply take an off-the-table response to one side 
while responding to the other.
    Senator Casey. That is not a direct ``yes'' or ``no'' 
answer.
    Mr. McIntosh. Senator, I hesitate to weigh in on a 
hypothetical situation, but in a situation where I believe the 
law was in favor of a response, I would tell the Secretary that 
it was improper not to respond.
    Senator Casey. If another situation arose where a 
Republican office has received a response for information from 
the Secretary but a Democratic office has not received a 
response for similar information, what advice and 
recommendation would you provide?
    Mr. McIntosh. Senator, again, on a hypothetical situation 
like that, it sounds like the sort of thing where I would want 
to advise the Secretary that he ought to be responding without 
regard to the partisan alignment of the Senator in question.
    Senator Casey. Also, would you advise the Secretary to 
discuss information in sworn testimony to the committee if he 
is unable to provide the source of that information to the 
committee?
    Mr. McIntosh. I would be hesitant to do so. I do not know 
if there are hypothetical situations in which, for sources and 
methods reasons, one would want to do that with regard to 
national security information, but beyond the poverty of my 
imagination, I am not imagining a situation where that would be 
appropriate.
    Senator Casey. Let me give you the circumstance just for 
context.
    In January, I asked Secretary Mnuchin to provide a copy of 
a number of foreclosures that OneWest Bank engaged in in my 
home State of Pennsylvania--in this circumstance, while he 
owned the bank. I asked for that as well as State-by-State 
foreclosure data. That is part one. That was my request.
    Secretary Mnuchin provided similar information to the State 
of Nevada, pursuant to request by Senator Heller--in this case, 
the foreclosure numbers prior to his confirmation in January. 
He has yet to provide the same information to Democratic 
requesters--in this case to my office and to Senator Brown of 
Ohio.
    So we asked for the same information. He responded to the 
request of Senator Heller before confirmation and has yet to 
respond to ours. I hope you would remind him, and remind his 
team, that they have yet to respond.
    Mr. Maloney, I also have a question for you in your 
capacity as Under Secretary for Legislative Affairs. Republican 
members of our committee were provided with OneWest Bank 
foreclosure data 4 months ago. I followed up my verbal request 
with a question for the record, where the Secretary responded, 
``I have requested the additional foreclosure information.''
    The question I have for you is, when could I expect to 
receive the data that I requested on OneWest Bank's 
foreclosures in Pennsylvania and nationally?
    Mr. Maloney. Well, Senator, as you know, I am not yet 
confirmed. So I am not at the Treasury Department. So I am not 
familiar with the requests that you have made.
    As I said in my opening statement, I am fully committed to 
being open and transparent in this role and ensuring that we 
respond in a timely manner and have the adequate staff to 
respond in that matter. But I am not familiar with your 
requests.
    Senator Casey. Would it be true to say you agree with the 
statement that I just made reference to with regard to Mr. 
McIntosh, that if a Democratic Senator requests any 
information, but especially the same information requested by a 
Republican, that the Department has a duty to respond to the 
Democratic request as they would the Republican request?
    Mr. Maloney. It is my understanding that the Department has 
been responding to both Republicans and Democrats, and I intend 
to continue that tradition.
    Senator Casey. Thank you very much. I will have other 
questions in the next round.
    The Chairman. Thank you, Senator.
    Senator Cassidy?
    Senator Cassidy. Mr. Malpass, this is not directly under 
your stewardship, but there is an issue related to 
international competition. In the context of renegotiation of 
the U.S.-Norway Bilateral Tax Treatment, we asked President 
Obama's Treasury Department to rectify significant unfair tax 
advantage.
    Background: in 2007, Norway opened the door to a tax 
structure where Norwegian companies can operate in the U.S. 
outer continental shelf with virtually no tax liability in 
their home country. Clearly, that puts our U.S.-based companies 
at a severe disadvantage in these outer continental shelf 
operations.
    Just to put a point on it, there are disadvantaged workers 
and their families who are then laid off, and their future 
diminished, because the Norwegians have an unfair tax 
advantage.
    In 2016, March, the Louisiana delegation requested 
information from Treasury on whether this tax advantage would 
be addressed in the revised U.S.-Norway Tax Treaty, and we have 
yet to receive an answer.
    So, I know that this is technically under the Office of Tax 
Policy, but there is not even a nominee for that office yet. So 
I guess my question to you is, within your ability to do so, 
will you commit to assisting us in arranging a briefing from 
Treasury on this matter?
    Mr. Malpass. Absolutely. I would be happy to communicate 
with you and see what we can do within the Department, if I am 
confirmed. So I will work with you. It sounds like an important 
issue, and one that should be looked into.
    Senator Cassidy. On behalf of those families, thank you.
    Mr. Hargan, something that will eventually have to be 
addressed--looking at the work you have done in your legal 
career--is anti-kickbacks, Stark laws, et cetera. There seems 
to be kind of a growing recognition that as we attempt to align 
incentives and providers would go to a two-sided risk, that 
Stark laws may be now counterproductive. And hospitals which 
traditionally have opposed reforms of Stark laws but now have 
joint ventures, they seem to also recognize that this is 
counterproductive. I am giving you my position, obviously.
    But you have actually kind of worked on this in your legal 
practice. I am just trying to get your thoughts on that issue.
    Mr. Hargan. Thank you, Senator. In the position that I am 
going into as Deputy Secretary, I would look forward to looking 
at that and helping implement anything that you all do in terms 
of reforms to the system in order to achieve a goal of 
coordinated care, or any of the other issues where I think 
people who have commented in this area have seen, perhaps, a 
conflict between the Stark law on one hand and the goals of 
coordinated care, community care systems, on the other, and 
other types of reform.
    But obviously, this rests within the hands of Congress to 
consider any changes to that law. But if I am put into the 
position of Deputy Secretary, I would be happy to work to 
implement those laws within the Department.
    Senator Cassidy. Now clearly, you have kind of a granular 
understanding of the issue, I presume, just because you have 
been involved in that. Would you give recommendations if, in 
the theoretical, we were to undertake--and with my chairman up 
there and his staff taking notes--a granular way to sort of 
address this?
    Mr. Hargan. That is what I do in my private life, is work 
at a very great degree of granularity, and I would look forward 
to applying that same focus at HHS and work with you all and 
with the Department to make sure that that is well done.
    Senator Cassidy. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Well, thank you so much.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Hargan, continuing on health care--I read some of your 
comments. I wondered if there were things in the Affordable 
Care Act that you think were working and that we should keep?
    Mr. Hargan. Well, Senator, obviously that is the subject of 
a lot of dispute here on Capitol Hill. I know that you all 
have--there is a lot of policy----
    Senator Cantwell. My colleague from Louisiana has said 
there are things that are working, and that the States should 
keep them if they want to.
    Mr. Hargan. There have certainly been some things in the 
health-care landscape that have changed. I am not particularly 
a policy person in this area to opine about the influence of 
the Affordable Care Act and all the changes in the health-care 
landscape that have taken place.
    Senator Cantwell. Okay. Let us say, for example, you can 
have clout. I know you have kind of disparaged moving further 
with expansion of the children's health care program as more 
government. But sometimes, when bundling up individuals, like 
we have been able to do in some of these markets--New York, 
Minnesota--you can get leverage by bundling up a large 
population and serving them up to the providers.
    Obviously, you may get more cost-effective for them. The 
consumer gets clout because, if they are an individual not with 
a major employer, it gets them clout. They can be bundled up 
and get clout that way.
    Do you think that is a good idea?
    Mr. Hargan. Well, you can always achieve efficiencies 
within the health-care system by allowing people to work 
together in the system. It is always an issue about exactly how 
you all might reform this system in order to allow that to take 
place most efficiently and well within the confines that we 
have within the current system.
    Senator Cantwell. So I will get you more specifics on that, 
and maybe you can give me a little more detailed answer.
    The same on rebalancing--we have been very big proponents 
of pushing States to establish a focus on community-based care 
versus nursing home care because it can save huge dollars for 
individual States and for individual families.
    Is that a concept that you think might be something that 
you could support?
    Mr. Hargan. I think that that is an issue where both 
patients and the physical health of the programs pull in the 
same direction. Moving people from institutional care to 
community-based and home-based care is a place where it seems 
like the market is going. And I think that both patients and 
the programs themselves might be well-served by moving more in 
that direction.
    Senator Cantwell. And if we could encourage them to do so, 
it would be good?
    Mr. Hargan. Encouraging people to move into their 
communities, I think that--from what I have seen--I am not a 
physician in this area----
    Senator Cantwell. We will get you some more on that too, 
because we think these are initiatives that are saving for 
consumers and for institutions and for government. So we think 
it is a win for everyone.
    If I could, Mr. McIntosh, I know Secretary Mnuchin has been 
before the committee talking about a 21st-century Glass-
Steagall proposal. Do you know--he is doing this regulatory 
review as part of the operations. Is he anticipating including 
a proposal in there?
    Mr. McIntosh. Senator, I appreciate the question. As I am 
not in the Department now, I am not privy to the deliberations 
regarding the regulatory reform proposals the Secretary intends 
to propose, and I do not know whether 21st-century Glass-
Steagall would be among them.
    Senator Cantwell. Do you think it is a good idea?
    Mr. McIntosh. Senator, I do not pretend to have an 
expertise on what policies this body ought to adopt in that 
space.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Well, thank you.
    Senator Casey has a couple more questions.
    Senator Casey. Mr. Chairman, I know we are ready to wrap 
up, but I just have a question for Mr. Hargan.
    We have a dispute with HHS about responsiveness to letters. 
Let me just quickly ask you this question. If you are 
confirmed, do you commit to respond in a timely manner to all 
congressional inquiries and requests for information from 
members of Congress, including requests from members in the 
minority?
    Mr. Hargan. I do commit.
    Senator Casey. Thank you. Mr. Chairman, the last thing I 
will do is, I would ask consent to enter into the record a 
letter I sent to Secretary Mnuchin dated May 25, 2017, 
regarding these requests to the Treasury.
    The Chairman. Without objection, it will be in the record.
    [The letter appears in the appendix on p. 23.]
    Senator Casey. Thank you, Mr. Chairman.
    The Chairman. Well, thank you.
    I want to say that I have been around here a long time, and 
I think all four of you, each of you, is an excellent pick by 
this administration. I look forward to working with you and 
helping you as much as we possibly can on this committee.
    I am proud that you are willing to serve. We welcome your 
families here, your children, other members of your family, and 
we just want to thank you for your willingness to serve. It is 
very difficult sometimes to serve in these positions, and 
sometimes you get no credit for it at all. All you get is 
abuse, but the fact of the matter is, you are willing to do it. 
And each of you has special expertise in your particular areas 
that I think will benefit this country greatly.
    So with that, then, we will recess until further notice. 
Thank you.
    [Whereupon, at 11:03 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


             Letter Submitted by Hon. Robert P. Casey, Jr.

                          United States Senate

                          WASHINGTON, DC 20510

                              May 25, 2017

                          Robert P. Casey, Jr.

                              Pennsylvania

                               COMMITTEES

                  Agriculture, Nutrition, and Forestry

                                Finance

                 Health, Education, Labor, and Pensions

                       Special Committee on Aging

                        Joint Economic Committee

Dear Secretary Mnuchin:

In January, I submitted a question for the record asking you provide a 
copy of the letter to HUD you referenced in your sworn testimony with 
regards to reverse mortgages. In addition, I asked you provide State 
and national foreclosure data from OneWest Bank. You will recall, you 
provided this information to Senator Heller, a Republican member of 
this committee, prior to your confirmation, but have as of yet failed 
to provide this information to Democratic requesters.

In response to my January 25, 2017 question for the record, you stated, 
``I have requested the additional [foreclosure] information as well as 
the referenced [HUD] letter.''

The full question is below.

1. Response to Casey Question 23 and 23 a-d: Mr. Mnuchin, in addition 
to your providing the total number of foreclosures executed by OneWest 
bank, please provide the following sub-data:
a. The foreclosure rate on mortgages owned by OneWest;
b. The foreclosure rate on mortgages serviced by OneWest;
c. The modification rate of mortgages owned by OneWest; and
d. The modification rate of mortgages serviced by OneWest.

You did not provide a response to the question; further, you provided 
assurances when we met that you would provide national foreclosure 
data, and assurances to my staff you would provide a copy of the letter 
referenced in your testimony to the Committee. Please do so.

Amended Response:
I have requested the additional information as well as the referenced 
letter.

In accordance with your stated response:

Please provide the committee by COB Friday a copy of your 
correspondence requesting the letter on reverse mortgages.

Please provide the committee by COB Friday a copy of your 
correspondence requesting State and national foreclosure information.

Sincerely,

Robert P. Casey, Jr.
United States Senator

                                 ______
                                 
Prepared Statement of Eric D. Hargan, Nominated to be Deputy Secretary, 

                Department of Health and Human Services
    Thank you, Governor Thompson, for that warm introduction. And also, 
thank you to the many dedicated public servants who have loaned their 
talents to such great effect at HHS over the years, such as Secretary 
Leavitt and Deputy Secretary Azar during my previous time at HHS. I 
learned so much from them. Thank you also to Chairman Hatch, Ranking 
Member Wyden, and all of the members of the committee, many of whom I 
have already visited during this process. It has been a tremendous 
honor to meet with you, and I look forward, if I have the privilege to 
receive the approval of the Senate, to meet with and work with all of 
you on future challenges and opportunities at HHS.

    I would like to start by acknowledging some of the members of my 
family who have joined me here today: my wife Emily, my sons Thomas and 
Joe, and my sister Jody, who has come in from Paducah, Kentucky. Thank 
you all for being here with me today!

    Now I think it would be informative for me to give you some of my 
personal background. I am currently an attorney, most recently with a 
law firm in its Chicago office, specializing in health law. Before 
returning to the private practice of law, I served at HHS under the 
George W. Bush administration, as Deputy General Counsel, then as Chief 
of Staff to the Deputy Secretary, and finally as Acting Deputy 
Secretary. My time at HHS serving in the position of Deputy Secretary 
has provided me with valuable experience that will help inform my work 
in the same role in this administration. I believe that my years at HHS 
will help me with understanding HHS and helping it fulfill the unique 
role the Department has to play in ensuring that the many programs 
Congress has committed to it are carried out well and faithfully, for 
the benefit of the millions of Americans who rely on them.

    I understand this role, coming to it from my own personal 
background. Although I live in Chicagoland now, I am originally from 
deep southern Illinois, from a farm near a small town called Mounds, 
population 810 now I believe. My father worked at a local DOE plant as 
a technician, and my mother was an X-ray tech. My father was also a 
Korean War veteran having served as a sergeant in the Air Force as a 
mechanic. He was also, on and off, a local politician, as county 
commissioner in Pulaski County, VFW commander in Mounds, and he also 
served as a union shop steward in the local plant.

    My mother, originally from a small Finnish community near Duluth, 
worked at our local health-care facility for 58 years prior to passing 
away a few years ago. I say ``health-care facility'' because she 
started at what was then St. Mary's Hospital in Cairo, Illinois. This 
hospital underwent the same evolution that has happened to many small 
town hospitals throughout the country, as rural areas and their health-
care systems have suffered so much in the past decades. St. Mary's, as 
is the unfortunate case with many rural hospitals, is no longer around, 
although the good local people still continue to provide care to the 
community.

    After leaving high school, I attended Harvard College and then 
Columbia Law School, followed by years of private practice. And all 
along, I have tried to carry on the family tradition of public service 
not only by joining President Bush's HHS, but also serving as Governor 
Rauner's co-chair for his health care and human services transition in 
2014 and 2015, and then volunteering for the State of Illinois on its 
State Health Improvement Planning Council and the State Innovation 
Model Workgroup. I also serve my community as a precinct committeeman 
for my township, and help as much as I can with our parish and school 
at St. Isaac's.

    So, between my father's example of public service and my mother's 
longtime work at our local hospital, in some ways combining public 
service and health care seems like fate to me. I am proud that 
President Trump has shown confidence in me to nominate me to return to 
my former position at HHS. And in Secretary Price, I see a leader with 
an ideal background: a physician with experience as a provider in HHS's 
programs, as well as having been a leading legislator on Capitol Hill. 
I am hopeful that my experience as an attorney and administrator will 
serve as a good complement to him, and enable us and the Department to 
achieve our mission on behalf of the American people.

    People have asked me: why go back in? But I cannot imagine, if 
given the opportunity by you, that I could turn away. The challenges 
are so great, whether in public health, in health-care finance, in 
facilitating innovation in health care and in the administration of 
human services, that I cannot imagine not wanting to participate, and 
to lend to the government both my past experience at HHS, as well as 
the fruit of my years of work in the health-care sector since then, to 
help as much as I can.

    At HHS, I found in my previous tenure a congenial group of public 
servants, who are dedicated to fulfilling their given tasks. There is a 
level of patriotism and good attitude that I think many outside would 
find surprising, given the level of rhetoric we often see. Certainly, 
in a reversal of many people's experiences, I walked out of a place of 
employment, HHS, less cynical than I went in.

    This does not mean that HHS does not have any challenges that need 
to be addressed. And in the Deputy Secretary position, as the chief 
operating officer of the Department, you see the issues and details up 
close. The office helps implement the laws that the Department has been 
given, coordinates the agencies and divisions, and ensures the 
Department runs efficiently. For so large an enterprise, this is a 
daunting goal. But I believe with good will and the assistance of the 
staff at HHS, and the Congress, that this is not an impossible task. We 
cannot solve everything at once, but we can, I believe, make a real and 
lasting difference in Americans' lives and health, and that in itself 
would be a worthy goal. Thank you.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Eric D. Hargan.

 2.  Position to which nominated: Deputy Secretary of the Department of 
Health and Human Services.

 3.  Date of nomination: April 4, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: June 3, 1968, Cape Girardeau, Missouri.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted): Meridian High 
School, 1982-1986, high school degree; Harvard University, 1986-1990, 
BA cum laude in philosophy, June 1990; Columbia University Law School, 
1990-1993, J.D., May 1993.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

    Title: Assistant
    Employer: Law Offices of Gloria E. Thurston
    Location: Pulaski, Illinois
    Dates: Summer 1990
     Description: Assisted a solo law practitioner with various 
administrative tasks.

    Title: Associate, Corporate Department
    Employer: Skadden, Arps, Slate, Meagher, and Flom
    Location: Chicago, Illinois; Hong Kong; Jakarta, Indonesia
    Dates: 1993-1996, Summer 1992
     Description: Summer Associate, Summer 1992. Associate attorney in 
Corporate Department. Sole representative of the firm in its Jakarta, 
Indonesia workspace, based out of the Hong Kong office, 1996.

    Title: Associate and Partner, Corporate Department
    Employer: Winston and Strawn
    Location: Chicago, Illinois
    Dates: 1997-2003
     Description: Attorney in Chicago office, working primarily on 
mergers and acquisitions, securities, and corporate finance. Elected 
partner in 2001.

    Title: Deputy General Counsel
    Employer: U.S. Department of Health and Human Services
    Location: Washington, DC
    Dates: 2003-2005
     Description: Assisting the General Counsel in managing a team of 
over 400 attorneys advising HHS agencies on a wide range of litigation, 
regulatory, and contract matters.

    Title: Principal Associate Deputy Secretary
    Employer: U.S. Department of Health and Human Services
    Location: Washington, DC
    Dates: 2005-2007
     Description: Served as principal deputy and chief of staff to the 
Deputy Secretary, then as Acting Deputy Secretary of the Department.

    Title: Partner, Health Law Department
    Employer: McDermott, Will, and Emery
    Location: Chicago, Illinois
    Dates: 2008-2010
     Description: Work concentrated in health-care transactional and 
regulatory areas.

    Title: Shareholder, Health, and FDA Business Group
    Employer: Greenberg Traurig, LLP
    Location: Chicago, Illinois
    Dates: 2010-2017
     Description: Work focused on transactions, health-care regulations 
and government relations. Within the transactional area, concentrated 
on mergers and acquisitions and corporate finance in the health-care 
sector.

    Title: Adjunct Professor of Law
    Employer: Loyola University Law School
    Location: Chicago, Illinois
    Dates: 2012-2017
    Description: Taught a course on administrative law and health-care 
regulations.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

     Co-Chair and Convener of Illinois Governor Rauner's Healthcare and 
Human Services Transition Committee, 2015-2016.

     Member, Illinois State Health Improvement Plan Planning Council, 
2015-2016.

     Member, Illinois State Innovation Model (SIM) Workgroup, 2015-
2016.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution): Shareholder, 
Greenberg Traurig, LLP.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     Member, Executive Board, Chicago Lawyers Chapter, Federalist 
Society.

     Policy Fellow, American Conservative Union Foundation.

     Oblate, Order of St. Benedict.

     Knight, Order of Malta, Federal Association.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       Precinct Committeeman, Downers Grove Township Republican 
Organization.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       Volunteer, 72-Hour GOTV Strike Force, Bush-Cheney 2004.
       Volunteer, GOTV team, Republican National Committee, 2006.
       Volunteer, GOTV team, Republican National Committee, 2008.
       Member, Finance Committee, Bill Brady for Governor, 2010.
       Delegate, Illinois State Republican Convention, 2012.
       Delegate, Illinois State Republican Convention, 2016.
       Precinct Committeeman, Downers Grove Township Republican 
Organization.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       McCain Victory Committee, 9/29/2008, $2,300.00
       Oklahoma Leadership Council, 10/26/2008, $500.00.
       McCain-Palin Victory 2008, 10/27/2008, $1,000.00.
       Kirk for Senate, 12/14/2009, $1,000.00.
       Bill Brady for Governor, 2010, approx. $8,000.00.
       Bobby Schilling for Congress, 10/16/2010 $350.00.
       Perry for President, 9/30/2011, $2,500.00.
       Dold for Congress, 11/22/2011, $250.00.
       Romney Victory, Inc., 9/6/2012, $10,000.00.
       Tommy Thompson for Senate, 10/31/2012, $500.00.
       Duffy for Wisconsin, 11/3/2012, $250.00.
       Ted Cruz for Senate, 5/30/2013, $1,000.00.
       George P. Bush for Texas Land Commissioner, 2014, $1,000.00.
       Downers Grove Township Republican Organization, 2014, $1,000.00.
       Downers Grove Township Republican Organization, 2015, $1,000.00.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     Harvard College Scholarship, Harvard University.

     Dean's List, Harvard University.

     Eliot Thesis Prize, Harvard University.

     Senior Editor, Columbia Law Review.

     Certificate of Recognition in International Law, Parker School of 
Foreign and Comparative Law, Columbia University.

     Recipient, HHS Secretary's Award for Distinguished Service.

     Member, Winning Team, Global M&A Network's 2012 Turnaround Atlas 
Award for ``Private Equity Turnaround of the Year'' for the Chapter 11 
reorganization and acquisition of American Laser Skincare LLC.

     Member, Winning Team, M&A Advisor Awards, ``Healthcare and Life 
Sciences Deal of the Year (from $10mm to $500mm)'' for the Chapter 11 
sale of ATLS Acquisition, LLC, dba Liberty Medical Supply, Inc., 2015.

     Member, Winning Team, Global M&A Network's Turnaround Atlas 
Awards, ``Turnaround of the Year--Small Markets'' for the restructuring 
and sale of ATLS Acquisition, LLC (dba Liberty Medical), 2015.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

     ``Medical Tourism and India,'' India Law News, Spring/Early Summer 
2012.

     ``Managed Care,'' Hospital Legal Forms, Checklists, and 
Guidelines, Aspen Publishers, 2012.

     ``The Internet, Information Technology, and the FDA,'' in Inside 
the Minds: Recent Development in Food and Drug Laws, Aspatore Books, 
2012.

     ``Compliance,'' Hospital Legal Forms, Checklists, and Guidelines, 
Aspen Publishers.

     ``A Realistic Approach to Food Safety Regulation,'' Food Quality, 
June/July 2010.

     ``Are REMS Doing More Damage than Good?'' FDLI's Update magazine, 
March/April 2010.

     ``Quality Ingredients From Across the Ocean,'' QA magazine, March/
April 2010.

     ``The FDA Shifts From Food Safety to Public Safety,'' Food 
Quality, December/January 2010.

     ``Antibribery Crackdown Transforms Business Practices in China,'' 
MX magazine, December 2009.

     ``Faking It,'' BioPharm, December 1, 2009.

     ``Safer Chinese Food,'' Food Product Design, November 10, 2009.

     ``Institutional Conflicts of Interest: Identifying and Managing 
Them in Life Sciences,'' FDLI's Update magazine, May/June 2008.

     ``Vaccine Law 101,'' Journal of Law, Medicine, and Ethics 35:72-
76, 2007.

     ``The Sovereignty Implications of Two Recent Supreme Court 
Decisions,'' Federalist Society, 2003.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

     ``FDA Master Class: Uncovering Device Regulatory Trends and 
Hurdles to Expedite Speed to Market,'' 4th Annual Medical Device 
Product Management Conference, Chicago, IL, October 27, 2016.

     ``Regulatory Considerations, Clinical Trials, and the FDA,'' 
American College of Surgeons Clinical Congress, Washington, DC, October 
19, 2016.

     ``Perspectives on Biosimilars,'' Biosimilars and Biobetters USA 
Conference, Iselin, New Jersey, April 7, 2014.

     ``The Affordable Care Act: What Employers Need to Know,'' Water 
Quality Association--Aquatech USA Conference, Orlando, FL, March 18, 
2014.

     ``Affordable Care Act: Update,'' Lexvid Presentation, March 5, 
2014.

     ``Health Insurance Exchanges: What Employers Need to Know,'' 
National Business Institute, Chicago, IL, December 17, 2013.

     ``W-2 Reporting Requirements Under the Affordable Care Act,'' 
National Business Institute, Chicago, IL, December 17, 2013.

     ``Drugs and Biologics: Labeling,'' FDA Book Camp, American 
Conference Institutes, New York, NY, March 19, 2013.

     ``Search Engines, Medical Apps, and the FDA,'' Health Information 
and Technology Group Annual Luncheon, AHLA Annual Conference, Chicago, 
IL, June 26, 2012.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     I had the privilege to serve the Department previously as Acting 
Deputy Secretary for a period, which served as preparation for serving 
in this same position. Prior to serving in that capacity, I served HHS 
as Principal Associate Deputy Secretary, acting as chief of staff to 
the Deputy Secretary. Prior to that, I served HHS as Deputy General 
Counsel, which, together with the other positions, enabled me to 
understand many separate parts of the Department and how they work 
together to achieve the goals set for them.

     More recently, I served as a volunteer member of the State of 
Illinois' State Health Improvement Plan Planning Council and its State 
Improvement Model Workgroup, enabling me to see more closely how the 
programs administered by HHS affect its State partners, and how the 
States implement their own programs.

     Finally, I have worked as a health-care attorney in the private 
sector for over 9 years since leaving HHS, which enables me to 
understand better how HHS interacts and works with the private sector 
through many of its programs. In all of these ways, whether through 
experience at HHS in this same role of Deputy Secretary, in other 
offices at HHS, in working with the State of Illinois, or through my 
experience as a private-sector health-care attorney, I believe that I 
could bring my experience to bear in helping HHS implement its programs 
and fulfill its responsibilities to the American people.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

    Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

    No.


 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

    No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    None.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     None, except routine representation of clients in the health-care 
sector.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     I served as the Treasurer of the Coalition to Protect Patient 
Rights, an organization which sought to prevent passage of the 
Affordable Care Act in 2009-2010. I did not engage in any public duties 
for the organization.

     I was registered as a lobbyist for Aquadvantage from 2008 to 2010.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the committee with two copies of any trust or other 
agreements.)

     I am signing an ethics agreement prepared for and reviewed by the 
Office of Government Ethics. Copies have been provided.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

    Copies have been provided.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

    No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

    No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

    No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

    No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

    None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

    Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

    Yes.

                                 ______
                                 
          Questions Submitted for the Record to Eric D. Hargan
               Questions Submitted by Hon. Orrin G. Hatch
    Question. The Deputy Secretary role at the Department of Health and 
Human Services (HHS) has often been compared to that of a train 
conductor as the job is primarily to keep the trains running and make 
sure all of the programs are on track. HHS is a massive department, 
covering a large range of issues and programs. Can you describe what in 
your history has helped prepare you to help lead such a complex 
department?

    Answer. I am currently an attorney, specializing in health law. 
Before returning to the private practice of law, I served at HHS in the 
George W. Bush administration, as Deputy General Counsel, then as Chief 
of Staff to the Deputy Secretary as Principle Associate Deputy 
Secretary, and finally as Acting Deputy Secretary. My time at HHS 
serving in the position of Deputy Secretary has provided me with 
valuable experience that will help inform my work in the same role in 
this administration. I believe that my prior years at HHS will help me 
with understanding HHS and helping it fulfill the unique role the 
Department has to play in ensuring that the many programs Congress has 
committed to it are carried out well and faithfully, for the benefit of 
the millions of Americans who rely on them.

    Question. One of the most critical parts of your role as Deputy 
Secretary will be ensuring adequate oversight over the programs that 
comprise HHS's trillion dollar plus budget. What plans do you have to 
continue current oversight efforts ongoing at HHS? How do you propose 
to work with Congress on that?

    Answer. If confirmed, I will faithfully implement the laws written 
by Congress and the regulations issued by the Department. It is 
exceptionally important that the different branches of HHS coordinate 
their enforcement of final rules. To facilitate this, I will implement 
standards and procedures that establish clear lines of communication 
between staff divisions and operating divisions and require their 
routine input on implementation. If a member of Congress contacts the 
Department with issues or concerns about any HHS program, I promise 
that each instance will be a top priority. The work of Congress and its 
staff is valuable in identifying and solving problems, and I look 
forward to working closely with the Congress in the years to come.

    Question. In 2014, the GAO reported that some $60 billion in 
taxpayer money, or more than 10 percent of Medicare's total budget, was 
lost to fraud, waste, abuse, and improper payments. A GAO report in 
2011 concluded that Medicaid had $21.9 billion in improper payments. Do 
you have any thoughts on steps you think should be taken to address the 
multi-billion-dollar problem of waste, fraud, and abuse in these 
programs?

    Answer. I am committed to working with all government agencies and 
the Congress to ensure that taxpayer dollars are better safeguarded and 
that scarce resources go to those who are both truly in need of them 
and legally eligible for assistance. The fiscal year (FY) 2018 budget 
strengthens the integrity and sustainability of Medicare and Medicaid 
by investing in activities that prevent fraud, waste, and abuse and 
promote quality and efficient health care. For FY 2018, the budget 
assumes $2.1 billion in total mandatory and discretionary investments 
in the Health Care Fraud and Abuse Control program.

    Recent investments in Health Care Fraud and Abuse Control have 
allowed for the expansion of fraud and abuse prevention efforts and led 
to a shift away from the ``pay-and-chase'' model toward preventing 
fraud, waste, and abuse on the front end. The Health Care Fraud and 
Abuse Control investment also supports efforts to reduce the Medicare 
and Medicaid improper payment rates, while implementing new processes 
to reduce provider burden. Program integrity returns on investment are 
measured by program area and separately reported by activity type.

    There are three key ways in which returns from program integrity 
activities are described. First, programs supported by Health Care 
Fraud and Abuse Control Program mandatory funds have a proven record of 
returning more money to the Medicare trust funds than the dollars 
spent. The most recent estimate of the Medicare Integrity Program 
return on investment is $12 to $1, and the Medicare Integrity Program 
has recently yielded a consistent return of over $10 billion in savings 
annually.

    Second, the 3-year rolling average return on investment for Health 
Care Fraud and Abuse Control law enforcement activities is $5 to $1. In 
FY 2016 alone, $3.3 billion was recovered, including $1.7 billion 
returned to the Medicare trust funds and $235.2 million in Federal 
Medicaid recoveries returned to the Treasury.

    Third, CMS actuaries conservatively project that for every new 
dollar spent by HHS to combat health-care fraud, about $2 is saved or 
avoided.

    Question. Mr. Hargan, we are living in an aging society, and as 
time goes on we will need more qualified doctors, nurses, and other 
health-care providers to meet the increased medical needs of this older 
population. What thoughts do you have into how public policy can 
encourage an increase in the number of new doctors, nurses, and other 
health-care providers entering into and remaining in the medical 
profession?

    Answer. Workforce issues are a major challenge in health care. We 
must work to expand career options and paths for all health-care 
professionals. It is critical that we as a Nation make sure that every 
single individual has access to the kind of health care that they need. 
If confirmed, I look forward to working closely with you and the other 
members of Congress to ensure that the health-care workforce is 
adequately, if not robustly, staffed for this and future generations.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. As I've raised with Secretary Price and the Obama 
administration previously, I have serious and continued concerns about 
the state of the Indian Health Service. In 2010, an administrative 
action plan was established after systemic problems were uncovered in 
South Dakota. Similar issues arose in 2015, and those issues continue 
to surface, even though two IHS facilities in South Dakota have entered 
into historic Systems Improvement Agreements with the Centers for 
Medicare and Medicaid Services (CMS). It has now been over a year since 
entering into these agreements, but CMS continues to find serious 
deficiencies at both facilities. In fact, the Pine Ridge emergency 
department is currently in Immediate Jeopardy Status after a recent 
unannounced site visit from CMS. This places the community in danger of 
losing their emergency department services and again proves that IHS is 
not delivering quality care. Over the years, IHS has provided responses 
of positive change and improvement when I have asked for progress 
updates, and yet these reports never match up to what I hear from 
tribal members who are receiving their care from IHS. What is the 
Department's plan to ensure that meaningful and long term action is 
taking place to correct these problems?

    Answer. I am not familiar with the specifics of the Pine Ridge 
Systems Improvement Agreement but am aware of the unique challenges 
facing Indian country, and specifically the Great Plains Area. During 
my previous tenure at HHS, I worked on many Indian Health Service 
issues, and if confirmed, I look forward to working with Congress, 
tribal partners, and health-care stakeholders to ensure access to 
quality care for all patients.

    Question. As I indicated to Secretary Price during his confirmation 
hearing, last year Senator Barrasso and I introduced the IHS 
Accountability Act to facilitate significant changes to the way things 
work at IHS. Teaming up with more Senators and Representatives, we've 
proposed an improved version this year, the Restoring Accountability in 
the IHS Act. This bill will give HHS the flexibility to terminate 
poorly performing employees, streamline the hiring process so IHS can 
recruit talented medical professionals more quickly, and create 
incentives so those folks will stay on the job longer. Will the 
Department commit to working with us on this bill, and other reforms to 
fix IHS?

    Answer. During my previous tenure at HHS, I worked on many Indian 
Health Service issues, and if confirmed, I look forward to working with 
you to achieve our common goal of providing quality health care to all 
Americans, including American Indian and Alaska Native communities.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
                 food and drug administration follow-up
    Question. Mr. Hargan, if you are confirmed to be Deputy Secretary, 
you will have a great deal of power to determine how the Department 
carries out policy.

    For example, in 2007, the Food and Drug Administration was facing 
criticism for not doing enough to stop illnesses caused by contaminated 
vegetables. The Wall Street Journal reported at the time that you--as 
Acting Deputy Secretary--led Department officials in rejecting the 
FDA's plan to address the issue.

    This episode demonstrates just how much power the Deputy Secretary, 
as chief operating officer, has in setting policy.

    Now in our meeting earlier this week, you said that the Journal's 
story mischaracterized your role. Can you clarify what your role was in 
that episode, and, specifically, what the article got wrong in its 
reporting?

    Answer. I initiated the meeting due to my concerns about our 
collective approach to food safety; specifically the data collection 
and tracking methodology across HHS divisions of food-borne illness 
cases. During this time, there had been several notable outbreaks, 
spurring the meeting, which took place primarily at my request. The 
meeting was a deliberative, not decisional, effort to elicit 
information about what was occurring, and what corrective courses to 
initiate across FDA, CDC and other agencies with regard to food safety.

    Although FDA was correctly concerned about the high level of public 
criticism it was receiving, and the issue of food-borne illness was, 
and remains timely and important, the agency personnel presented a 
request for a significant budgetary increase at a time which was not 
conducive in the fiscal calendar budget cycle. Moreover, the meeting 
was not comprised of the appropriate personnel to allow for informed 
decision-making of such budgetary consequence.

    The statement that the plan was ``rejected'' is an overstatement, 
although there were questions about certain elements of the FDA plan. 
There was an exchange of views, not a blanket denial of FDA's 
presentation. Indeed, although the article claims that HHS ``rejected 
the FDA plan,'' it also quotes Dr. Acheson (formerly) of FDA rightly 
noting that ``nothing was ruled in or out'' at the meeting. There were 
no decisions expected at the meeting, and the FDA Commissioner, the FDA 
chief medical officer for CFSAN, and (to my recollection) the HHS 
budget chief were not at the meeting, nor were they expected to be.

    Every night when we gather with our families to enjoy dinner, the 
last thing any of us wants to worry about is whether the meal will harm 
us. I believe, as I did in 2007, that the Nation's food safety system 
should rely on prevention, intervention, and response. If confirmed, I 
am committed to supporting FDA in their efforts to ensure the safety of 
the American food supply and provide appropriate flexibility for 
farmers and others in regulated industry.
                      aca/american health care act
    Question. Mr. Hargan, when you were Acting Deputy Secretary during 
the Bush administration, you gave several speeches noting that there 
were 45 million Americans without insurance. The most recent estimates 
are that there are 29 million uninsured Americans.

    The percentage of Americans without health insurance has dropped 
from 15% during the Bush administration to 9% at the end of the Obama 
administration.

    You said during our meeting this week that the Affordable Care Act 
has been successful in lowering the number of uninsured Americans. Do 
you stand by that by that statement?

    Do you support the Republican bill that the Congressional Budget 
Office says will result in 23 million Americans losing their health 
insurance?

    Answer. As we have seen under the ACA, having insurance coverage is 
no guarantee of access to quality care. All Americans ought to have 
access to quality, affordable health care. The President has made clear 
his hope and plan for health-care reform. If confirmed, I look forward 
to working with Congress to make certain that every single American has 
access to the coverage they want for themselves and their families.
                         chip funding extension
    Question. In FY 2016 the Children's Health Insurance Program (CHIP) 
covered nearly 9 million children in families who earn too much to 
qualify for Medicaid but still lack access to affordable private 
coverage. While this successful, bipartisan program is permanently 
authorized, current law only provides Federal funding to States through 
FY 2017. Five States are expected to spend their remaining CHIP 
allotments in the first quarter of the next fiscal year while 29 more 
States and the District of Columbia are expected to spend their 
remaining CHIP allotments by March 2018. In January, MACPAC submitted a 
report to Congress advising a 5-year clean extension. The National 
Governors Association (NGA) and the Bipartisan Policy Center (BPC) have 
recommended similar multiyear extensions of Federal funding for CHIP.

    Mr. Hargan, your record on CHIP is concerning. In your own words, 
``Why should we all be concerned at the prospect of expanding SCHIP? 
SCHIP is a government-subsidized insurance program. The more people it 
covers, the more it crowds out free market insurance, due to the tax 
payer subsidy. And the more the government controls the health-care 
market, the more it has to ration.''

    How will you reconcile your previous position on CHIP with your 
potential future role at HHS? What do you view is your responsibility 
to implement programs as directed by Congress?

    Answer. If confirmed, I will faithfully implement the law as 
written by Congress. Notably, the President's FY 2018 budget proposes 
an additional 2-year extension of CHIP through FY 2019 and returns the 
program's focus to our most vulnerable and low-income children. I look 
forward to implementing a CHIP program which prioritizes our most 
vulnerable and low-income children as written by Congress.

    Question. Understanding that the program has been permanently 
authorized, that HHS administers the program, and that there is long-
standing bipartisan congressional support for its future, how would you 
direct HHS to continue implementing the program?

    Answer. It is important that every child has access to high-quality 
health coverage, and CHIP plays an important role in accomplishing this 
objective, but there is also a need for coordinated family coverage in 
the private market and employer plans, and providing States necessary 
flexibility.
                         contraceptive mandate
    Question. The Affordable Care Act requires insurance plans to cover 
all FDA-
approved birth control methods. This has enormously benefitted women, 
enabling more than 55 million women to access birth control without 
out-of-pocket costs. As a result, women using the birth control pill 
saved $1.4 billion in 2013.

    On May 31st, through a leaked draft regulation, the country learned 
that the U.S. Department of Health and Human Services was considering 
broadening the number of employers and insurers eligible for moral or 
religious exemptions from the mandate. If finalized, the rule could 
leave hundreds of thousands of women with out-of-pocket costs when 
seeking birth control.

    If you are confirmed as Deputy Secretary of HHS, would you support 
regulations or guidance widening the applicability of exemptions to the 
contraceptive mandate?

    How would you direct HHS to ensure that those individuals who have 
access to all FDA-approved birth control methods without cost-sharing 
continue to have access to such services and protections?

    Answer. The mission of HHS is to protect the health and well-being 
of all Americans. I take this mission seriously, and I will work with 
my new colleagues to do everything in our power to support access to 
quality, affordable health care for all Americans.

    There is no doubt that we can ensure access to health care without 
harming the personal freedoms that our Nation was founded upon--in this 
case the right to the free exercise of one's religious beliefs. If 
confirmed, I look forward to working together to achieve an appropriate 
balance that respects all individuals.
                cost-sharing reductions and competition
    Question. Under the Affordable Care Act, individuals and families 
with incomes 100-250% of the Federal Poverty Level (FPL) who are 
eligible for the premium tax credit and enrolled in a silver plan 
through an exchange are eligible for cost-sharing reductions (CSR) to 
reduce their out-of-pocket costs for health services. For example, an 
individual enrolled in a silver-level plan without CSR might have a 
deductible of $2,400 and a primary care physician visit fee of $20. 
Enrolled in a CSR plan, an eligible enrollee may have lower out-of-
pocket burdens of 2,250 and $10, respectively. In 2016, over 6.4 
million people--a majority of marketplace enrollees--were enrolled in a 
plan with reduced cost sharing due to CSRs.

    The administration has refused to state whether it will honor this 
commitment to funding CSRs. As reported by independent experts and 
major insurer executives, this uncertainty has threatened the continued 
participation of insurers in the marketplace. Just recently, Anthem 
announced that it was withdrawing from the Ohio exchange, citing the 
``lack of certainty of funding for cost sharing reduction subsidies.'' 
As a result, 10,500 patients in 20 counties could be left without a 
clear path to affordable medical care in 2018.

    Question. Would you agree that the Federal Government should honor 
its financial commitment to reimburse insurers for the CSR program? 
Will you commit to working, to the best of your ability, to fully fund 
these subsidies, which enable affordable medical care for millions of 
people?

    The independent Kaiser Family Foundation has reported that a 
refusal to pay these subsidies could end up costing the Federal 
Government $2.3 billion, since the Federal Government will have to 
compensate for these lost subsidies through additional premium tax 
credits. Do you believe it is fiscally responsible to withhold these 
reimbursements from insurers?

    Because the administration has caused such uncertainty in the 
market, consumers in bare counties where all insurers have exited the 
Marketplaces may face extreme barriers to accessing affordable medical 
care. What is the responsibility of HHS to these consumers?

    Do you commit to encouraging insurers to offer plans to consumers 
residing in bare counties? How do you plan to fulfill this commitment?

    Answer. It is my understanding that there is ongoing litigation 
regarding this matter, but Congress could resolve uncertainty about the 
payments by passing legislation to address the current law's failed 
funding structure.

    We need to move in a direction where insurers offer products people 
want, and give them the coverage they want so that they can get the 
care they need. While Congress works to pass legislation, I will help 
work to mitigate the damage being done by providing needed flexibility 
to issuers to help attract healthy consumers to enroll in health 
insurance coverage, improve the risk pool and, as much as possible 
under the current laws, bring stability and certainty to the individual 
and small group markets, while increasing the options for patients and 
providers.
                       enforcement of regulations
    Question. After a regulation is finalized and codified in the Code 
of Federal Regulations (CFR), Federal agencies have the authority and 
responsibility to enforce these final rules. At HHS, regulatory 
enforcement requires the multiple departments within HHS to coordinate 
their activities. Most notably, the HHS Office of the Inspector General 
(IG) is responsible for oversight of Medicare and Medicaid. In 
addition, the HHS Office of the General Counsel (OGC) supports the 
development and implementation of HHS programs. Such implementation 
includes enforcement activities.

    How will you ensure enforcement of final rules and other regulatory 
guidance at HHS?

    What standards and procedures will you set to assure different 
branches of HHS coordinate their enforcement of final rules?

    After learning that enforcement of specific programs is 
insufficient, what specific steps will you take to improve upon 
enforcement of programs and activities?

    In your view, what oversight issues would raise the need for public 
engagement to improve enforcement?

    How will you engage with the public to inform enforcement and 
accountability activities of HHS programs?

    If Congress draws your attention to potential gaps in program 
oversight, how will you work with members of Congress to address and 
close these gaps?

    Answer. If confirmed, I will faithfully implement laws written by 
Congress and the regulations issued by the Department. It is 
exceptionally important that the different branches of HHS coordinate 
their enforcement of final rules. To facilitate this, I will implement 
standards and procedures that establish clear lines of communication 
between departments and require their routine input on implementation. 
Public engagement with HHS will be of the utmost importance. I plan to 
continue making sure that publicly available resources, such as 1-800-
MEDICARE, and the HHS Inspector General Tipline are maintained and 
promoted so the public can actively help us fight fraud and abuse. If a 
member of Congress contacts the Department with issues or concerns 
about any HHS program, I promise that each instance will be a top 
priority. The work of Congress and its staff is valuable in identifying 
and solving problems, and I look forward to working closely with the 
Congress in the years to come.
                     section 1115 and 1332 waivers
    Question. Section 1115 of the Social Security Act provides the U.S. 
Department of Health and Human Services (HHS) Secretary with the 
authority to approve demonstration projects that promote the objectives 
of Medicaid and the Children's Health Insurance Program (CHIP).

    Section 1332 of the Patient Protection and Affordable Care Act 
(ACA) provides the Secretary with broad authority to approve waivers to 
the certain ACA exchange and coverage provisions if the applications 
meet four criteria: ensure that individuals get insurance coverage that 
is at least as comprehensive as provided under the ACA; ensure that 
insurance coverage offered to individuals is at least as affordable as 
it would be under the ACA; ensure that as many people are covered as 
would be under the ACA; and not increase the Federal deficit.

    How will you enforce the transparency requirements for section 1115 
and section 1332 waiver requests and proceedings?

    Public input is a critical element of the waiver process. How will 
you promote greater public awareness and input in waiver generation and 
consideration at the State and Federal level?

    How will you ensure that any approvals of section 1115 waivers 
promote the objectives of the Medicaid statute and do not allow for 
misguided policies like work requirements, lock out periods, and 
onerous cost-sharing and premiums that do not align with congressional 
intent?

    In March, HHS Secretary Price noted that the agency would conduct a 
review of existing waiver procedures to provide greater freedom for 
States. To the extent such review is conducted and any changes are 
considered, how will you ensure compliance with the rules and 
requirements established by the Administrative Procedure Act?

    Answer. At issue is whether health-care decisions are better made 
in Washington or by people in their local communities. Additional State 
flexibility will allow more of these decisions to be made locally, 
closest to the doctors and patients with their own unique sets of needs 
and challenges. Health-care decisions are best made locally. If 
confirmed as Deputy Secretary, I would focus on providing States the 
maximum amount of flexibility within the confines of the law to allow 
health-care decisions to be made by doctors and patients where the 
needs of the patients come first in accordance with the rules and 
requirements established by the Administrative Procedure Act.
          presidential executive order on reducing regulation
    Question. On January 30th, the President signed an executive order 
requiring executive departments and Federal agencies (``agencies'') to 
identify and eliminate two existing regulations for every one new 
regulation they issue. In addition, the heads of all agencies are 
required to ensure the incremental cost of all new regulations is no 
greater than zero.

    The executive order requires that the repeal of existing 
regulations be in accordance with the Administrative Procedure Act 
(APA), which specifies notice and comment rulemaking procedures, and 
other applicable law. Under the APA, agencies are required to provide 
the public with notice of a proposed rulemaking and a meaningful 
opportunity to comment on the rule.

    If confirmed as Deputy Secretary of HHS, how will you implement 
this executive order?

    Answer. If confirmed, I will work aggressively to monitor and 
oversee full compliance with the executive order, in accordance with 
the APA and the relevant case law, and solicit input from both policy 
staff and those organizations responsible for implementation. I will 
look to implement additional tools, as necessary, across the Department 
to achieve the requirements set in the executive order, while remaining 
faithful to the mission of the Department.

    Question. How will you determine which existing regulations to 
repeal?

    Answer. I look forward to reviewing the existing protocols within 
the Department to identify opportunities to reduce barriers getting in 
the way of the Department's mission which is to enhance the health and 
well-being of Americans by providing for effective health and human 
services and by fostering sound, sustained advances in the sciences 
underlying medicine, public health, and social services.

    Question. Will you require that HHS publicly identify which two 
regulations it plans to repeal at the same time as the new rule is 
proposed? If not, within what time frame will those two regulations be 
publicly identified?

    Answer. If confirmed, in accordance with the APA, I will follow the 
requirements of the executive order and the guidance provided by OMB.

    Question. How will you ensure that the process for repealing 
existing regulations complies with the APA's notice and comment 
rulemaking procedures--including providing a meaningful opportunity for 
stakeholders to provide comments? Will you commit to providing a 
minimum of 30 days for the comment period?

    Answer. See above.

    Question. Many of the new rules issued by CMS are statutorily 
required annual payment updates (e.g., the Medicare Physician Fee 
Schedule annual rule). Is it your understanding that the executive 
order requires CMS to identify two existing regulations to repeal each 
time CMS issues one of these annual payment updates?

    Answer. If confirmed, I will work with HHS staff, including CMS and 
OGC, to review all rules and regulations and ensure compliance with the 
President's executive order and the ACA.

    Question. How will you determine the incremental cost of those 
statutorily required annual payment updates? How will you determine the 
incremental cost of new regulations more generally?

    Answer. I will work in consultation with OMB to ensure consistency 
across the government and draw on the analytical and human capital 
resources of the Department.
         funding for the center for biologic policy evaluation
    Question. On your OGE Form 278, you disclosed that you were the 
President of the Center for Biologic Policy Evaluation. The Center's 
website states that ``CBPE is a 501(c)(3) organization. Initial funding 
was provided by Amgen Inc. in the form of an unrestricted grant.'' 
Amgen is a major medical biotech company with many interests before the 
Department of Health and Human Services. From the organization's 
publicly available filings, it appears that this contribution was made 
in 2013.

    What role did you play in obtaining this funding from Amgen, if 
any? To what extent did you directly or indirectly communicate with 
Amgen since the grant was made in 2013 concerning the Center and its 
activities? Are there any other sources of funding besides Amgen for 
the Center? If so, please identify those sources and your role in 
securing that funding.

    Answer. I played no role in obtaining this unrestricted grant 
funding from Amgen. I communicated with Amgen on one matter concerning 
the Center and obtaining payment from Amgen for one of CBPE's 
contractors, the Tidwell Group. This was the only time I communicated 
with Amgen regarding the Center.

    There were no other sources of funding, to my knowledge.
                   finance committee member requests
    Question. As discussed during your confirmation hearing, you and 
other nominees were asked to ensure that you would directly respond to 
requests for information by the Finance Committee or any member of the 
committee. As the Deputy Secretary of Health and Human Services, you 
will serve as the Department's chief operating officer.

    What actions will you take to ensure that the Department itself is 
responsive to requests by the committee or any member of the committee 
for information?

    Answer. If confirmed, I will make it a top priority to ensure that 
the Office of the Assistant Secretary for Legislation (ASL) has the 
tools and resources to respond to the needs of not only the members of 
the Senate Finance Committee, but any member of Congress. The ASL 
office is Congress's chief point of contact with the Department of 
Health and Human Services, and I will expect them to make every effort 
to accommodate the requests of the committee. If confirmed, I encourage 
any member of Congress to contact me if they have any inquiry that is 
not being adequately addressed.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
                           president's budget
    Question. As Deputy Secretary, you would oversee operations in all 
areas of HHS and work to implement annual budgets, among other things. 
Do you support the President's FY 2018 HHS budget request in its 
entirety? If not, what funding levels or policy proposals do you have 
concerns about?

    Answer. I have not been at the Department during the preparation of 
the budget. While I support the President's budget, I was not at the 
Department during its formulation.
                                medicaid
    Question. Because of Medicaid expansion in Michigan, 650,000 people 
have insurance, and uncompensated care has been cut by at least 50%. 
Thirty thousand jobs have been created, and the State will end the year 
with $432 million more than it invested in the program. Do you support 
the President's proposed cuts to Medicaid, which would decimate these 
gains in my State?

    Answer. The President's budget calls for refocusing Medicaid on the 
elderly, children, pregnant women, and individuals with disabilities. 
Today, many elderly and disabled patients remain on wait lists for 
crucial long-term care services while Obamacare's Medicaid expansion 
prioritizes non-disabled, childless adults. The President's budget also 
provides State-level policymakers new flexibility to advance reforms 
that are tailor-made to meet the unique needs of their citizens. 
Washington needs to stop measuring the success of a program by how much 
money it spends and start focusing on how well it helps those it is 
intended to serve. We need to focus on health outcomes, and that is 
precisely what the President's budget sets out to do.
                           maternity coverage
    Question. Prior to the 2010, the vast majority of plans on the 
individual market did not offer maternity coverage. The American Health 
Care Act would allow insurance companies to eliminate the essential 
health benefits, including the requirement that plans cover pregnancy 
and childbirth. This could force women and families to pay far more for 
the care they need, or prevent them from having coverage at all. Do you 
believe that all health plans should be required to cover maternity and 
newborn care?

    Answer. We need to move in a direction where insurers offer 
products people want and give them the coverage they want, so that they 
can get the care they need. As Deputy Secretary, my objective would be 
to ensure all Americans have access to the best and highest quality 
coverage and care. Having coverage is not meaningful if one cannot 
access the care they need or the quality of care leaves them worse 
off--we must work toward both coverage and care.
                         mental health coverage
    Question. Nearly one in five adults has a mental illness, and over 
60% of people with mental illness do not receive treatment. Do you 
believe that mental health services should be a guaranteed benefit in 
all health insurance plans?

    Answer. It is important that we as a Nation make sure that every 
American has access to the kind of mental health and substance use 
disorder treatment that they need. As stated above, we also need to 
move in a direction where insurers offer products people want, give 
them the coverage they want so that they can get the care they need. If 
I am privileged to serve, I will implement the policies agreed upon by 
the Congress and signed into law by the President.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
                      trust in public institutions
    Question. If confirmed, you will serve in a position that has been 
referred to as the ``Chief Operating Officer'' of the Department of 
Health and Human Services. You will serve underneath and report to 
Secretary Price, who has repeatedly called into question in recent 
months the reliability of the Congressional Budget Office, despite 
having personally recommended and vouched for the current head of that 
office.

    Do you have faith in the CBO's ability to produce non-partisan 
analysis of congressional legislation?

    Answer. The Congressional Budget Office is full of great, 
hardworking individuals; however, their estimates have proven 
inaccurate in many areas of significance. The CBO's work is based on 
estimates. Estimates are often incorrect.

    Question. Do you believe that if the CBO projects that the American 
Health Care Act will result in over $800 billion in funding cuts to 
Medicaid and 14 million fewer people enrolled in Medicaid in the next 
10 years, that this in fact is not a cut to the Medicaid program, as 
Secretary Price has suggested?

    Answer. Our Nation's health-care system is in critical need of 
reform because the former administration and the CBO got it wrong in 
the first place. In fact, CBO estimated that 25 million people would be 
covered in Obamacare's exchanges in 2017. They were off by 14 million 
people. It's important to note that the CBO report estimates that total 
Medicaid spending will increase from 2017-2026. This is an argument 
about rates of growth in the program, not a cut to overall funding.
                          fidelity to science
    Question. If confirmed, you will serve under President Trump, who 
has at various times called into question the established and 
repeatedly confirmed scientific fact that vaccines have nothing to do 
with autism. Additionally, I am troubled that a number of people hired 
at the Department in recent months for positions that do not require 
Senate confirmation have espoused views that have no basis in 
scientific fact and do harm to public health.

    Do you believe that vaccines cause autism?

    Answer. The general scientific consensus is that vaccines do not 
lead to autism spectrum disorder.

    Question. Should you be directed by the President or the Secretary 
to take any action that supports the debunked and discredited claims 
regarding vaccines and autism, will you comply?

    Answer. I understand the significant importance of vaccines to our 
Nation's public health, as well as the importance of patients having 
confidence in the therapies they receive as part of their care.

    Question. Do you believe that abortion causes breast cancer?

    Answer. If confirmed, I will work to hold HHS to the highest 
scientific standards.

    Question. Do you believe that Charmaine Yoest, who was recently 
appointed as Assistant Secretary for Public Affairs at HHS and who has 
advanced this debunked claim, should continue to serve in this 
administration?

    Answer. Dr. Yoest has stepped forward to serve her fellow citizens, 
and I am grateful for her willingness to do so. She is joining a 
department that is fully committed to its mission of protecting the 
health and well-being of all Americans, and will carry out that mission 
by advancing the President's agenda that is focused on expanding access 
to quality, affordable health care.

    Question. Do you believe in the efficacy of contraception, such as 
birth control pills?

    Answer. If confirmed, I will work to hold HHS to the highest 
scientific standards.

    Question. Do you believe that Teresa Manning, who was recently 
appointed as Deputy Assistant Secretary for Population Affairs, meaning 
that she will oversee the title X family planning program, and who has 
stated that she believes that contraception doesn't work, should 
continue to serve in this administration?

    Answer. Ms. Manning has stepped forward to serve her fellow 
citizens, and I am grateful for her willingness to do so. She too is 
joining a department that is fully committed to its mission of 
protecting the health and well-being of all Americans, and will carry 
out that mission by advancing the President's agenda that is focused on 
expanding access to quality, affordable healthc are.
                            autism cares act
    Question. In 2014, I authored the Autism Collaboration, 
Accountability, Research, Education, and Support Act of 2014, also 
known as the Autism CARES Act. Among its provisions is a requirement 
that the Secretary of Health and Human Services submit a report to the 
Senate Finance Committee concerning the challenges associated with the 
transition of young adults with autism from school-based services to 
those available in adulthood. This report is nearly a year overdue.

    When will this report be finalized? Will you work with the 
Secretary and staff to finalize and submit this report to Congress by 
August 8, 2017?

    Answer. I am not currently employed at HHS, and therefore have no 
inside knowledge of the status of this report, nor the cause of any 
delays. However, I look forward to following up with your office should 
I receive the confidence of the Senate.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
                          basic health program
    Question. The Basic Health Program (section 1331 of the Affordable 
Care Act), which I authored, is an innovative, State-run plan that is 
delivering high-quality and low-cost health care to more than 750,000 
low-income Americans and counting. Through the Basic Health Program, 
States utilize Federal financing to insure individuals with incomes 
between 138 and 200 percent of the Federal poverty level through 
managed care plans. In States participating in this voluntary 
Affordable Care Act option, we are seeing low premiums and deductibles, 
high levels of enrollment, robust insurance competition, and cumulative 
State budget savings of more than $1 billion. The operating principle 
behind the Basic Health Program is that bundling up a low-income 
population can result in low premiums, high enrollment, a healthy risk 
pool, and take-up from private insurers.

    Do you support the Basic Health Program as a way to empower States 
to negotiate a better deal on health insurance for their citizens?

    If confirmed as Deputy Secretary of HHS, will you direct CMS to 
continue to administer the Basic Health Program as it is authorized 
under current law?

    If Congress enacts future legislation to repeal the Affordable Care 
Act, will you use your discretionary authority to ensure that 
individuals currently covered by the Basic Health Program can keep 
their health insurance?

    Answer. States ought to be empowered to innovate and find solutions 
for their citizens with respect to health care, in the area of 
insurance and otherwise. For example, HHS is seeking to empower States 
through section 1332 waivers to achieve the administration's top 
priorities, including improving patients' access to affordable care, 
slowing the rate of premium growth to improve the risk pool, bringing 
stability to the individual and small group markets, and increasing 
consumer choice.

    A patient-centered health-care system will provide Americans access 
to quality, affordable health-care coverage, empowering individuals and 
families to choose the coverage that best meets their needs, and give 
States flexibility to address the diverse needs of their most 
vulnerable populations. If confirmed, I stand ready to implement reform 
that increases patient choices and strengthens access to quality care 
for individuals across the country.
                     long-term care ``rebalancing''
    Question. Federal ``rebalancing'' programs, including the Balancing 
Incentive Program (section 10202 of the Affordable Care Act), are 
helping States transition their Medicaid long-term care population from 
expensive nursing homes to cost-effective home- and community-based 
care. The vast majority of seniors, including dual-
eligible beneficiaries, would like to stay in their own home. Twenty-
one diverse States, including your home State of Illinois, have 
participated in the Balancing Incentive Program under the Affordable 
Care Act and are successfully rebalancing their populations to 
community-based care--resulting in a better patient experience and 
lower costs to the health-care system. In fact, Washington State alone 
saved $2.7 billion over a 15 year period through its own rebalancing 
efforts.

    Do you support such ``rebalancing'' efforts?

    Do you agree with me that transitioning patients to lower-cost 
settings can yield cost savings for public programs, including 
Medicaid?

    Do you support policies wherein the Federal Government incents 
States to ``rebalance'' their long-term care populations?

    Do you support the Balancing Incentive program in the Affordable 
Care Act?

    Answer. I support the Department's efforts to comply with the laws 
as written by Congress. I also support Americans being in charge of 
their health-care decisions and dollars as well as meaningful 
flexibility for Washington and others States to best care for their 
most needy citizens. If confirmed, I will support the Department's 
efforts to that end and encourage greater State innovation.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to 
consider a number of pending Department of Treasury and Department of 
Health and Human Services (HHS) nominations:

    Today we will consider the nominations of Eric Hargan to serve as 
Deputy Secretary of Health and Human Services; David Malpass to serve 
as Under Secretary for International Affairs of the Treasury; Andrew 
Maloney to serve in a position to be designated as Assistant Secretary 
for Legislative Affairs of the Treasury; and Brent McIntosh to serve as 
General Counsel for the Treasury.

    Welcome, all of you, to the Finance Committee.

    We appreciate your willingness to serve in these important 
positions.

    Before I get too far along, I want to thank all of my fellow 
Senators for their support and presence today. As we all know, the 
government is like a giant clock with many important pieces, gears, and 
cogs. Today we are taking an important step toward adding several more 
important pieces to keep that clock functioning as it should.

    It is also good to see that, despite some frustrations over the 
past few months, we have been able to return to normal working order 
for processing nominees. As we all know, that process includes 
bipartisan input, comity, good faith, and a fair and robust vetting 
process. I would like to thank my colleagues, particularly Senator 
Wyden, for working to move this process along.

    Each of these nominees will have important roles in the 
administration, and we'll talk more about the individual posts and our 
nominees' excellent credentials and experience as the hearing goes on.

    But, before we get to that, I want to be very clear about my 
expectations regarding responsiveness to congressional inquiries.

    Regardless of party affiliation, it is essential that the 
administration make it a top priority to respond to inquiries from 
members of Congress.

    Let me say this a bit differently to make sure I'm clear. It does 
not matter who the President is, nor does it matter which member of 
Congress is making the request. When an inquiry is submitted to any 
administrative agency, we rightly expect to receive a timely and 
responsive answer in return.

    In the years that I have been the lead Republican on this 
committee, I have asked virtually all of our nominees to commit to 
being cooperative and responsive to congressional inquiries. I have 
full confidence in each of the nominees that are before us today. I 
don't have any reason to believe that they intend to stonewall members 
of Congress. But, I will ask all of them to make a similar pledge to 
provide timely and responsive answers to questions coming from members 
of this committee.

    With that, I look forward to hearing from each our nominees as they 
share their visions and views here today. I also look forward to what I 
hope will continue to be a full and fair committee process that allows 
us to process these nominations and report them to the full Senate in 
short order.

    I'll now recognize Senator Wyden for his opening statement.

                                 ______
                                 
 Prepared Statement of Andrew K. Maloney, Nominated to be Deputy Under 
     Secretary for Legislative Affairs, Department of the Treasury
    Chairman Hatch, Ranking Member Wyden, and distinguished members of 
the Senate Finance Committee, it is an honor to appear before you 
today. I am humbled to have been recommended by Treasury Secretary 
Steven Mnuchin and nominated by the President of the United States to 
serve as Assistant Secretary for Legislative Affairs at the Treasury 
Department. I have deep respect for the history of the Department and 
fully appreciate the footsteps that I must follow to uphold the 
traditions and mission of this position.

    I would like to take a moment to thank my family who are here 
today: first, my wife, Dr. Sabra Klein, who is an accomplished 
professor at Johns Hopkins University; our two children, Madeline and 
Stella; my father, a former Marine, Kerry Maloney, and my mother, Geri 
Maloney, whose first job was as a staffer to Congressman Sonny 
Montgomery; my in-laws, Colonel Pete Klein and his wife, retired public 
school teacher Marilyn Klein.

    I would also like to thank all the members and staff that I have 
been able to visit with over the past couple of weeks. I enjoyed 
meeting with you and hearing your perspective. If confirmed, I look 
forward to continuing the dialogue we have started and my door will 
always be open.

    I grew up on a small farm in Rockingham County, Virginia. We raised 
poultry, sheep, and some beef cows. I was active in 4-H, and the Future 
Farmers of America. Since my mother worked on Capitol Hill and my uncle 
was convention coordinator to Hubert Humphrey's Presidential campaign, 
politics was always a discussion at our dinner table. I caught the bug 
early in life and wanted to work in government.

    My first opportunity to work on Capitol Hill was a college 
internship, working in the press office of Virginia Senator John 
Warner. My job was to look through hard copies of the local newspapers 
for articles where he was mentioned, cut each article out, tape it on 
another piece of paper, photocopy and distribute it as part of the 
press clippings.

    Upon completing college, I worked as a legislative aide in the 
Virginia General Assembly, gaining a firsthand view of how States must 
address budget and economic concerns. Upon completion of the General 
Assembly, I returned to Washington, DC to pursue law school and work on 
Capitol Hill. During law school, I was able to spend a summer working 
for the Honorable Laurence J. Whalen at the U.S. Tax Court. Following 
law school, I was very fortunate to spend 5 years working in the House 
of Representatives. I oversaw and managed the legislative and State 
staff, reinforcing the importance of responding to the needs of 
constituents. I worked on a range of issues that included energy, 
financial services, tax, trade, appropriations and transportation. I 
also served in House leadership and keenly understand the legislative 
dynamic between leadership and the committees and the need to work with 
colleagues in a bipartisan manner.

    I left Capitol Hill in 2002 to join a government affairs firm. 
During my tenure at the firm, I was asked to become the chief executive 
officer. In addition to providing strategic counsel to the firm 
clients, I was responsible for managing the day-to-day business of the 
company, coordinating with our parent company, and handling marketing 
and staffing decisions. I was very proud to have helped build one of 
the most successful bipartisan firms. After leaving the firm, I joined 
an American energy company, where I created an integrated global 
external affairs function, focusing on the intersection of public 
policy, public affairs and economic conditions.

    As you know, the Treasury Department helps preserve and promote 
financial stability and security here in the United States and around 
the world. The Department has one of the most important functions in 
our government and is the premier financial institution in the world. I 
fully understand the enormity of the role of the Office of Legislative 
Affairs and the importance of the relationship this office has with 
Congress. If confirmed, I commit to being responsive to you and your 
staff. I will strive to ensure your views are communicated within the 
Department and pledge to maintain an open line of communication between 
the Department and Congress.

    Again, I would like to thank Chairman Hatch, Ranking Member Wyden, 
the Senators, and the staff for your consideration. I look forward to 
responding to any questions that you may have.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1. Name (include any former names used): Andrew Kerwin Maloney.

 2.  Position to which nominated: Deputy Under Secretary, designated 
Assistant Secretary for Legislative Affairs.

 3. Date of nomination: May 10, 2017.

 4. Address (list current residence, office, and mailing addresses):

 5. Date and place of birth: March 30, 1969, Washington, DC.

 6. Marital status (include maiden name of wife or husband's name):

 7. Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted): Turner-Ashby High 
School, August 1983-June 1987, graduated June 1987; Randolph-Macon 
College, August 1987-May 1991, bachelors in political science, received 
degree in May 1991; and Catholic University of America, Columbus School 
of Law, August 1993-June 1996, juris doctorate received in June 1996.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     Campaign Manager, Tommy Norment for State Senate, Williamsburg, 
VA, 1991. Managed state Senate campaign.

     Legislative Aide, Senator Tommy Norment, Richmond, VA, 1992. 
Managed legislative activities for Senator.

     Vice President, Carlyle Gregory Company, Falls Church, VA, 1992-
1993. Assisted managing political campaigns at state and congressional 
level.

     Summer Clerk, U.S. Tax Court, Washington, DC, summer 1994. Clerked 
for the Honorable Laurence Whalen.

     Legislative Liaison, Robertson, Monagle, and Eastaugh, Arlington, 
VA, 1995-1997. Assisted partners with Alaska-based legislative/law firm 
on various client initiatives, while attending law school.

     Legislative Assistant, Congressman Roger Wicker, Washington, DC, 
1997-1998. Assisted member with appropriations issues, legislative 
correspondence, and campaign finance reform.

     Legislative Counsel, Congressman Ed Bryant, Washington, DC, 1998-
1999. Assisted member with Judiciary Committee issues.

     Administrative Assistant/Legislative Director, Majority Whip Tom 
DeLay, Washington, DC, 1999-2002. Managed Congressional office, 
assisted on energy and state-related issues.

     Partner/CEO Federalist Group/Ogilvy Government Relations, 
Washington, DC, 2002-2012. Provided strategic and government advocacy 
services to multiple clients over a 10-year period. Federalist Group 
was sold to WPP in 2005, changed name to Ogilvy Government Relations, 
then became CEO in 2009.

     Senior Advisor, Republican National Committee, Washington, DC, 
2012. Worked with RNC and Romney campaign on congressional outreach.

     Legislative Outreach Director, Romney Readiness Project, 
Washington, DC, 2012. Managed and oversaw preparations for legislative 
initiatives including lame duck decisions, nominations, and first 200 
day priorities.

     Vice President, Hess Corporation, Washington, DC, 2012-current. 
Manage and oversee global communications, government affairs, and 
corporate social responsibility.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, state, or local 
governments, other than those listed above): All positions listed 
above.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution): Listed 
above, former partner at the Federalist Group.

12.  Membership (list all memberships and offices held in professional, 
fraternal, scholarly, civic, business, charitable, and other 
organizations): Randolph-Macon College, member, board of trustees; 
Meridian International Center, member, board of trustees and executive 
committee; Business Government Relations Council, member, board of 
directors; Chamber of Commerce, member, public affairs council; John 
Hay Institute, chairman, Energy Security Committee; Young Presidents' 
Organization, gold member; Arthur Page Society, member; District of 
Columbia Bar Association; Virginia State Bar Association; Holy Trinity 
Catholic Church, member, Development Committee; Cleveland Park 
Historical Society, former board member; The Metropolitan Club, member; 
Columbia Country Club, member; and Cleveland Park Club, member.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       Washington, DC Republican Party Committee; Senior Advisor, 
Republican National Committee.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.


               Andrew K. Maloney Individual Contributions
Contributions to All Other Political Committees Except Joint Fundraising
                               Committees
------------------------------------------------------------------------
                                Committee    Transaction
  Employer      Occupation         Name          Date         Amount
------------------------------------------------------------------------
Federalist    Attorney        Bayou Leader    11/20/2003            $500
 Group                         Political
                               Action
                               Committee
------------------------------------------------------------------------
Federalist    Executive       Help             5/16/2003          $1,000
 Group LLC                     America's
                               Leaders
                               Political
                               Action
                               Committee
                               (HALPAC)
------------------------------------------------------------------------
Federalist    Executive       Promoting        8/23/2004            $500
 Group LLC                     Republicans
                               You Can
                               Elect
                               Political
                               Action
                               Committee
------------------------------------------------------------------------
Federalist                    Bryant,          7/25/2002            $250
 Group LLC                     Edward G.
                               via Ed
                               Bryant for
                               U.S. Senate
                               Inc.
------------------------------------------------------------------------
Federalist    Consultant      Good Fund,       7/26/2006          $3,000
 Group                         The
------------------------------------------------------------------------
Federalist    Consultant      Good Fund,        6/3/2009          $1,000
 Group                         The
------------------------------------------------------------------------
Federalist    Executive       Keep Our         9/29/2004          $2,000
 Group                         Mission PAC
------------------------------------------------------------------------
Federalist    Lobbyist        Nunes, Devin     5/15/2007            $500
 Group                         G. via Devin
                               Nunes
                               Campaign
                               Committee
------------------------------------------------------------------------
Federalist    Managing        21st Century     5/31/2006          $1,000
 Group         Director        PAC
------------------------------------------------------------------------
Federalist    Associate       Tauzin,          6/28/2004            $500
 Group LLC                     Wilbert J.,
                               III via
                               Tauzin for
                               Congress
------------------------------------------------------------------------
Federalist    Executive       Help             5/25/2006          $1,000
 Group LLC                     America's
                               Leaders
                               Political
                               Action
                               Committee
                               (HALPAC)
------------------------------------------------------------------------
Federalist    Executive       Lewis, Jerry     5/15/2006          $1,000
 Group LLC                     via Jerry
                               Lewis
                               Political
                               Action
                               Committee
------------------------------------------------------------------------
Federalist    Executive       Rely On Your     3/10/2005          $2,500
 Group LLC                     Beliefs Fund
------------------------------------------------------------------------
Federalist    Executive       Rely On Your     7/28/2005          $1,000
 Group LLC                     Beliefs Fund
------------------------------------------------------------------------
Federalist    Vice President  Shuster,          8/8/2005          $1,000
 Group LLC                     William via
                               Bill Shuster
                               for Congress
------------------------------------------------------------------------
Federalist    Vice President  Shuster,         5/15/2014          $2,500
 Group LLC                     William via
                               Bill Shuster
                               for Congress
------------------------------------------------------------------------
Federalist    Vice President  Shuster,         2/23/2007          $1,000
 Group LLC                     William via
                               Bill Shuster
                               for Congress
------------------------------------------------------------------------
Federalist    Lobbyist        Shuster,         8/30/2004            $500
 Group                         William via
                               Bill Shuster
                               for Congress
------------------------------------------------------------------------
Hess          Global          Gillespie,       2/25/2014          $2,600
 Corporation   Government      Edward W.
               Affairs         via Ed
                               Gillespie
                               for Senate
------------------------------------------------------------------------
Hess          Global          Gillespie,        3/6/2015            $500
 Corporation   Government      Edward W.
               Affairs         via Ed
                               Gillespie
                               for Senate
------------------------------------------------------------------------
Hess          Vice            Hess              4/9/2014          $5,000
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess            11/27/2015            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess            12/24/2015            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             1/21/2016            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             2/19/2016            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice President  Hess             3/31/2016            $600
 Corporation   , Government    Corporation
               Affairs and     Political
               Public Policy   Action
                               Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             4/28/2016            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             5/26/2016            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             6/23/2016            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             7/21/2016            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             8/18/2016            $400
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess             9/29/2016            $600
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess            10/13/2016            $200
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Hess            11/25/2016            $600
 Corporation   President,      Corporation
               Government      Political
               Affairs and     Action
               Public Policy   Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess          Vice            Nunes, Devin     3/27/2015            $500
 Corporation   President,      G. via Devin
               Government      Nunes
               and External    Campaign
               Affairs         Committee
------------------------------------------------------------------------
Hess          Vice            Stefanik,        9/16/2013          $2,600
 Corporation   President,      Elise M. via
               Global          Elise for
               Government      Congress
               Affairs and
               Public Policy
------------------------------------------------------------------------
Hess                          Hess            12/22/2016            $400
 Corporation                   Corporation
                               Political
                               Action
                               Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess                          Hess             1/20/2017            $400
 Corporation                   Corporation
                               Political
                               Action
                               Committee
                               (Hess PAC)
------------------------------------------------------------------------
Hess                          Hess             2/16/2017            $400
 Corporation                   Corporation
                               Political
                               Action
                               Committee
                               (Hess PAC)
------------------------------------------------------------------------
Ogilvy        CEO             Grassley,        6/15/2011            $500
 Government                    Charles E.,
 Relations                     Senator via
                               Grassley
                               Committee
                               Inc.
------------------------------------------------------------------------
Ogilvy        Consultant      Good Fund,        6/8/2011          $2,500
 Government                    The
 Relations
------------------------------------------------------------------------
Ogilvy        Government      Wicker, Roger    6/30/2008          $2,300
 Government    Affairs         F. via
 Relations                     Wicker for
                               Senate
------------------------------------------------------------------------
Ogilvy        Government      Wicker, Roger    9/25/2009          $2,000
 Government    Affairs         F. via
 Relations                     Wicker for
                               Senate
------------------------------------------------------------------------
Ogilvy        Government      Wicker, Roger    9/25/2009          $2,000
 Government    Affairs         F. via
 Relations                     Wicker for
                               Senate
------------------------------------------------------------------------
Ogilvy        Government      Wicker, Roger    9/25/2009          $2,000
 Government    Affairs         F. via
 Relations                     Wicker for
                               Senate
------------------------------------------------------------------------
Ogilvy        Government      Wicker, Roger    6/17/2011            $500
 Government    Affairs         F. via
 Relations                     Wicker for
                               Senate
------------------------------------------------------------------------
Ogilvy        Government      Wicker, Roger    6/17/2011          $2,000
 Government    Affairs         F. via
 Relations                     Wicker for
                               Senate
------------------------------------------------------------------------
Ogilvy        Government      Win Back         9/30/2009          $1,000
 Government    Relations       America
 Relations                     Political
                               Action
                               Committee
------------------------------------------------------------------------
Ogilvy        Lobbyist        King, Pete       6/29/2009            $500
 Government                    via Pete
 Relations                     King For
                               Congress
                               Committee
------------------------------------------------------------------------
Ogilvy        Management      Graham,          6/28/2007            $500
 Government                    Lindsey O.
 Relations                     via Lindsey
                               Graham for
                               Senate
------------------------------------------------------------------------
Ogilvy        Managing        Thune, John      4/27/2007            $500
 Government    Director        via Friends
 Relations                     of John
                               Thune
------------------------------------------------------------------------
Ogilvy        CEO             Shuster,         9/15/2011          $1,000
 Government                    William via
 Relations                     Bill Shuster
                               for Congress
------------------------------------------------------------------------
Ogilvy        Managing        Boehner, John   7/24/20071          $1,000
 Government    Director,       A. via
 Relations     Government      Friends of
               Relations       John Boehner
------------------------------------------------------------------------
Ogilvy        Managing        Boehner, John    7/18/2008            $250
 Government    Director,       A. via
 Relations     Government      Friends of
               Relations       John Boehner
------------------------------------------------------------------------
The           Partner         National          5/5/2005          $1,000
 Federalist                    Association
 Group                         of Chain
                               Drug Stores,
                               Inc.
                               Political
                               Action
                               Committee
------------------------------------------------------------------------
--            Information     NRSC             2/28/2006          $2,500
               Requested
------------------------------------------------------------------------
Hess          Vice            Scott,           5/31/2016            $500
               President,      Timothy E.
               Global          via Tim
               Government      Scott for
               Affairs         Senate
------------------------------------------------------------------------
Hess          Vice            Scott,           6/21/2013            $500
               President,      Timothy E.
               Global          via Tim
               Government      Scott for
               Affairs         Senate
------------------------------------------------------------------------
Hess          Vice            Heartland         5/7/2013          $1,500
 Corporation   President,      Values PAC
               Government
               Affairs
------------------------------------------------------------------------
Hess          Vice            Thune, John      1/14/2015          $1,000
 Corporation   President,      via Friends
               Government      of John
               Affairs         Thune
------------------------------------------------------------------------
Hess          Vice            Tiberi,          6/12/2014          $1,000
 Corporation   President,      Patrick J.
               Global          via Tiberi
               Government      for Congress
               Affairs
------------------------------------------------------------------------
Ogilvy        CEO             Meehan,         11/14/2011            $500
 Government                    Patrick L.
 Relations                     via Pat
                               Meehan for
                               Congress
------------------------------------------------------------------------
Ogilvy        Management      Majority          4/9/2011          $5,000
 Government                    Committee
 Relations                     PAC--MC PAC
------------------------------------------------------------------------
Ogilvy        CEO             Scott,           6/14/2011            $500
 Government                    Timothy via
 Relations                     Tim Scott
                               for Congress
------------------------------------------------------------------------
Ogilvy        Chief           Rokita,           5/8/2012            $500
 Government    Executive       Theodore
 Relations     Officer         Edward via
                               Hoosiers for
                               Rokita, Inc.
------------------------------------------------------------------------
Ogilvy        Government      Win Back         2/24/2009            $500
 Government    Relations       America
 Relations                     Political
                               Action
                               Committee
------------------------------------------------------------------------
Ogilvy        Lobbyist        Boozman, John    5/13/2010            $500
 Government                    via Boozman
 Relations                     for Arkansas
------------------------------------------------------------------------
Ogilvy        Lobbyist        Boozman, John    9/17/2010            $500
 Government                    via Boozman
 Relations                     for Arkansas
------------------------------------------------------------------------
Ogilvy        Lobbyist        Boozman, John    10/1/2010            $500
 Government                    via Boozman
 Relations                     for Arkansas
------------------------------------------------------------------------
Ogilvy        Lobbyist        Castle,         12/18/2009          $1,000
 Government                    Michael N.
 Relations                     via
                               CastlePAC
                               LLC
------------------------------------------------------------------------
Ogilvy        Lobbyist        Castle,          6/30/2010          -$1000
 Government                    Michael N.
 Relations                     via
                               CastlePAC
                               LLC
------------------------------------------------------------------------
Ogilvy        Lobbyist        Castle,          6/30/2010          $1,000
 Government                    Michael N.
 Relations                     via
                               CastlePAC
                               LLC
------------------------------------------------------------------------
Ogilvy        Lobbyist        Castle,          6/30/2010          $2,400
 Government                    Michael N.
 Relations                     via
                               CastlePAC
                               LLC
------------------------------------------------------------------------
Ogilvy        Lobbyist        Tiahrt, Todd     7/19/2010          $1,400
 Government                    via Kansans
 Relations                     for Tiahrt
------------------------------------------------------------------------
Ogilvy        Lobbyist        Walden,          9/23/2009            $500
 Government                    Gregory P.
 Relations                     via Walden
                               for Congress
------------------------------------------------------------------------
                              Castle,          10/4/2010         -$1,000
                               Michael N.
                               via
                               Castlepac
                               LLC
------------------------------------------------------------------------
Federalist    Associate       Barton, Joe     11/24/2003          $1,000
 Group                         Linus via
                               The
                               Congressman
                               Joe Barton
                               Committee
------------------------------------------------------------------------
Hess          Vice            NRSC             9/17/2013         $25,000
 Corporation   President,
               Global
               Government
               Affairs and
               Public Policy
------------------------------------------------------------------------
Ogilvy        Government      Blunt, Roy       5/19/2009          $2,000
 Government    Affairs         via Friends
 Relations                     of Roy Blunt
------------------------------------------------------------------------
Ogilvy        Government      Blunt, Roy       10/1/2010          $1,000
 Government    Affairs         via Friends
 Relations                     of Roy Blunt
------------------------------------------------------------------------
Ogilvy        Government      Blunt, Roy      10/28/2010          $1,000
 Government    Affairs         via Friends
 Relations                     of Roy Blunt
------------------------------------------------------------------------
              Information     NRSC             5/27/2008            $500
               Requested Per
               Best Efforts
------------------------------------------------------------------------
Information   Information     NRSC             6/27/2013          $5,000
 Requested     Requested Per
 Per Best      Best Efforts
 Efforts
------------------------------------------------------------------------
Federalist    Government      Bush, George     6/18/2003          $2,000
 Group         Relations       W. via Bush-
                               Cheney 2004
                               (Primary)
                               Inc.
------------------------------------------------------------------------
Federalist    Managing        Freedom          6/30/2006          $2,500
 Group         Director        Project; The
------------------------------------------------------------------------
Info          Info Requested  NRCC             6/30/2005            $500
 Requested
------------------------------------------------------------------------
The           Consultant      New               5/9/2006          $1,000
 Federalist                    Republican
 Group                         Majority
                               Fund
------------------------------------------------------------------------
Federalist    Executive       Davis,           3/31/2006            $500
 Group LLC                     Geoffrey C.
                               via Geoff
                               Davis for
                               Congress
------------------------------------------------------------------------
Federalist    Executive       Fund for a        4/3/2003          $1,000
 Group LLC                     Conservative
                               Future
------------------------------------------------------------------------
Federalist    Executive       Pete's          12/31/2003          $1,000
 Group LLC                     Political
                               Action
                               Committee
------------------------------------------------------------------------
Federalist    Lobbyist        American          5/7/2004            $500
 Group LLC                     Liberty
                               Political
                               Action
                               Committee
------------------------------------------------------------------------
Federalist    Executive       Rely on Your     7/21/2003          $1,000
 Group LLC/                    Beliefs Fund
 Executive
------------------------------------------------------------------------
Ogilvy        Lobbyist        Opportunity       8/9/2010          $1,000
 Government                    and
 Relations                     Responsibili
                               ty Restored
                               in Our
                               Nation PAC
------------------------------------------------------------------------
Federalist    Consultant      Crane, Philip   10/29/2004          $1,000
 Group                         M. via Crane
                               for Congress
                               Committee
------------------------------------------------------------------------
Federalist    Partner         Sweeney, John    7/28/2005          $1,000
 Group                         E. via
                               Sweeney for
                               Congress,
                               Inc.
------------------------------------------------------------------------
Federalist    Partner         Sweeney, John    8/23/2006          $1,000
 Group                         E. via
                               Sweeney for
                               Congress,
                               Inc.
------------------------------------------------------------------------
Federalist    Vice President  Fossella,        4/22/2008            $500
 Group                         Vito via
                               Committee to
                               Re-Elect
                               Vito
                               Fossella
------------------------------------------------------------------------
Federalist    Executive       Help             7/17/2007            $500
 Group LLC                     America's
                               Leaders
                               Political
                               Action
                               Committee
                               (HALPAC)
------------------------------------------------------------------------
Federalist    Executive       Help             3/31/2008          $1,000
 Group LLC                     America's
                               Leaders
                               Political
                               Action
                               Committee
                               (HALPAC)
------------------------------------------------------------------------
Federalist    Executive       Help            10/26/2010          $1,000
 Group LLC                     America's
                               Leaders
                               Political
                               Action
                               Committee
                               (HALPAC)
------------------------------------------------------------------------
Federalist    Government      Bilirakis,       9/29/2008            $500
 Group LLC     Consultant      Gus M. via
                               Bilirakis
                               For Congress
------------------------------------------------------------------------
Hess          Vice            Trust PAC        6/30/2014          $2,500
 Corporation   President,      Team
               Global          Republicans
               Government      for
               Affairs         Utilizing
                               Sensible
                               Tactics
------------------------------------------------------------------------
Ogilvy        Managing        Burgess,        12/18/2007            $500
 Government    Director        Michael C.
 Relations                     Dr. via
                               Michael
                               Burgess for
                               Congress
------------------------------------------------------------------------
Ogilvy        Managing        Burgess,        12/15/2009            $500
 Government    Director        Michael C.
 Relations                     Dr. via
                               Michael
                               Burgess for
                               Congress
------------------------------------------------------------------------
Ogilvy        Managing        Trust PAC         4/5/2011          $2,500
 Government    Director        Team
 Relations                     Republicans
                               for
                               Utilizing
                               Sensible
                               Tactics
------------------------------------------------------------------------
Ogilvy        Managing        Camp, David     10/22/2007            $500
 Government    Director        Lee via Dave
 Relations                     Camp for
                               Congress
------------------------------------------------------------------------
Ogilvy        Managing        Camp, David     12/21/2007          $1,000
 Government    Director        Lee via Dave
 Relations                     Camp for
                               Congress
------------------------------------------------------------------------
Sonnenschein  Attorney        Longhorn PAC     9/29/2006          $1,000
 Nath
------------------------------------------------------------------------
The           Consultant      McCrery,          6/8/2006          $1,000
 Federalist                    James O.,
 Group                         III via
                               McCrery for
                               Congress
                               Committee
------------------------------------------------------------------------
The           Consultant      McCrery,         9/28/2007          $1,000
 Federalist                    James O.,
 Group                         III via
                               McCrery for
                               Congress
                               Committee
------------------------------------------------------------------------
The           Government      House            7/27/2006          $1,000
 Federalist    Relations       Conservative
 Group/                        s Fund
 Government
 Relation
------------------------------------------------------------------------
                              Boehner, John   11/16/2015         -$2,700
                               A. via
                               Friends of
                               John Boehner
------------------------------------------------------------------------
                              Boehner, John   12/31/2016          $2,700
                               A. via
                               Friends of
                               John Boehner
------------------------------------------------------------------------
                              NRCC             7/21/2011         -$5,000
------------------------------------------------------------------------
Ogilvy        CEO             Ribble, Reid    11/29/2011          $1,000
                               J. Rep. via
                               Ribble for
                               Congress
------------------------------------------------------------------------
Ogilvy        CEO             Ribble, Reid     5/29/2012            $500
                               J. Rep. via
                               Ribble for
                               Congress
------------------------------------------------------------------------
Ogilvy        CEO             Hudson,         10/31/2011            $250
 Government                    Richard L.,
 Relations                     Jr. via
                               Hudson for
                               Congress
------------------------------------------------------------------------
Ogilvy        CEO             Lucas, Frank     9/30/2011            $500
 Government                    D. via Lucas
 Relations                     for Congress
------------------------------------------------------------------------
Oglilvy       Lobbyist        Graves,         11/06/2009            $250
 Government                    Samuel B.,
 Relations                     Jr. ``Sam''
                               via Graves
                               for Congress
------------------------------------------------------------------------
Oglilvy       Lobbyist        Graves,          3/22/2010            $500
 Government                    Samuel B.,
 Relations                     Jr. ``Sam''
                               via Graves
                               for Congress
------------------------------------------------------------------------
Federalist    Associate       Barton, Joe      3/17/2005          $1,000
 Group                         Linus via
                               The
                               Congressman
                               Joe Barton
                               Committee
------------------------------------------------------------------------
Federalist    Associate       Texas Freedom    3/21/2003          $1,000
 Group                         Fund
------------------------------------------------------------------------
Federalist    Associate       Responsibilit    7/14/2003            $500
 Group LLC                     y and
                               Freedom Work
                               PAC (RFWPAC)
------------------------------------------------------------------------
Federalist    Associate       Responsibilit   10/12/2004            $500
 Group LLC                     y and
                               Freedom Work
                               PAC (RFWPAC)
------------------------------------------------------------------------
Ogilvy        Managing        Upton,          12/20/2007          $1,000
 Government    Director        Frederick
 Relations                     Stephen via
                               Upton for
                               All of Us
------------------------------------------------------------------------
Ogilvy        CEO             NRCC             4/20/2012         $30,000
 Government
 Relations
------------------------------------------------------------------------
Self          Consultant      Republican      12/31/2013         $15,000
                               National
                               Committee
------------------------------------------------------------------------
Federalist    Consultant      Mica, John L.    3/29/2007            $500
 Group                         via Mica for
                               Congress
------------------------------------------------------------------------
Federalist    Partner         Republican       3/19/2008          $5,000
 Group LLC                     National
                               Committee
------------------------------------------------------------------------
Federalist    Executive       Davis,           3/11/2008            $500
 Group LLC                     Geoffrey C.
                               via Geoff
                               Davis for
                               Congress
------------------------------------------------------------------------
Federalist    Government      Republican       7/10/2014          $1,000
 Group LLC     Relations       Party of
                               Virginia
                               Inc.
------------------------------------------------------------------------
Federalist    Member          Sodrel,         10/26/2004            $500
 Group LLC                     Michael E.
                               via Friends
                               of Mike
                               Sodrel
------------------------------------------------------------------------
Federalist    President       Rigell,         10/26/2010          $1,000
 Group LLC                     Edward Scott
                               via Rigell
                               for Congress
------------------------------------------------------------------------
Federalist    Managing        Keller,           5/5/2008            $500
 Group LLC     Director        Richard
                               Anthony via
                               Keller for
                               Congress
------------------------------------------------------------------------
Federalist    Managing        Keller,          9/26/2008            $500
 Group LLC     Director        Richard
                               Anthony via
                               Keller for
                               Congress
------------------------------------------------------------------------
Ogilvy        Government      Johnson, Sam     9/28/2009            $500
 Government    Relations       via Friends
 Relations     Consultant      of Sam
                               Johnson
------------------------------------------------------------------------
Ogilvy        Consultant      Mica, John L.    8/14/2007          $1,000
 Government                    via Mica for
 Relations                     Congress
------------------------------------------------------------------------
Ogilvy        Government      Free and         7/21/2008          $5,000
 Government    Relations       Strong
 Relations                     America PAC,
                               Inc.
------------------------------------------------------------------------
Ogilvy        Government      Free and         3/12/2009          $2,500
 Government    Relations       Strong
 Relations                     America PAC,
                               Inc.
------------------------------------------------------------------------
Ogilvy        Lobbyist        NRCC             2/27/2009          $2,500
 Government
 Relations
------------------------------------------------------------------------
Ogilvy        Managing        Rounsaville,     11/2/2007            $500
 Government    Director        John Walter
 Relations                     via John
                               Rounsaville
                               for Congress
------------------------------------------------------------------------
Ogilvy        Managing        White, Darren     8/4/2008            $500
 Government    Director        P. via
 Relations                     Darren White
                               for Congress
------------------------------------------------------------------------
Ogilvy        CEO             Upton,          12/12/2011          $2,500
 Government                    Frederick
 Relations                     Stephen via
                               Upton for
                               All of Us
------------------------------------------------------------------------
The           Associate       Barton, Joe      8/11/2005          $1,000
 Federalist                    Linus via
 Group                         the
                               Congressman
                               Joe Barton
                               Committee
------------------------------------------------------------------------
The           Associate       Texas Freedom   11/19/2007          $2,500
 Federalist                    Fund
 Group
------------------------------------------------------------------------
              Information     NRCC            10/26/2007          $2,500
               Requested
------------------------------------------------------------------------
Hess          Vice            Cheney,          6/25/2016          $1,000
 Corporation   President,      Elizabeth
               Government      via Liz
               and External    Cheney for
               Affairs         Wyoming
------------------------------------------------------------------------
Ogilvy        CEO             Kinzinger,       6/30/2011            $500
 Government                    Adam via
 Relations                     Kinzinger
                               for Congress
------------------------------------------------------------------------
Ogilvy        Government      NRCC             4/21/2010         $10,000
 Government    Relations
 Relations
------------------------------------------------------------------------
Ogilvy        Government      NRCC             4/21/2010         $10,000
 Government    Relations
 Relations
------------------------------------------------------------------------
Ogilvy        Lobbyist        Free and         8/26/2009          $2,500
 Government                    Strong
 Relations                     America PAC,
                               Inc.
------------------------------------------------------------------------
0gilvy        Lobbyist        Free and         2/18/2010          $5,000
 Government                    Strong
 Relations                     America PAC,
                               Inc.
------------------------------------------------------------------------
Ogilvy        CEO             Grimm,          12/19/2011            $500
 Government                    Michael via
 Relations                     Michael
                               Grimm for
                               Congress
------------------------------------------------------------------------
Federalist    Executive       Pickering,        3/9/2007            $500
 Group LLC                     Charles W.
                               ``Chip,''
                               Jr. via
                               Pickering
                               for Congress
------------------------------------------------------------------------
    Total                                                    $250,100.00
     Contrib
     utions
------------------------------------------------------------------------



            Andrew K. Maloney Joint Fundraising Contributions
   These are contributions to committees that are raising funds to be
                     distributed to other committees
   The breakdown of these contributions to their final recipients may
                              appear below
------------------------------------------------------------------------
                                Committee    Transaction
  Employer      Occupation         Name          Date         Amount
------------------------------------------------------------------------
Federalist    Executive       Team Texas       9/28/2004          $1,500
 Group                         Committee
------------------------------------------------------------------------
Ogilvy        Executive       Boehner for      9/15/2010         $10,000
 Government                    Speaker
 Relations
------------------------------------------------------------------------
Hess          Vice            Boehner for      3/28/2013         $30,000
 Corporation   President,      Speaker
               Government
               Affairs
------------------------------------------------------------------------
Hess          Vice President  Boehner for      6/22/2015         $25,000
 Corporation                   Speaker
------------------------------------------------------------------------
Hess          Vice            Boehner for      7/31/2014         $25,000
 Corporation   President,      Speaker
               Government
               Affairs
------------------------------------------------------------------------
    Total                                                     $91,500.00
     Joint
     Fundrai
     sing
------------------------------------------------------------------------



      Andrew K. Maloney Recipient of Joint Fundraiser Contributions
    These are the final recipients of joint fundraising contributions
------------------------------------------------------------------------
                                Committee    Transaction
  Employer      Occupation         Name          Date         Amount
------------------------------------------------------------------------
Hess          Vice            NRCC             3/31/2013         $30,000
 Corporation   President,
               Global
               Government
               Affairs
------------------------------------------------------------------------
Hess          Vice            NRCC             6/22/2015         $19,600
 Corporation   President,
               Global
               Government
               Affairs
------------------------------------------------------------------------
Hess          Vice            NRCC             7/31/2014         $22,400
 Corporation   President,
               Global
               Government
               Affairs
------------------------------------------------------------------------
Self          Consultant      Republican       9/25/2012         $20,000
                               National
                               Committee
------------------------------------------------------------------------
Hess          Vice            Boehner, John    7/31/2014          $2,600
 Corporation   President,      A. via
               Government      Friends of
               Affairs         John Boehner
------------------------------------------------------------------------
Hess          Vice            Boehner, John    6/22/2015          $2,700
 Corporation   President,      A. via
               Government      Friends of
               Affairs         John Boehner
------------------------------------------------------------------------
Hess          Vice            Boehner, John    6/22/2015          $2,700
 Corporation   President,      A. via
               Government      Friends of
               Affairs         John Boehner
------------------------------------------------------------------------
Ogilvy        Government      NRCC            10/15/2010         $10,000
 Government    Relations
 Relations
------------------------------------------------------------------------
    Recipien                                                 $110,000.00
     t Total
------------------------------------------------------------------------


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

    None.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written): ``How to Influence Government,'' Moses Mercado and Drew 
Maloney, Forbes, January 19, 2009; and ``Lessons in Navigating U.S. 
Economic Rapids,'' Jamie Moeller and Drew Maloney, China Daily, June 6, 
2006.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

    No formal speeches.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     During college, I interned on Capitol Hill, and following college 
I worked in Virginia's General Assembly. I have always been interested 
in public policy and government. After law school, I returned to 
Capitol Hill and worked on various issues for more than 5 years. I knew 
that I wanted to return to government later in my life. Now, after more 
than 25 years managing complex public policy issues, I look forward to 
the possibility of returning. I understand the need to build support 
for public policy positions and to be responsive to various 
constituencies. My background on Capitol Hill and the private sector 
offers a good perspective of how to support the Treasury Department and 
appreciate the importance of the legislative bodies.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

    Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

    No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

    No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     None. I have consulted with Department of the Treasury's ethics 
staff and the Office of Government Ethics regarding potential issues 
arising out of my financial holdings, past income, and past employment 
relationships. These have been addressed in the ethics agreement I 
entered into with the Department of the Treasury's designated agency 
ethics official. I am not aware of any other potential conflicts of 
interest.

 2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     I am not aware of any business relationship or financial 
transaction which would constitute a conflict of interest.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     For the past 4\1/2\ years, I have been vice president of Hess 
Corporation, overseeing its communications, social responsibility, and 
government affairs operation. The company was a strong supporter and 
advocate of overturning the crude oil export ban. The company engaged 
on a variety of energy and environmental issues. Prior to Hess, I 
served as CEO for Ogilvy Government Relations. My focus was on the 
energy practice, advocating for oil and gas and power generators before 
Congress. I also assisted my partners with financial service, 
transportation, and other client interests. All advocacy activities 
from Ogilvy are publicly filed with the House and Senate.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

     I have executed an ethics agreement with the Department of the 
Treasury's designated agency ethics official and will abide by the 
terms of such agreement. If confirmed, I will consult with ethics 
counsel in the event that I identify a potential conflict of interest.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

    No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

    No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

    No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

    No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     I am not aware of additional information.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

    Yes.

 2.  If you are confirmed by the Senate are you willing to provide such 
information as is requested by such committees?

    Yes.

                                 ______
                                 
        Questions Submitted for the Record to Andrew K. Maloney
               Question Submitted by Hon. Debbie Stabenow
    Question. There are disturbing reports that the Trump 
administration has been instructing his Secretaries and their staffs 
not to respond to questions and requests from Democratic members of 
Congress. If true, this is very troubling news, as not only does 
Congress have an important oversight role over the executive branch, 
but also, members of Congress often need to request urgent information 
on behalf of constituents or about issues of key local importance.

    If confirmed, will you commit to being equally responsive to 
members of Congress on both sides of the aisle?

    Answer. It is my understanding that party affiliation has no 
influence on how the Department of the Treasury responds to requests 
from members of Congress. If confirmed, I intend to respond, consistent 
with legal obligations, to all inquiries from members of Congress.

                                 ______
                                 
                 Question Submitted by Hon. Bill Nelson
    Question. How would you advise the Treasury Secretary to engage 
with Democrats on tax reform?

    Answer. If confirmed, I would plan to offer advice and counsel to 
the Secretary and other Treasury Department officials based on lessons 
learned from my years of service on Capitol Hill. During that time, I 
came to understand and fully appreciate the dynamic between Congress 
and the executive branch, as well as the need to work with colleagues 
in a bipartisan manner. Complex legislative issues, such as reforming 
our tax code, are strengthened when work is done to find areas of 
agreement between both parties.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. Mr. Maloney, if the Treasury General Counsel on their 
own, or at the direction of White House Counsel, advises that it is 
appropriate for you to only respond to Republican offices and not 
Democratic offices, will you adhere to such guidance?

    Answer. It is my understanding that party affiliation has no 
influence on how the Department of the Treasury responds to requests 
from members of Congress. If confirmed, I intend to respond, consistent 
with legal obligations, to all inquiries from members of Congress.

    Question. Mr. Maloney, if the Treasury General Counsel on their 
own, or at the direction of White House Counsel, directs that you only 
respond to requests from Republican offices and not Democratic offices, 
will you inform the chairman and ranking member of the Finance 
Committee promptly that you have been directed to not respond to 
Democratic requesters?

    Answer. See response to question above.

    Question. Mr. Maloney, if confirmed, in your capacity as Deputy 
Under Secretary for Legislative Affairs, would you advise the Secretary 
to respond to Senators' requests for information regardless of their 
party affiliation? That is, would you advise the Secretary that it is 
improper to only respond to requests from Republican offices and not 
requests from Democratic offices?

    Answer. See response to my first question.

    Question. Mr. Maloney, Republican members of the Finance Committee 
were provided OneWest Bank foreclosure data over 4 months ago. In 
January 2017, I followed up on my direct verbal request for this 
information with a question for the record, where the Secretary 
responded, ``I have requested the additional [foreclosure] 
information.''

    When can I expect to receive the data I requested on OneWest Bank's 
foreclosures in Pennsylvania, and nationally?

    Answer. Although I do not have access to any specifics concerning 
this matter, I can commit to work with your office on this request, if 
confirmed.

    Question. Mr. Maloney, at his nomination hearing, Secretary Mnuchin 
told the committee in his sworn testimony that while head of OneWest 
Bank he sent a letter to HUD raising concerns about their reverse 
mortgage guidance. I requested a copy of that letter over 4 months ago. 
In January 2017, I followed up on this verbal request with a question 
for the record where the Secretary responded, ``I have requested the 
additional [foreclosure] information as well as the referenced [reverse 
mortgage] letter.''

    When can I expect to receive a copy of this letter?

    Answer. Although I do not have access to any specifics concerning 
this matter, I can commit to work with your office on this request, if 
confirmed.

    Question. Mr. Maloney, directly following Secretary Mnuchin's 
appearance before the Finance Committee on May 25, 2017, Secretary 
Mnuchin was delivered a letter asking he provide the committee by end 
of business the following day a copy of his request to CIT for 
foreclosure information and his request for a copy of the letter he 
claims he sent to HUD regarding reverse mortgages. The committee has 
yet to receive a copy of this correspondence.

    When can we expect to receive a copy of the Secretary's 
correspondence to CIT requesting OneWest Bank's State and national 
foreclosure information, and his letter on reverse mortgages?

    Answer. Although I do not have access to any specifics concerning 
this matter, I can commit to work with your office on this request, if 
confirmed.

                                 ______
                                 
 Prepared Statement of David Malpass, Nominated to be Under Secretary 
         for International Affairs, Department of the Treasury
    Chairman Hatch, Ranking Member Wyden, and distinguished members of 
the Finance Committee, thank you for the opportunity to appear before 
you today and for your consideration of my nomination to be Under 
Secretary of the Treasury for International Affairs. I am deeply 
honored by the President's decision to nominate me, and I have very 
much appreciated meeting with many members of the committee and your 
staff this spring.

    Before discussing my own background, I would like to thank my 
wonderful wife, Adele, and our four children--Robert, Emily, Julia, and 
Peter--for their support. Adele is a former Senate Budget Committee 
staffer and someone who cares deeply about pursuing policies that 
promote prosperity for all Americans. I am particularly grateful for 
her hard work and support over the last year and her unwavering 
commitment to our Nation.

    We especially miss our parents on this occasion. They were keenly 
interested in public policy and would have been very proud to be here. 
Both our fathers died last year. They were intensely patriotic, served 
in the army in World War II, and chose to be buried with military 
honors. Adele's mother died earlier, and my mother was not able to 
travel from Colorado, but I can feel their encouragement today as the 
Nation faces major challenges.

    While the position to which I have been nominated primarily relates 
to international issues, my meetings with many of you focused on the 
local impact on your constituents. I listened to the variety and depth 
of your interests and concerns, and it was a particular pleasure to 
meet with Senators from States where I have strong personal ties--
namely Oregon, Colorado, Georgia, and Louisiana. If confirmed, I look 
forward to working with you on a wide range of international issues--
knowing they will have significant impacts on citizens of every State.

    Specifically, the Under Secretary for International Affairs is 
responsible for directing U.S. financial and economic relations with 
foreign countries and managing our roles in multilateral financial 
institutions such as the IMF and World Bank. The position also involves 
supervising those charged with running the CFIUS process, coordinating 
global financial regulatory standards, negotiating agreements affecting 
the U.S. financial sector, providing technical assistance to foreign 
financial systems, and protecting the trustworthiness of the U.S. 
dollar. I am ready and eager to take on these important 
responsibilities and believe my upbringing, education, and 40-year 
career spanning government, finance, and economics have provided me 
with a solid foundation.

    I was raised in East Jordan, a small town in northern Michigan. My 
great grandfather started an iron foundry there in 1883 that was 
expanded by my grandfather, father, and the cousins I grew up with. The 
East Jordan Iron Works (now EJ Co.) is a fifth-generation global 
business, which still prides itself on productivity, hard work, good-
paying jobs, and strong communities.

    After earning a degree in physics, I worked as a contract 
administrator at Esco, a foundry in Portland, Oregon. We made high-
alloy steel used in digging equipment, nuclear castings, and pulp 
mills. Both companies are emblematic of the challenges and 
opportunities that will continue to face our economy in the coming 
decades--they battle foreign competition yet have prospered through 
innovation, flexibility, talented leadership, and strong, skilled 
workers.

    During the Reagan and first Bush Presidencies, I worked on economic 
and international affairs at the Treasury and State Departments and 
served on the staff of the Senate Budget Committee and the Joint 
Economic Committee. I had the privilege of working for Secretary James 
Baker and for Senators Pete Domenici and Bill Roth on many of the 
economic issues of the 1980s and early 1990s--including the 1986 tax 
reform act, the 1988 trade act, debt limit increases, and fiscal and 
monetary policy. I also participated in the policy responses to the 
Latin America debt crisis, the 1987 stock market crash, and the savings 
and loan crisis. At the Treasury Department, I headed the Developing 
Nations group, which was responsible for fiscal and monetary programs, 
the multilateral development banks, debt restructurings, and the 
securitization of debt through sovereign bonds.

    After completing my government service, I moved to New York to work 
for Bear Stearns on macroeconomic analysis, later becoming chief 
economist. I subsequently started my own firm, Encima Global, which 
produced research on monetary and fiscal policy, markets, and 
currencies. I have written extensively for Forbes, The Wall Street 
Journal, and other national publications on growth, ways to improve 
spending and tax policies, the Federal Reserve, and currency stability 
as a core path to higher living standards.

    The theme of my upbringing, career, and publications is that 
policies have a big impact on growth, jobs, and wages, and that a key 
goal of fiscal and monetary policy development is to create higher 
living standards for working and middle-income citizens in the United 
States and around the world.

    If confirmed, I will endeavor to fulfill my duties by working 
closely with this committee, and others in the Senate and House of 
Representatives in order to execute the law and develop sound 
administration policies and initiatives. This would include helping our 
domestic industries remain competitive while encouraging foreign 
investment in the United States that creates more jobs here. I will 
also work to promote sound policies abroad and more growth--these are 
strongly in our national interest both in terms of markets for our 
products and national security. Finally, our international policies 
need to work toward broader prosperity--if confirmed, I will work to 
build a stronger U.S. and global economy that raises real median 
incomes.

    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions you may have.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1. Name (include any former names used): David Robert Malpass.

 2.  Position to which nominated: Treasury Under Secretary for 
International Affairs.

 3. Date of nomination: March 21, 2017.

 4. Address (list current residence, office, and mailing addresses):

 5. Date and place of birth: March 8, 1956, Petoskey, Michigan.

 6. Marital status (include maiden name of wife or husband's name):

 7. Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):


------------------------------------------------------------------------
                          Dates
     Institution         Attended     Degree Received      Degree Date
------------------------------------------------------------------------
Fellow, Georgetown            1983  Courses in          None
 University School of                international
 Foreign Service                     economics
------------------------------------------------------------------------
University of Denver     1977-1978  MBA                 May 1978
------------------------------------------------------------------------
Portland State           1976-1977  Courses in          None
 University                          accounting
------------------------------------------------------------------------
Colorado College         1973-1976  BA (physics)        May 1976
------------------------------------------------------------------------
Moscow State                  1975  Courses in Russian  None
 University
------------------------------------------------------------------------
Cornell University            1972  Courses in Russian  None
------------------------------------------------------------------------
Fairview High School     1970-1973  Diploma             May 1973
------------------------------------------------------------------------


 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     Encima Global LLC, president, New York, NY, June 2008-February 
2017.

     JP Morgan, economist, New York, NY, March 2008-June 2008.

     Bear Stearns, chief economist, January 2002-March 2008; Chief 
International Economist, February 1993-January 2002, New York, NY, 
February 1993-March 2008.

     U.S. State Department, Deputy Assistant Secretary (Latin America 
Economic Affairs), Washington, DC, June 1990-January 1993.

     Joint Economic Committee, Republican Staff Director, Washington, 
DC, March 1989-June 1990.

     U.S. Treasury Department, Deputy Assistant Secretary (Developing 
Nations), April 1988-February 1989; Legislative Manager, March 1986-
April 1988, Washington, DC, March 1986-March 1989.

     Senate Budget Committee, Senior Analyst for Taxes and Trade, 
International Economist, Washington, DC, January 1984-March 1986.

     Self-employed, computer systems consultant, Portland, Oregon, 
October 1981-September 1983.

     Consolidated Supply Co., Controller/CFO, Portland, Oregon, October 
1979-October 1981.

     Arthur Andersen and Co., computer systems consultant, Portland, 
Oregon, August 1978-October 1979.

     Esco (Electric Steel) Corp., assistant contract administrator, 
Portland, Oregon, November 1976-August 1977.

     McDonald's breakfast chef, Boulder, Colorado, September 1976.

     Regal Industries, industrial electrician, Long Beach, California, 
June-July 1976.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above): Member of Illinois Debt 
Commission established by Senator Mark Kirk, 2006; and Member of 
Congressional ``Blue Ribbon Panel on Dynamic Budget Scoring'' 2002.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

     President, Encima Global LLC.
     Partner, Vencerx Therapeutics LLC.
     Director, GKCC, Gary Klinsky Children's Center.
     Trustee, Manhattan Institute.
     Director, New Mountain Finance Corp. (resigned March 2017).
     Director, UBS Managed Municipal Trust.
     Director, UBS Investment Trust.
     Director, UBS Money Series.
     Director, Pace Select Advisors Trust.
     Director, UBS RMA Money Market Inc.
     Director, UBS Master Trust.
     Director, UBS RMA Tax-Free Fund Inc.
     Director, Strategic Global Income Fund, Inc.
     Director, Global High Income Fund Inc.
     Director, Managed High Yield Plus Fund Inc.

     In addition to the foregoing, as president of Encima Global LLC, I 
was, in turn, engaged by a number of clients to provide economic 
research and consulting services (as disclosed in my Form 278 filing).

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations): Member, Economic Club of New York; member, 
Council on Foreign Relations.

13. Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       Candidate for U.S. Senate, New York, 2010.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       Senior economic advisor, presidential campaign of Rudy Giuliani, 
2008; senior economic advisor, presidential campaign of Donald Trump, 
2016; treasurer, Grow Pac, 2010-2017 (a federal PAC); and treasurer, 
Grow Pac, 2011-2017 (a NY state PAC).

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.


                     Malpass Political Contributions
 
      Date         Amount                     Recipient
 
3/31/07              $4,600  Giuliani, Rudolph W., via Rudy Giuliani
                              Presidential Committee Inc.
4/27/07            ($2,300)  Giuliani, Rudolph W., via Rudy Giuliani
                              Presidential Committee Inc.\1\
6/14/07              $2,300  Giuliani, Rudolph W., via Rudy Giuliani
                              Presidential Committee Inc.
6/29/07              $2,300  Kirk, Mark Steven, via Kirk for Senate
6/29/07              $1,700  Kirk, Mark Steven, via Kirk for Senate
7/10/07            ($2,300)  Giuliani, Rudolph W., via Rudy Giuliani
                              Presidential Committee Inc.\2\
7/10/07              $2,300  Giuliani, Rudolph W., via Rudy Giuliani
                              Presidential Committee Inc.
3/4/08             ($2,300)  Giuliani, Rudolph W., via Rudy Giuliani
                              Presidential Committee Inc.\3\
5/21/08              $2,300  McCain, John S., via John McCain 2008, Inc.
5/21/08              $2,300  McCain, John S., via McCain-Palin
                              Compliance Fund
5/31/08              $2,300  McCain Victory 2008
7/31/08              $2,300  Republican National Committee
10/19/08               $500  Kirk, Mark Steven, via Kirk for Senate
9/22/09              $2,400  Kirk, Mark Steven, via Kirk for Senate
1/13/10              $2,000  NY State Conservative Party
1/28/10              $2,000  NY State Conservative Campaign Committee
2/5/10               $1,000  NY County Republicans
2/8/10               $1,000  New York Republican County Committee
2/22/10                $500  Queens County Housekeeping Account
3/8/10                 $500  Malpass, David Robert, via David Malpass
                              for Senate
4/16/10                $300  National Republican Senatorial Committee
6/4/10                 $150  Michael Faulkner via Michael Faulkner for
                              Congress
7/13/10              $2,300  Republican Campaign Committee of New York
                              (R)
8/29/10              $1,000  Erie County Republican Party
8/29/10                $100  Michael Faulkner via Michael Faulkner for
                              Congress
9/10/10              $1,000  Erie County Republican Committee-Finance
9/30/10            $100,000  Malpass, David Robert, via David Malpass
                              for Senate
9/30/10          $1,500,000  Malpass, David Robert, via David Malpass
                              for Senate
12/15/10             $7,000  Malpass, David Robert, via David Malpass
                              for Senate
12/30/10             $5,000  Malpass, David Robert, via David Malpass
                              for Senate
3/3/11               $9,000  Grow PAC
3/17/11              $1,000  Malpass, David Robert, via David Malpass
                              for Senate
6/24/11              $2,000  New York Republican County Committee
                              Housekeeping Account
7/1/11               $8,000  Grow PAC
7/7/11               $1,000  NY Conservative Party
8/4/11               $1,500  Lincoln PAC (Illinois)
8/9/11                 $250  Friends of Paul Niehaus
9/21/11              $1,000  Grow PAC
9/22/11              $2,500  Perry, James R. (Rick), via Perry for
                              President, Inc.
11/3/11              $5,000  Grow PAC
1/19/12              $2,500  Romney, Mitt/Paul D. Ryan, via Romney for
                              President, Inc.
1/23/12                $200  Grow PAC
3/2/12                 $500  Republican County Committee of New York
3/6/12                 $400  NY Republican Federal Campaign Committee
3/9/12               $2,500  Mourdock, Richard E., via Hoosiers for
                              Richard Mourdock Inc.
6/4/12              $30,800  Republican National Committee
6/4/12               $2,500  Romney, Mitt/Paul D. Ryan, via Romney for
                              President, Inc.
6/9/12                 $500  NY Republican Federal Campaign Committee
7/13/12                $500  Republican Campaign Committee of New York
                              (R)
7/27/12              $1,000  Altschuler, Randolph, via Randy Altschuler
                              for Congress
7/31/12              $4,150  Republican Party of Idaho (R)
7/31/12              $4,150  Oklahoma Leadership Council (R)
7/31/12              $4,150  Vermont Republican Federal Elections
                              Committee (R)
7/31/12              $4,150  Republican State Committee of Massachusetts
                              (R)
9/30/12                $500  Carvin, Joseph, via Carvin 2012
10/26/12            $10,000  National Republican Congressional Committee
                              (R)
10/26/12            $10,000  National Republican Senatorial Committee
                              (R)
11/1/12              $1,000  Flake, Jeff, via Jeff Flake for U.S. Senate
                              Inc.
11/4/12              $1,000  Brown, Scott P., via Fiscal Responsibility
                              PAC
1/18/13                $250  New York Republican County Committee
                              Housekeeping Account
2/13/13              $1,500  Lhota, Joseph J. (for Mayor of New York)
5/8/13                 $630  Joe Lhota for Mayor, Inc.
6/10/13              $1,000  Gomez, Gabriel, via Gabriel Gomez for
                              Senate
7/27/13                $500  Lhota, Joseph J. (for Mayor of New York)
1/10/14              $1,900  Kirk, Mark Steven, via Kirk for Senate
1/28/14              $1,000  Grow PAC
3/31/14              $1,500  New York Republican County Committee
8/1/14                 $500  Zeldin, Lee, via Zeldin for Congress
10/15/14             $2,000  Independent Women
11/26/14             $2,600  Cassidy, William M., via Bill Cassidy for
                              U.S. Senate
1/19/15                $500  Grow PAC
2/27/15                $150  Bronx County GOP
3/25/15                $800  Kirk, Mark Steven, via Kirk for Senate
3/25/15              $1,200  Kirk, Mark Steven, via Kirk for Senate
6/24/15              $2,700  Johnson, Ron Harold, via Ron Johnson for
                              Senate Inc.
6/30/15              $2,700  Bush, Jeb, via Jeb 2016, Inc.
6/30/15              $2,700  Portman, Rob, via Portman for Senate
                              Committee
6/30/15                $500  Kirk, Mark Steven, via Kirk for Senate
9/28/15              $2,700  Faso, John J., via Faso for Congress
5/19/16              $1,000  Zeldin, Lee, via Zeldin for Congress
 
\1\ Reattribution to spouse.
\2\ Redesignation to general.
\3\ Contribution refund.


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

      Honorary doctorate, Colorado College, 2007.

      Institutional Investor Allstar Analyst 2005-2007 (ranked second 
among Wall Street economists in leading survey of institutional 
investors).

      Treasury Department commendation for work on 1986 tax reform (by 
Secretary James Baker, October 3, 1986).

      Certified Public Accountant, first licensed 1980.

      University of Denver Dean's List each term, 1977-1978.

      Colorado College Dean's List each term, 1973-1976.

      Colorado College Physics Department's nominee for Danforth 
Fellowship.

      Colorado College grant for study in USSR, 1975.

      Boettcher Foundation Scholar, 1973-1978.

      National Merit Scholar finalist, 1973.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

                          Malpass Publications

 
     Publication                      Title                     Date
 
Policy Change
 
Forbes                 Democracies in Upheaval             12/30/16
Forbes                 Trump-Clinton 9.0 Earthquake        11/29/16
Forbes                 Eight Outrages Urge Trump to Upend  10/4/16
                        Washington
NY Times               Why Our Economy Needs Trump         9/1/16
Forbes                 Trump Using Public's Anger          7/26/16
Forbes                 Upheaval to Reinvent U.S. Politics  5/10/16
Forbes                 Can 2016 Be Salvaged for            2/8/16
                        Investors?
Forbes                 More Government, Less               5/4/15
                        Representation
Forbes                 Peace Through Weakness?             7/21/14
Forbes                 IRS Scandal is Tip of the Iceberg   6/24/13
Forbes                 Corruption Scandals Rock Big        5/6/13
                        Governments
Forbes                 The Battle to Limit Government      2/11/13
WSJ                    Romney, Obama, and the Economic     11/6/12
                        Choice
Forbes                 Pushing Back a Government Centered  5/21/12
                        Society
WSJ                    And the Crisis Winner is            12/16/11
                        Government
Forbes                 The Enemy Within                    5/23/11
Forbes                 Class Warfare Hurts Growth          5/12/11
Forbes                 Congress Must Hit the Ground        11/22/10
                        Running
Forbes                 Restoring America's Growth          9/27/10
Forbes                 Shakedown                           6/28/10
Forbes                 Washington Possessed                5/10/10
Forbes                 Need Game Changers, Not ``New       7/13/09
                        Norm''
Forbes                 Crisis Rules                        2/16/09
Forbes                 Containing Washington's Power       11/10/08
                        Bulge
 
Federal Reserve
 
Cato                   Preventing Bubbles: Regulation      Fall 2011
                        Versus Monetary Policy
WSJ                    Pro-Growth Tools for the Frozen     10/7/16
                        Fed
WSJ                    More Fed Bond Purchases Are the     8/30/16
                        Wrong Answer
NY Sun                 New Course for the Fed Is Growing   2/25/16
                        More Urgent
WSJ                    Don't Blame the Fed's Interest-     2/11/16
                        Rate Baby Step
Testimony              Cato Monetary Conference--Post      11/12/15
                        Monetarism: Fed's Growth Options
Forbes                 Fed Should Raise Rates to Loosen    9/28/15
                        Policy
WSJ                    The Federal Reserve Pulls a Lucy    9/18/15
NY Sun                 Fed Awaits the Moment to End Zero   8/29/15
                        Interest and Waits
NY Sun                 Right Move for the Fed is Hike in   8/20/15
                        Interest Rates so Markets Come
                        Alive
Forbes                 New Course for the Federal Reserve  7/20/15
WSJ                    Fed Rate Forecast: Cloudy With a    3/21/15
                        Chance of Slower Growth
Forbes                 Lower Inflation--Another Chance     2/9/15
                        for Government Mistakes
WSJ                    The World's Monetary Dead End       1/22/15
Forbes                 Big Fed is Big Government           11/24/14
WSJ                    Growth Management Isn't Fed's       10/16/14
                        Forte
WSJ                    The Fed is Looking Like a           9/8/14
                        Sovereign Wealth Fund
WSJ                    Now is the Time to Raise Interest   6/9/14
                        Rates
Forbes                 Monetary Policy Relief Finally      5/5/14
                        Adding Growth
WSJ                    The Fed's Taper is Already Paying   3/14/14
                        Off
Forbes                 The American Income Crisis: The     9/2/13
                        Fed Could Stop It
Cato                   Cato Journal Fall 2013--Fed Needs   9/1/13
                        to Change Course
WSJ                    The Federal Reserve and M2 Figures  6/7/13
WSJ                    Fed Policy is a Drag on Recovery    5/30/13
Testimony              Testimony to House Financial        3/5/13
                        Services Committee on Fed Policy
E21                    Monetary Policy, QE4, and the Next  1/23/13
                        Era of the Federal Reserve
Testimony              Cato Monetary Conference: Fed is    11/15/12
                        Contractionary
Forbes                 Smaller Government Fed Should       9/24/12
                        Shrink, Too
Bush Center            The ``Bernanke Put''                9/19/12
Bush Center            Twisting the Market                 8/20/12
Bush Center            A New Twist on an Old Story         7/3/12
WSJ                    The Fed ``Twist'' That Won't Dance  9/21/11
WSJ                    How the Fed is Holding Back         10/19/10
                        Recovery
Forbes                 Fed Should Go Back to Basics        2/8/10
WSJ                    Near-Zero Rates Are Hurting the     12/4/09
                        Economy
National Review        The Fed Lacks Urgency               3/24/09
Cato                   Cato: Monetary Policy and the       6/22/07
                        Growing Fiscal Imbalance
Fincl Executive        A World of Liquidity                11/29/06
WSJ                    Fed-Side Manner; Interest Rates     5/11/06
                        Too Low
Fortune                Surviving Rate Hikes Will Be        3/8/04
                        Easier Than You Think
Testimony              House Financial Services Committee  4/30/03
                        Testimony on econ/monetary policy
WSJ                    Fed's Moment of Weakness            9/25/02
 
Currencies
 
WSJ                    China Declares Currency             8/15/15
                        Independence
WSJ                    Fed Policy is a Drag on Recovery    5/31/13
WSJ                    Ron Paul, the Fed, and the Need     1/26/12
                        for a Stable Dollar
WSJ                    Beyond the Gold and Bond Bubbles    8/31/11
WSJ                    Weak Dollar, Weak Economy           8/5/11
WSJ                    Weak-Dollar Threat to Prosperity    10/8/09
Forbes                 Debt, Deficits, Dollar Weakness     4/27/09
WSJ                    Bush and the Dollar                 3/11/08
WSJ                    Markets and the Weak Dollar         1/14/08
WSJ                    Lifelines for the Drowning Dollar   11/9/07
WSJ                    Drooping U.S. Dollar--Medicine or   12/16/04
                        Poison?
Cato                   Cato Journal--Exchange Rate         10/14/05
                        Protectionism
WSJ                    The Willy-Nilly Dollar              2/11/04
WSJ                    Brazil's Currency Lesson for the    12/5/03
                        U.S.
WSJ                    The Euro's Broken Promises          10/21/02
WSJ                    Strengthening the Euro Isn't        9/27/00
                        Rocket Science
WSJ                    The ECB's Policy Is Obviously Not   5/8/00
                        Working
WSJ                    Time to Tame Exchange Rates         12/3/99
Cato                   Cato speech, Replacing the Vacuum   10/21/99
                        in International Economic Policy
Testimony              Senate Banking testimony on         7/15/99
                        Dollarization
Testimony              House Banking testimony             5/20/99
                        International Financial System
WSJ                    Dawn of the Euro: New Money Will    1/6/99
                        Bring Smaller Government
EWSJ                   Choose Currency Stability           10/8/98
WSJ                    Beating Back the Bear: U.S. Needs   9/2/98
                        to Promote Currency Stability
EWSJ                   A Stable Dollar Is the Key          8/26/98
                        (Russia's Devaluation)
WSJ                    Asia's Reckoning: A Weak Economy    6/17/98
                        Needs a Strong Currency
WSJ                    Asia's Reckoning: The Road Back     1/14/98
                        From Devaluation
WSJ                    Can the U.S. Weather Asia's Storm?  1/5/98
WSJ                    Floating Into Monetary Trouble      7/23/97
WSJ                    Whither the EMU?                    6/20/97
WSJ                    Currency Stability on the March     12/20/96
 
IMF/G7/Globalism
 
WSJ                    G20 Speed Dating in Los Cabos       6/20/12
WSJ                    Greece's False Austerity            5/23/12
WSJ                    G7 Meeting: Heads Up, Seven Up      2/21/03
WSJ                    A Radical Idea: The IMF Should      12/28/01
                        Promote Growth
WSJ                    The IMF Gets it Wrong Again         8/17/01
WSJ                    The G7's Missed Opportunity         2/23/99
WSJ                    Break the IMF Shackles              9/26/97
WSJ                    G7's Signal: Inflation Ahead        7/11/94
WSJ                    Successful Latin Economies Show     1/29/93
                        the Gain Before the Pain
WSJ                    Europeans Should Look West for      9/25/92
                        Advice on Sound Money
WSJ                    Does the IMF Deserve More Money?    10/18/89
 
Growth and Development
 
Testimony              Testimony to House Financial        5/17/16
                        Services on Slow Outlook
E21                    Encima Global Projects World GDP    11/12/14
                        Will Drop in 2015
NY Post                America's Ugly New Two-Tiered       9/15/14
                        Economy
Forbes                 Returns Set to Plunge               9/8/14
Forbes                 Five Steps to Faster Global Growth  2/10/14
WSJ                    How Big Government Drives           1/16/14
                        Inequality
WSJ                    The Economy Is Showing Signs of     7/23/13
                        Life
Bush Center            Circling the Cliff                  2/1/13
Bush Center            Don't Rely on Lame Ducks            2/1/13
WSJ                    Economic Signals Point to a 2013    9/29/12
                        Recession
Bush Center            Stimulus Means Slow Growth          8/3/12
Bush Center            Slow Growth, No Recession           7/26/12
WSJ                    The LIBOR Scandal's Threat to       7/11/12
                        Growth
Bush Center            Private-Sector Gloom                7/11/12
Bush Center            Jobs Need a Jolt                    6/8/12
Bush Center            Housing Contributes to Recovery     5/29/12
Bush Center            Getting to the Root of Stagnant     5/18/12
                        Wages
Bush Center            Greater Consumption/Lower           5/4/12
                        Investment Raise Doubts About
                        Future Growth
Bush Center            Household Survey Leads Upswing in   3/16/12
                        Job Growth
Bush Center            Personal Income: Show Me the Money  3/9/12
Bush Institute         Chapter 7 From ``4% Growth          3/1/12
                        Solution:'' Sound Money, Sound
                        Policy
WSJ                    America's Troubling Investment Gap  7/5/11
FoxNews.com            What Jobs Numbers Mean for America  6/3/11
WSJ                    The Panic, Round Two: What Would    5/26/10
                        Reagan Do?
WSJ                    The Euro's Greek Tragedy, and its   2/27/10
                        Lessons for America
Forbes                 Seriously Off Track                 11/30/09
Forbes                 Armageddon Averted--Or Was It?      9/7/09
WSJ                    Did the Fed Cause the Housing       3/27/09
                        Bubble? The Fed Provided the Fuel
National Review        Path to Recovery                    1/14/09
Forbes                 Reagan Redux--Ending America's      9/29/08
                        Malaise
Forbes                 Investing Post-Bush                 7/21/08
Forbes                 Credit Crisis Hits Home             4/21/08
Forbes                 A No-Lame-Duck Growth Agenda        1/28/08
Forbes                 Washington: Out of Tune With        11/26/07
                        Growth
Forbes                 How Hard a Landing?                 10/1/07
American Spectator     AEI: Running on Empty?              9/1/07
WSJ                    Don't Panic About the Credit        8/7/07
                        Market
WSJ                    Global Boom                         4/9/07
NY Sun                 Down Because it Was Up              2/28/07
Testimony              Senate Budget testimony on outlook  2/1/07
American Spectator     AEI: The Late Landing               11/20/06
National Review        Inflation Remains the Key Variable  6/30/06
WSJ                    Job, Jobs, Jobs                     4/6/06
National Review        An Expansion With Staying Power     2/10/06
National Review        Here We Go Again?                   12/6/05
WSJ                    Sailing Past Katrina                9/22/05
WSJ                    So This Is a Weak Economy?          6/28/05
American Spectator     It's About as Radical as IRAs:      4/1/05
                        Social Security Reform Should
                        Sell Itself
WSJ                    Running on Empty?                   3/28/05
WSJ                    Bush and Social Security Reform     1/14/05
WSJ                    Opposite of a Lame Duck?            1/14/05
WSJ                    We Grow, They Grow                  11/3/04
NY Sun                 Bush's Durable Market               8/23/04
WSJ                    Their Money, Our Strength           8/5/04
WSJ                    The ``I'' Word: Inflation           6/18/04
Forbes                 Trade Deficit? So What?             12/8/03
WSJ                    Bullish on America                  6/7/02
Testimony              Senate Banking testimony: Global    3/12/02
                        Outlook, Monetary, and Fiscal
                        Policy
Heritage Foundation    A New Agenda for America            12/28/01
 Report
Forbes                 Antidote to the Downgrade           9/26/01
WSJ                    Leadership Vacuum in International  4/21/99
                        Economics
Bloomberg Books        Chapter 3 From Flying on One        6/27/05
                        Engine: America's Optimistic
                        Future
 
Budget, Taxes and Debt Limit
 
Forbes                 The Republican Fiscal Divide        11/23/15
Forbes                 Government Wins Big--Country Needs  11/18/13
                        a New Debt Limit
WSJ                    The Bigger Battle Behind the        10/10/13
                        Shutdown
Testimony              Testimony to Joint Economic         9/18/13
                        Committee on Debt Limit
WSJ                    A Debt-Ceiling Strategy for the     8/30/13
                        GOP
WSJ                    The Obama Budget's Economic         4/11/13
                        Message
Testimony              Testimony to Senate Budget on       2/26/13
                        Impact of Federal Spending on
                        Growth
WSJ                    Nothing Is Certain Except More      1/2/13
                        Debt and Taxes
NY Sun                 Going Over Fiscal Cliff             12/31/12
Forbes                 Constitution Eroding: Need Rules    12/10/12
                        to Restrain Government
Bush Center            The Overbearing Rule Book is What   4/16/12
                        Blocks True Tax Reform
Forbes                 U.S. Needs a New Debt Limit         2/27/12
FoxNews.com            A Proper Debt Limit Would Cause     6/27/11
                        Pain in DC, Not Debt Default
NY Sun                 Republicans Could Lose the House    6/7/11
                        Over Debt Limit
WSJ                    A Smarter Debt Limit Strategy       6/1/11
Forbes                 Reflections on the Budget           2/28/11
WSJ                    After Obama's Budget, Republicans   2/16/11
                        Need a New Strategy
Washington Times       Truth/Dare: Rather Than Cut         2/1/11
                        Spending, Obama Bets on World
                        Overlending
Testimony              Testimony to Senate Budget          2/1/11
                        Committee on fiscal policy
Washington Times       Debt Limit Opportunities            1/17/11
Forbes                 The High Cost of the U.S. Budget    2/8/10
Forbes                 The Washington Tax Mess             7/23/07
Forbes                 Recession, Taxes, and Moral Hazard  4/16/07
WSJ                    Budget Strain                       2/27/07
Forbes                 The Triple Deficit Paralyzes        1/29/07
                        Policy Vision
WSJ                    Embrace the Deficit (and the        12/21/06
                        Capital Surplus That Goes With
                        it)
Cato                   Cato speech: The Growing Fiscal     11/16/06
                        Imbalance/Future of Monetary
                        Policy
Testimony              Senate Finance Testimony on         6/30/05
                        Extending Bush Tax Cuts
FT                     Don't Blame the Deficits for        5/4/04
                        America's Rate Hikes
Testimony              Senate Budget Committee testimony   1/29/03
                        on economic outlook
Testimony              Rules testimony on the budget       5/2/02
Testimony              JEC testimony on taxes              3/9/00
Testimony              Senate Budget testimony on          1/22/97
                        balanced budget amendment
 
Foreign Economies and Growth
 
Bush Center            Europe on the Brink                 9/25/12
Bush Center            Europe Kicks the Can                7/13/12
Bush Center            Europe's Worsening Fiscal Spiral    4/27/12
Bush Center            How to Avoid the Fate of Greece     3/1/12
WSJ                    How the EuroZone Can Restore        10/26/11
                        Confidence
Inter-American         Was the Time Right to Award Brazil  5/2/08
 Dialogue               Investment-Grade Status?
WSJ                    Japan's Monetary Policy: Hanging    7/21/06
                        Loose
WSJ                    Welcome Back, Japan                 3/14/06
ViewPoint Americas     Latin America Needs Sound Money to  12/9/03
                        Grow
Testimony              House Ways and Means testimony on   10/31/03
                        China
WSJ                    Brazil: Where's the Growth?         6/21/02
WSJ                    Investors Have a Question for       6/21/02
                        Brazil: Where's the Growth?
WSJ                    Argentina Markets Give Cavallo      3/23/01
                        Redux a Bad Review
WSJ                    South America Has Suffered From     10/6/00
                        White House Neglect
WSJ                    This Time Maybe Brazil Really Does  7/21/00
                        Have a Future
WSJ                    Wrong Battle for Europe             11/6/98
Testimony              Japan testimony to Senate Budget    4/28/98
                        Committee
WSJ                    The Mexican Peso: 3.5 or Bust       1/11/95
WSJ                    Zhu Rongji: The Man Who's Saving    7/29/93
                        China From Soviet-Style Disaster
U.S. Department of     Economic Reconstruction in Cuba     6/1/92
 State
 



16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

      Testimony to House Financial Services on slow growth outlook, 
May 17, 2016.

      Cato Conference ``Post Monetarism: Fed's Growth Options,'' 
November 12, 2015.

      Testimony to Joint Economic Committee: ``Need to Rewrite Debt 
Limit,'' September 18, 2013.

      Testimony to House Financial Services Committee on Fed policy, 
March 5, 2013.

      Testimony to Senate Budget Committee: ``Impact of Federal 
Spending on Growth,'' February 26, 2013.

      Cato Monetary Conference ``Fed Is Contractionary,'' November 15, 
2012.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     I bring extensive government and private-sector experience in the 
global financial system, central bank policy, exchange rate systems, 
country growth programs, and international finance. I have significant 
past experience in the IMF, the MDBs, trade negotiations, CFIUS, debt 
restructurings, and the legislative and budget processes. I believe 
this economic experience will help me be effective in working within 
the administration and with the Congress on important policy matters.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

    Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

    No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

    No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

    Yes.

                  C.  POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     None. During the course of the nomination process, I have engaged 
in detailed discussions with career team ethics staff and the Office of 
Government Ethics regarding potential issues arising out of my 
financial holdings, past income, and past employment relationships. 
These have been addressed in my ethics agreement. I am not aware of any 
other potential conflicts of interest.

 2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

    None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     As a columnist and economic analyst, I have been extensively 
involved in public policy debates regarding economic growth, tax 
reform, fiscal restraint, and policy reform. In addition to my regular 
media columns, this includes engagement through congressional 
testimony, numerous articles and speeches, and membership in policy-
focused organizations such as the Economic Club of New York and the 
Council on Foreign Relations. I have also regularly appeared as a 
policy commentator on various cable and network channels, including 
CNBC, Fox Business, Bloomberg News, and C-SPAN.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the committee with two copies of any trust or other 
agreements.)

     I have executed an ethics agreement following detailed discussions 
with career ethics staff in the Treasury Department and the Office of 
Government Ethics and will abide by the terms of such agreement. In 
addition, I am committed to following all applicable ethics laws. If I 
identify a potential conflict of interest, I will consult with ethics 
counsel.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

    No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

    No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     Yes. I was included as a party in a civil case regarding a rent 
dispute. Our former landlord sued my wife and me in 2004 for an extra 
year's rent after our departure from our former apartment on East 68th 
Street. In an order issued in 2008, the presiding judge found that we 
properly exercised the right to terminate the lease, dismissed the 
landlord's claims, and awarded us attorney's fees. On appeal, the 
dismissal of the landlord's claims was upheld, while the decision 
regarding attorney's fees was reversed.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

    No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

    None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

    Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

    Yes.

                                 ______
                                 
          Questions Submitted for the Record to David Malpass
               Question Submitted by Hon. Orrin G. Hatch
    Question. Mr. Malpass, I expect you to work closely with the U.S. 
Trade Representative to pursue high-standard trade agreements that 
enhance economic opportunities for American businesses and consumers. 
No sector--including financial services--should be excluded from our 
efforts.

    Do you agree that financial services play an essential role in 
facilitating trade and investment and therefore must not be excluded 
from market access expansions, regulatory cooperation initiatives, and 
protections for cross-border data flows?

    Answer. If confirmed, I look forward to working with the U.S. Trade 
Representative to pursue high-standard trade agreements. Financial 
services play a critical role in facilitating investment and other 
economic activity, and I understand that most trade agreements contain 
a financial services chapter with obligations that enable new market 
access opportunities for U.S. firms and work toward a level playing 
field. If I am confirmed, I will support the continued inclusion of 
financial services chapters, and will look for additional ways to 
enhance the effectiveness of this process.

                                 ______
                                 
                 Question Submitted by Hon. John Thune
    Question. The office of Treasury Under Secretary for International 
Affairs has significant responsibilities that intersect with other 
departments and agencies within the Federal Government, including the 
Departments of Commerce and State as well as the U.S. Trade 
Representative. How do you foresee coordinating your efforts with these 
other offices, in particular with respect to the President's trade 
agenda?

    Answer. If confirmed, I will work closely with other departments 
and agencies on the President's trade agenda. I look forward to 
coordinating our efforts, including following the related statutory 
requirements under U.S. trade law.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
                       real median income growth
    Question. Mr. Malpass, I was encouraged in our meeting to hear your 
views on a key priority you and I share, and in which I think many 
Democrats and Republicans can find common ground. And that's making 
sure economic growth is shared at all income levels.

    I believe under the current tax code we have a tale of two tax 
systems--a mandatory system that takes money out of workers' paychecks 
and a system that allows the most fortunate to pay what they want when 
they want.

    I believe tax reform should give everyone the chance to get ahead.

    I understand you have written articles about how it's not only 
important to grow the economy overall (GDP), but also to grow workers' 
paychecks.

    Please elaborate on your views on why that's important and how tax 
reform can best achieve the goals of growing the economy and achieving 
real benefits for the middle-class, including growth in real median 
incomes.

    Answer. Economists often measure success in terms of GDP growth 
rates and the change in per capita income. However, these measures 
aren't a clear indication of economic progress. I think a better 
measure of economic progress is after-tax real median income, meaning 
the inflation-adjusted income or wage of the middle of a society, after 
taxes and government-imposed fees are deducted.

    Your question focuses on tax policy, which can hold back real 
median income in at least two ways. First, as your question suggests, 
middle-income taxes are high and hard to avoid or reduce. One key goal 
of tax reform should be to lower the tax rate on middle-income 
taxpayers. Second, tax policy may be an obstacle to job growth--my view 
is that one of the best ways to increase real median income is through 
high business demand for middle- and lower-income jobs and the workers 
needed to fill them. Our current tax code creates several major 
obstacles to middle-income job creation including: (1) the high 
corporate income tax rate, which discourages investment and job 
creation in the United States; (2) the complexity of the tax code, 
costing billions of hours in compliance costs even for middle-income 
earners; and (3) the many tax barriers to the formation and growth of 
small businesses, which create many of the low- and middle-wage jobs 
that are critical to raising real median incomes.

    Question. In 2016, President Obama signed into law new disciplines 
and criteria for dealing with currency manipulation that were written 
by the Finance Committee.

    It also established the Advisory Committee on International 
Exchange Rate Policy, which is responsible for advising Treasury on the 
impact of international exchange rates and financial policies on the 
United States.

    But this committee has not been set up yet, despite the fact that 
Democrats have put forward their candidates for membership.

    If confirmed, will you work with me to stand up this committee?

    Answer. If confirmed, I look forward to working with you, the 
Finance Committee, and my colleagues in Treasury to meet the 
obligations created by the law and regulations related to this advisory 
committee.

    Question. Mr. Malpass, in 2006 you wrote an op-ed in The Wall 
Street Journal entitled ``Embrace the Deficit'' in which you argue that 
the U.S. trade deficit is actually a ``positive part'' of the U.S. 
growth outlook, and that the trade deficit's role as a political 
``lightning rod'' is not born out in reality. It is the position of 
this administration, and the President personally, that trade deficits 
are bad for the U.S. economy, and that it should be a primary goal of 
our trade policy to reduce that deficit. Given your views as expressed 
in the op-ed, do you agree with that position or would you advise the 
President to reconsider his approach?

    Answer. In theory, trade deficits can be the result of one country 
growing and investing faster than its trading partners, causing its 
imports to grow faster than its exports and allowing the country's 
annual investment to exceed its additions to savings. That was the 
argument made in the 2006 article. In practice, and especially in the 
last decade, trade agreements have come to play an increasing role in 
the development of exports, imports and investment flows. Well-crafted 
trade agreements should work in the U.S. interest by reducing trade 
barriers to U.S. exports and encouraging commerce, whereas some of the 
agreements have placed harmful burdens on commerce and biased the U.S. 
economy toward products and services made abroad. That has been a major 
problem for U.S. job growth within the last decade and can be addressed 
by improving the existing trade agreements and making sure that future 
trade negotiations are in the best interest of American workers and the 
United States.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. China and other countries like Japan have a long history 
of manipulating their currencies, hurting American workers and 
manufacturers. Some reports indicate as many as 5 million jobs, many of 
which are manufacturing jobs, have been lost due to currency 
manipulation and other unfair barriers and practices.

    How will you successfully deal with countries such as China and 
Japan that have a long history of manipulating their currencies?

    Answer. I place a very high priority on ensuring that American 
workers and companies face a level playing field when competing 
internationally. When our trading partners engage in currency 
manipulation, they impose significant, and often long-lasting, hardship 
on American workers and companies.

    If I am confirmed, I will be vigilant and be ready to combat 
currency manipulation and practices that facilitate currency weakness 
and unfair competitive advantage.

    Question. What tools would you use to stop our trading partners 
from subsidizing their exports and violating their agreements?

    Answer. The administration as a whole has several tools to stop 
improper foreign export subsidization, offset it, and enforce trade 
agreements. If confirmed, I will be an active participant in those 
efforts, and I am committed to ensuring that unfair currency practices 
are identified and addressed.

    Question. Will you support the inclusion of strong and enforceable 
currency provisions in future trade agreements?

    Answer. I am committed to ensuring that unfair currency practices 
are identified and combated. If confirmed, I will work with Congress to 
ensure that trade negotiations are consistent with congressional 
guidance on trade policy priorities and negotiating objectives, as 
outlined under Trade Promotion Authority, including those applicable to 
currencies.

    Question. Will you support including enforceable currency 
disciplines in a NAFTA renegotiation?

    Answer. If confirmed, I will work with my colleagues in the 
administration and with Congress to ensure that a NAFTA renegotiation 
is consistent with congressional guidance on trade policy priorities 
and negotiating objectives, as outlined under Trade Promotion 
Authority, including those applicable to currencies.

    Question. Do you believe the CFIUS process needs to be reformed to 
keep up with the increasing volume of purchasing activity we're seeing 
from Chinese SOEs?

    Answer. The Committee on Foreign Investment in the United States is 
tasked with reviewing foreign transactions in the United States and 
their national security implications. The growth in acquisitions of 
U.S. companies by state-owned enterprises (SOEs)--in particular, 
Chinese SOEs--raises a number of important issues that may have 
national security concerns.

    With respect to potential CFIUS reforms, it is important that we 
evaluate, given the changing national security environment, whether the 
government has, and is properly exercising, the appropriate tools to 
address any current and emerging national security risks. I understand 
that the Treasury Department is carefully considering whether any steps 
are necessary to further enhance CFIUS authorities and, if so, what 
steps would be most effective in addressing specific emerging national 
security risks. If confirmed, I am committed to supporting this 
initiative.

    Question. If yes, are you committed to working with members of 
Congress to reform and modernize the CFIUS process to ensure that all 
sectors of the economy are represented on the panel, including making 
USDA and HHS permanent members of CFIUS?

    Answer. If confirmed, I am committed to reviewing the current CFIUS 
process and working with members of Congress, as well as members of the 
administration, to address new challenges faced by CFIUS in a careful 
and deliberate manner. This would include making sure that relevant 
expertise across the government is brought to bear in an appropriate 
manner.

                                 ______
                                 
                Questions Submitted by Hon. Bill Nelson
    Question. What do you believe is the greatest challenge facing the 
G20?

    Answer. The G20 has an important role to play in encouraging 
policies that support strong and balanced global growth and a level 
playing field for U.S. workers and businesses at a time when global GDP 
growth has been disappointing and global imbalances have persisted.

    Question. How would you seek to overcome that challenge?

    Answer. As discussed in my statement to the committee, a key goal 
of fiscal and monetary policy development is to create higher living 
standards for working and middle-income citizens around the world. If 
confirmed, I will endeavor to fulfill my duties by working closely with 
this committee, and others in the Senate and House of Representatives 
in order to execute the law and develop sound administration policies 
and initiatives, including in the G20, which work toward broader 
prosperity.

    Question. What do you believe can be done to stop countries from 
manipulating their currency for a trade advantage?

    Answer. I place a very high priority on ensuring that American 
workers and companies face a level playing field when competing 
internationally. Though there has been a trend in the last 2 years 
toward reduced currency intervention by key trading partners, it is 
critical that we remain vigilant in monitoring and combating currency 
manipulation and practices that facilitate currency weakness and unfair 
competitive advantages. If confirmed, I will help to lead these 
efforts, and I am committed to ensuring that unfair currency practices 
are identified and addressed.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. Mr. Malpass, President Trump has affirmed that Secretary 
Mnuchin is the administration's point person with regard to the debt 
limit. Secretary Mnuchin has said in testimony before the House Ways 
and Means Committee that he wants Congress to pass a clean debt limit. 
I know you have published a large number of op-eds regarding the debt 
limit, and I want to know if you can commit to supporting the President 
and Treasury Secretary in your efforts to pass a clean debt limit 
increase?

    Answer. The administration has indicated that it is important to 
raise the debt ceiling as soon as possible. I am aware that Secretary 
Mnuchin has urged Congress to pass a clean debt ceiling increase prior 
to the August recess, and I fully support the President and Treasury 
Secretary in this matter. If confirmed, I commit to supporting their 
efforts.

    Question. I have been an outspoken critic of the dictatorship in 
Venezuela, and I have serious concerns about the country's intensifying 
humanitarian and financial crisis. The United States cannot stand idly 
by as Venezuelans continue to suffer under the Maduro regime's failed 
economic and social policies. I have called on the administration to 
sanction the brutal thugs who are profiting off of starving their own 
people.

    As such, I have real concerns about Venezuelan debt, the real 
possibility of default, and transactions specifically involving 
Venezuela's state-owned oil company, PdVSA. In particular, I raised to 
Secretary Mnuchin the issue of the potential for Rosneft, Russia's 
state-owned oil company, to acquire an ownership interest in critical 
energy infrastructure in the United States due to PdVSA's pledge of 
49.9 percent of Citgo shares to Rosneft as collateral for a loan.

    I was particularly alarmed to learn last week of Goldman Sachs' 
purchase of $2.8 billion in PdVSA bonds. I worry that this purchase 
ultimately serves to prop up the corrupt and brutal Maduro regime. I'd 
note that Goldman Sachs is certainly not the only U.S. financial firm 
that has made significant investments in Venezuelan debt.

    Are you concerned by U.S. financial firms' investments in 
Venezuelan debt, and that such investments extend a lifeline to the 
Maduro regime?

    Answer. I share your concerns about the humanitarian crisis, 
widespread repression, and systemic corruption in Venezuela. As 
Secretary Mnuchin has noted, the Venezuelan people are suffering from a 
collapsing economy brought about by their government's mismanagement 
and corruption.

    Reflecting these concerns, Treasury has imposed targeted sanctions 
against Venezuelan nationals, including government officials, who have 
engaged in activities such as human rights violations, undermining 
democratic governance, and narcotics trafficking.

    Although I am not familiar with the details of the transaction you 
mention or how much it benefitted the Maduro regime, my understanding 
is that the Venezuelan regime is making many efforts to sell debt, 
including to Americans, at high interest rates and large discounts, 
while American firms, such as those in the petroleum sector, may have 
royalty arrangements that convey benefits to the Venezuelan regime. 
These raise clear financial and reputational risks for private sector 
market participants.

    If confirmed, I look forward to working with Congress and 
colleagues in the administration to advance policies that protect U.S. 
interests and contribute to improving the situation in Venezuela.

    Question. Mr. Malpass, if confirmed, you will play an important 
role in implementing America's foreign policy priorities. One such 
priority, according to the President and an overwhelming bipartisan 
majority of the Congress, is the fight against human trafficking. 
Trafficking is a $150 billion a year crime with over 20 million victims 
around the world today. Specifically, as Under Secretary for 
International Affairs you will have the ability to exert influence on 
the multilateral development banks, to get them to leverage their 
projects in smart ways that prevent trafficking and encourage borrowing 
countries to increase their own efforts to fight trafficking.

    If confirmed, will you commit to working to leverage the United 
States' influence on the multilateral development banks to fight human 
trafficking?

    Answer. I share your concerns about human trafficking. The United 
States has substantial influence in the MDBs to advance our policy 
priorities, including the fight against the scourge of human 
trafficking. I understand that the Treasury Department has been 
implementing existing legislation that instructs the U.S. Executive 
Director, pursuant to a Presidential determination, to vote against MDB 
projects in trafficking countries. If confirmed, I would work to 
strengthen the impact of this mandate, further encourage the anti-
trafficking efforts of the MDBs and our international partners, and 
make progress in the fight against human trafficking.

    Question. Mr. Malpass, another area where you can have a profound 
impact on the fight against human trafficking is by working to ensure 
that international criminal networks don't have access to the financial 
system to perpetuate their crimes.

    Will you commit to working to limit human traffickers' access to 
the financial system?

    Answer. My understanding is that Treasury is committed to 
safeguarding the U.S. and international financial systems from all 
forms of illicit use, including by human traffickers. Treasury's Office 
of Foreign Assets Control (OFAC) and Financial Crimes Enforcement 
Network (FinCEN)--which are components of the Office of Terrorism and 
Financial Intelligence (TFI)--use an array of tools and authorities to 
deter and combat human trafficking. The financing of human trafficking 
often involves criminal networks located in different countries. 
Treasury has historically recognized the reliance of such criminals on 
the U.S. and international financial systems. If confirmed, I will 
support Treasury's efforts to limit their access to the financial 
system and disrupt their finances.

    Question. Mr. Malpass, I know that China hasn't been manipulating 
its currency over the past 6 months or so, but now that the 
administration has decided not to name China a currency manipulator, 
how do you plan to raise the costs of such behavior to ensure that they 
do not start manipulating again?

    Answer. I place a very high priority on ensuring that American 
workers and companies face a level playing field when competing 
internationally. When our trading partners engage in currency 
manipulation, they impose significant, and often long-lasting, hardship 
on American workers and companies.

    Though there has been a trend toward reduced currency intervention 
by key trading partners, it is critical that we remain vigilant. If 
confirmed, I will support efforts to scrutinize China's trade and 
currency practices very closely and commit to monitoring and combatting 
currency manipulation and practices that facilitate currency weakness 
and unfair competitive advantages.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. When asked about the U.S.'s role in international 
financial regulatory bodies, Secretary Lew said that he is ``proud that 
the United States is a leader, that we have taken decisive action, the 
most decisive action of any country in the world after the deep 
recession and economic crisis of 2008 and 2009'' and that ``we should 
make a call to the world community in the appropriate fora, like the 
G20 and the FSB to try and drive that race to the top.'' Will you 
commit to me that the U.S. Treasury Department (including FSOC and FIO) 
will continue to advocate for higher standards of financial regulation 
in all international bodies, including the G20, the FSB, the Basel 
Committee, the IAIS, and IOSCO, and that we will not acquiesce to any 
efforts to roll back the reforms that have already been agreed to?

    Answer. One of President Trump's Core Principles for Financial 
Regulation is to advance American interests in international financial 
regulatory negotiations and meetings. The international standard 
setting process is one of the key ways that the administration and U.S. 
regulators can promote financial stability that benefits the U.S. and 
global economy as well as a level playing field that benefits U.S. 
firms. Like the FSOC, the international bodies are also monitoring 
implementation of regulatory reform, adjusting standards that may have 
unintended and undesirable consequences, and remaining vigilant for new 
or emerging vulnerabilities.

    Question. If confirmed, one issue you will need to address is the 
U.S./EU Covered Agreement. Some have suggested that the agreement is 
clear on its face, while others believe that, before the United States 
signs the agreement, the United States and EU must clarify certain 
issues through an exchange of letters. What is your view of the covered 
agreement, including whether it achieves the stated objectives of U.S. 
negotiators when they notified Congress of their intent to enter into 
these negotiations back in November of 2015 or needs further 
clarification?

    Answer. This is an important and complicated issue. I understand 
that Secretary Mnuchin has asked Treasury staff to meet with a number 
of stakeholders on the covered agreement to hear their perspectives. If 
confirmed, I will give utmost consideration to the issues you raise. I 
look forward to discussing the covered agreement and the various views 
with Treasury staff, and providing appropriate communication with the 
committee.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. Mr. Malpass, I am deeply concerned about some recent 
statements that imply that failing to increase the debt limit by the 
time extraordinary measures are exhausted and cash balances are down to 
critically low levels would not be a catastrophic mistake. I appreciate 
Secretary Mnuchin's expressions that the debt limit needs to be raised 
without delay and without unrelated policy conditions. I was heartened 
to see reporting that suggests President Trump agrees.

    Mr. Malpass, do you believe that all of the obligations of the 
United States should always be paid on time and in full, as we have 
done throughout our history?

    Answer. I believe the government must meet all of its outstanding 
obligations, and for this reason I understand that Congress has always 
acted to raise the debt limit when necessary.

    Question. Mr. Malpass, do you believe that the debt limit should be 
raised well in advance of any deadline and that it should not be held 
hostage to unrelated policy demands?

    Answer. I believe it is important for Congress to raise the debt 
ceiling as soon as possible.

    Question. Mr. Malpass, do you believe that prioritization of 
interest payments over the government's other obligations is either an 
advisable or workable solution if the debt limit is not raised by the 
time extraordinary measures and cash balances have run out?

    Answer. I am confident that Congress will act on the debt limit in 
a timely manner to ensure the full faith and credit of the United 
States Government and to enable us to avoid confronting the situation 
raised in your question.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. Mr. Malpass, the Committee on Foreign Investment in the 
United States was established to review transactions that could result 
in a U.S. business being controlled by a foreigner, in order to 
determine the impact of these transactions on national security. Given 
the sensitivity of these investigations, only affirmative 
determinations, those that present national security risks, are made 
public. The President has the discretion to not exercise his authority 
to stop a transaction, even if CFIUS makes a determination that a 
transaction presents a national security risk.

    With respect to CFIUS investigations, do you have (or intend to 
establish) a process to review internal conflicts of interest?

    If so, please describe that process.

    Will you require members of the administration, including members 
of the Cabinet, with an implicit or explicit interest in the 
transaction to recuse themselves?

    Will you establish protocols to determine whether any member of the 
administration, including the President or the Treasury Secretary, has 
an interest in the business under review or a financial interest in the 
home country of the acquiring entity?

    If a conflict is found, will you advise such individuals recuse 
themselves from CFIUS proceedings?

    How would you respond if you received a request from the President 
or a member of the administration that Treasury either initiate a CFIUS 
investigation, requesting Treasury drop an ongoing CFIUS investigation, 
or requesting Treasury to not commence a CFIUS investigation?

    Answer. I understand that Treasury already has in place a robust 
process for assessing and handling conflicts of interest in the 
Treasury's CFIUS process. Each department and office that participates 
in CFIUS is responsible for handling the conflicts of interest of its 
staff in accordance with law and agency ethics policies. I understand 
that these policies provide standards and guidelines for recusal. If 
confirmed, I will work to ensure that all applicable laws and conflicts 
of interest policies are appropriately applied to Treasury staff, 
including those related to recusal and to the appropriate functioning 
of CFIUS.

                                 ______
                                 
              Questions Submitted by Hon. Claire McCaskill
    Question. What procedures and policies should CFIUS implement to 
ensure the independence of initial CFIUS deliberations and 
investigations involving the Trump Organization, Kushner Companies, or 
related entities, including any determination by CFIUS regarding 
whether to make a referral or recommendation for presidential action?

    Answer. Adherence to the conflicts of interest statutes and 
regulations is important. As I understand it, Treasury takes 
appropriate steps to facilitate ethics compliance by Treasury employees 
participating in the CFIUS process and to protect the integrity of 
Treasury's participation. Other CFIUS member agencies are expected to 
do the same. If confirmed, I will do my utmost to ensure that I, and 
all personnel under my supervision, comply with our ethical 
obligations.

    Question. Are there circumstances under which President Trump 
should delegate to another executive branch official his authority 
under 50 U.S.C. App. Sec. 2170(d) to make a final determination on 
CFIUS referrals or recommendations?

    Answer. This question addresses a matter for consideration by the 
White House.

    Question. If President Trump declines to delegate his decision-
making authority in the circumstances described above, what ethical or 
legal guidance should CFIUS recommend he seek before making a final 
determination on transactions involving the Trump Organization, Kushner 
Companies, or related entities?

    Answer. This question addresses a matter for consideration by the 
Treasury General Counsel's office and/or other relevant Federal 
departments or agencies.

    Question. What procedures and policies should CFIUS implement to 
ensure that senior administration officials with potential conflicts of 
interest, such as Mr. Kushner, play no role in initial CFIUS 
deliberations and investigations, as well as any final determinations 
on CFIUS referrals or recommendations, involving the Trump 
Organization, Kushner Companies, or related entities?

    Answer. If confirmed, I will do my utmost to ensure that I, and all 
personnel under my supervision, comply with our ethical obligations, 
and I would expect other CFIUS member agencies to do the same.

    Question. Would it ever be appropriate for CFIUS to block a 
transaction for reasons of economic policy, as opposed to national 
security concerns? In general, how will your office insulate CFIUS from 
pressure to make particular decisions as a way to bolster the 
administration's economic policy or trade agenda?

    Answer. The CFIUS statute authorizes the President to block a 
covered transaction when that transaction ``threatens to impair the 
national security of the United States.'' If confirmed, I will advise 
CFIUS consistent with its statutory authorities and restrictions.

                                 ______
                                 
      Prepared Statement of Brent James McIntosh, Nominated to be 
              General Counsel, Department of the Treasury
    Chairman Hatch, Senator Wyden, and members of the committee, thank 
you for the opportunity to appear before you today. I am honored to be 
the President's nominee to be General Counsel for the Department of the 
Treasury, and I am grateful to the Secretary for his confidence in 
recommending me for this position.

    Since being nominated, I have had the opportunity to meet with 
several of you and your staffs, and I appreciate the courtesies you 
afforded me in hosting those meetings. From my prior Federal service, I 
am acutely aware of the need for a close working relationship with the 
Congress, and I look forward to working with you and your staffs to 
foster such a relationship should I be confirmed.

    The challenges that the Treasury confronts, and the 
responsibilities of its chief legal officer in helping to navigate 
them, are daunting in both breadth and complexity. In the past two 
decades, I have twice watched the Treasury--including in particular the 
General Counsel's office--grapple with pressing, emergent issues of 
grave global consequence.

    Having been in Manhattan's Financial District on September 11, 
2001, I saw firsthand the horrors that terrorism wreaked that day. In 
the years following, I watched with deep gratitude the heroic work of 
Treasury personnel to bring to bear powerful financial tools to thwart 
those who would do us harm. And while serving on the White House staff 
from 2006 to 2009, I watched the tireless work of Treasury personnel to 
address urgent issues in the American economy. In both cases, the 
Treasury's dedicated, experienced, and immensely talented legal staff 
was central to the Department's efforts. It has long been apparent to 
me that it would be the honor of a lifetime to work among and lead that 
staff.

    One prior Treasury General Counsel said at his confirmation hearing 
that ``the legal issues facing the Treasury today are among the most 
critical in government.'' That statement has often been true, and I 
believe it is true today. Treasury has a crucial role to play in 
safeguarding the dynamism of the U.S. economy, in ensuring a fair and 
effective tax system, in advancing this Nation's interests in the 
world, and in bolstering our national security.

    I pledge that if confirmed, I will bring to my share of these tasks 
a commitment to rigorous legal analysis, zeal in the pursuit of the 
interests of the American people, and steadfast dedication to upholding 
the rule of law. I would strive to bring an unstinting devotion to duty 
inspired by the work ethic of my parents, both raised on farms in the 
Thumb of Michigan. I would be guided at all times by the obligation of 
fidelity to the Constitution. And I would keep ever in mind the 
fundamental truth, articulated by a mentor of mine, that the demands of 
honor have special application to government service.

    Thank you again for the opportunity to appear today. I look forward 
to your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Brent James Mcintosh.

 2.  Position to which nominated: General Counsel, U.S. Department of 
the Treasury.

 3.  Date of nomination: April 24, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: September 28, 1973, Lansing, Michigan.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

    Yale Law School (1996-1999), Juris Doctor, May 1999.

    University of Michigan (1992-1996), Bachelor of Arts, May 1996.

    London School of Economics (1994-1995).

    Williamston High School (1988-1992), diploma, June 1992.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     Partner, Sullivan and Cromwell LLP, Washington, DC (2011-present).

     Special counsel, Sullivan and Cromwell LLP, Washington, DC (2009-
2010).

     Deputy Assistant to the President and Deputy Staff Secretary, The 
White House, Washington, DC (2007-2009).

     Associate Counsel to the President, The White House, Washington, 
DC (2006-2007).

     Deputy Assistant Attorney General, Office of Legal Policy, U.S. 
Department of Justice, Washington, DC (2005-2006).

     Counselor to the Assistant Attorney General, Office of Legal 
Policy, U.S. 
Department of Justice, Washington, DC (2005).

     Senior Counsel, Office of Legal Policy, U.S. Department of 
Justice, Washington, DC (2005).

     Counsel, Office of Legal Policy, U.S. Department of Justice, 
Washington, DC (2004-2005).

     Associate, Sullivan and Cromwell LLP, New York, New York (2001-
2004).

     Law clerk, Honorable Laurence H. Silberman, U.S. Court of Appeals 
for the District of Columbia Circuit, Washington, DC (2000-2001).

     Law clerk, Honorable Dennis Jacobs, U.S. Court of Appeals for the 
Second Circuit, New York, New York (1999-2000).

     Summer law clerk, Kirkland and Ellis, Washington, DC (1999).

     Research assistant, Professor William Eskridge, Jr., Yale Law 
School (1998-1999).

     Summer associate, Davis, Polk, and Wardwell, New York, New York 
and London, England (1998).

     Research assistant, Professor Henry B. Hansmann, Yale Law School 
(1997-1998).

     Legal intern, Special Prosecutions Group, U.S. Attorney's Office 
for the Eastern District of New York, Brooklyn, New York (1997).

     Administrative assistant, Alumni Association of the University of 
Michigan, Ann Arbor, Michigan (1996).

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above): Romney-Ryan Readiness Team 
(pre-election presidential transition team) (2012).

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution): Partner, 
Sullivan and Cromwell LLP (2011-present).

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     To the best of my recollection, I am or have been a member of, or 
hold or have held another position with, the following organizations 
since graduating from law school:

       Ahn Family Foundation, Grants Committee (2001-2016).

       Alexander Hamilton Society (2010-present), Co-chair, DC Chapter 
(2012-present), DC Chapter Steering Committee (2010-2012).

       Alumni and Friends of the London School of Economics, Life 
Member (2000-present).

       Alumni Association of the University of Michigan, Life Member 
(2000-present).

       American Bar Association (2001-2006, 2009-present).

       American Society of International Law (2001-2005, 2009-present).

       Association of the Bar of the City of New York (2001-2005), Pro 
Bono Society (2002, 2003).

       Bannockburn Swim Club (neighborhood pool) (2005-2011).

       Bretton Woods Committee (2015-present).

       Chevy Chase Club (summer 2016).

       Council on Foreign Relations (2005-2011).

       Entomological Society of America (2011-2012).

       Federalist Society (1997-present), International and National 
Security Law Practice Group Executive Committee (2010-present).

       Heritage Foundation/Chertoff Group National Security Law Working 
Group (2014-present).

       International Bar Association (2015-present).

       International Institute for Strategic Studies (2009-present).

       John Hay Initiative, International Law Working Group (2015-
present).

       The Links (2017-present).

       Metropolitan Club of the City of Washington (2008-present).

       Montgomery County Recreation, Youth Basketball Coach (2016-
2017).

       Republican National Lawyers Association (2013-present).

       St. Columba's Episcopal Church, Gratitude and Resources 
Strategic Initiative Team (2016), Lay Reader (2016-present).

       Supreme Court Historical Society (2011-present).

       U.S. Chamber Litigation Center, U.S. Chamber of Commerce, 
Financial Services Advisory Committee (2015-present).

       Yale Club of New York City (2009-present).

       Yale Law School Association, Executive Committee (2012-2015), 
Nominating Committee (2015).

       Yale Law School Class of 1999, Class Secretary (2013-present).

       Yale Law School Reunion Gift Campaign, Co-chair (2003-2004), 
Class Committee (2013-2014).

    Bar admissions:

       State of New York (admitted 2001).

       District of Columbia (admitted 2009).

       Supreme Court of the United States (admitted 2005).

       U.S. Court of Appeals for the District of Columbia Circuit 
(admitted 2010).

       U.S. Court of Appeals for the Second Circuit (admitted 2010).

       U.S. Court of Appeals for the Third Circuit (admitted 2015).

       U.S. Court of Appeals for the Fourth Circuit (admitted 2001).

       U.S. Court of Appeals for the Fifth Circuit (admitted 2016).

       U.S. Court of Appeals for the Ninth Circuit (admitted 2006).

       U.S. District Court for the District of Columbia (admitted 
2010).

       U.S. District Court for the Eastern District of New York 
(admitted 2002).

       U.S. District Court for the Southern District of New York 
(admitted 2002).

       U.S. District Court for the Southern District of Texas (admitted 
2003).

       U.S. Court of Federal Claims (admitted 2009).

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       Romney Justice Advisory Committee (2011-2012).

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.


------------------------------------------------------------------------
                  Recipient                       Date         Amount
------------------------------------------------------------------------
John Adams for Virginia                         6/08/2016       $803.46
------------------------------------------------------------------------
Matthew Berry for Congress                     11/18/2009       $250.00
------------------------------------------------------------------------
George P. Bush Land Commissioner campaign       1/04/2013       $250.00
------------------------------------------------------------------------
Jeb 2016 (Jeb Bush)                            10/05/2015     $2,700.00
------------------------------------------------------------------------
Capito for West Virginia (Shelley Moore         4/24/2013       $500.00
 Capito)                                        7/22/2014     $1,000.00
------------------------------------------------------------------------
Cotton for Senate (Thomas Cotton)              10/24/2013       $250.00
------------------------------------------------------------------------
Mike Crapo for U.S. Senate                      8/06/2016     $1,000.00
------------------------------------------------------------------------
Ted Cruz for Senate                             6/30/2011       $300.00
------------------------------------------------------------------------
Robert L. Ehrlich, Jr. gubernatorial            7/28/2010       $250.00
 campaign
------------------------------------------------------------------------
Foley for Connecticut (Thomas C. Foley)         4/22/2014       $100.00
------------------------------------------------------------------------
Freedom First PAC                               7/29/2010       $250.00
------------------------------------------------------------------------
Ed Gillespie for Governor                       1/23/2017     $2,000.00
------------------------------------------------------------------------
Ed Gillespie for Senate                         3/06/2014     $2,600.00
                                                7/17/2014       $500.00
                                                9/25/2014     $1,000.00
------------------------------------------------------------------------
Adam Laxalt Attorney General campaign           5/14/2014       $250.00
------------------------------------------------------------------------
Friends of Mike Lee                             6/19/2015     $1,000.00
------------------------------------------------------------------------
Josh Mandel Senate Victory Committee            9/21/2012       $300.00
------------------------------------------------------------------------
John McCain 2008                                5/03/2008       $400.00
------------------------------------------------------------------------
McCain-Palin Victory 2008                      10/17/2008       $250.00
------------------------------------------------------------------------
Justice for All                                10/04/2013       $300.00
------------------------------------------------------------------------
NRCC                                            7/19/2010       $250.00
------------------------------------------------------------------------
NRSC/NRCC Victory Committee                    11/13/2013       $250.00
------------------------------------------------------------------------
Portman for Senate Committee (Rob Portman)      6/16/2009       $250.00
                                                8/15/2010       $250.00
                                                5/14/2015     $1,500.00
                                                9/27/2016       $500.00
------------------------------------------------------------------------
David A. Pepper mayoral campaign                6/01/2009       $250.00
                                                9/29/2010       $150.00
------------------------------------------------------------------------
Prosperity Action                               6/30/2011     $1,000.00
------------------------------------------------------------------------
Romney for President (Mitt Romney)              5/09/2011     $1,000.00
                                                1/31/2012     $1,500.00
------------------------------------------------------------------------
Romney Victory                                  5/24/2012     $2,500.00
------------------------------------------------------------------------
Ben Sasse for U.S. Senate                       9/16/2013     $1,000.00
                                                3/31/2014     $1,000.00
                                               11/28/2016     $1,000.00
------------------------------------------------------------------------
Shelby for U.S. Senate (Richard C. Shelby)     10/13/2015     $1,000.00
------------------------------------------------------------------------
Elise for Congress (Elise M. Stefanik)         11/21/2013       $250.00
                                                9/21/2016       $500.00
------------------------------------------------------------------------
Sullivan for U.S. Senate (Dan Sullivan)        10/28/2013       $250.00
------------------------------------------------------------------------


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     Alvin and Arvella Bentley Scholar (University of Michigan).

     Distinguished Alumni Award (Williamston High School).

     Distinguished Legal Writing Award 2016, Burton Awards for Legal 
Achievement.

     Horace Rackham Scholar (University of Michigan).

     James B. Angell Scholar (University of Michigan).

     National Merit Scholar.

     New York Law Journal 2013 ``Rising Star.''

     Phi Beta Kappa (University of Michigan).

     Pi Sigma Alpha political science honor society (University of 
Michigan).

     Presidential Scholar (U.S. Department of Education).

     U.S. Department of State Superior Honor Award (group award).

     Yale Law Journal, Articles Editor (Yale Law School).

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

     ``City Fair Housing Suits May Have Unfortunate Consequences,'' 
Law360 (November 15, 2016).

     ``D.C. Circuit Invalidates CFPB Structure as Unconstitutional; 
Rejects `Flawed' Statutory Application in Enforcement Proceeding,'' 
Columbia Law School Blue Sky Blog (October 20, 2016) (with Steven Meyer 
et al.).

     ``A Guide to the Cybersecurity Act of 2015,'' Law360 (January 12, 
2016) (with John Evangelakos et al.).

     ``The Cybersecurity Act of 2015,'' Columbia Law School Blue Sky 
Blog (January 6, 2016) (with John Evangelakos et al.).

     ``SEC Enforcement: SEC Issues Guidance on Approach to Forum 
Selection in Contested Actions,'' Columbia Law School Blue Sky Blog 
(June 15, 2015) (with Nicolas Bourtin et al.).

     ``How Cybercriminals are Targeting Corporate Transactions,'' 
Law360 (May 19, 2015) (with Judson Littleton).

     ``President Obama Issues Executive Order Authorizing Sanctions for 
Malicious Cyber Activities,'' Columbia Law School Blue Sky Blog (April 
17, 2015) (with Erle Kadel, Jr.).

     ``The FBI Followed You: Why Twitter's Surveillance-Disclosure 
Lawsuit Puts U.S. Intel Agencies in a Quandary,'' Law.com (April 16, 
2015).

     ``Perez v. Mortgage Bankers Association,'' Harvard Law School 
Forum on Corporate Governance and Financial Regulation (March 29, 2015) 
(with Jeffrey Wall et al.).

     ``Supreme Court Clarifies Liability for Opinions in Registration 
Statement,'' Harvard Law School Forum on Corporate Governance and 
Financial Regulation (March 28, 2015) (with Robert Giuffra, Jr. et 
al.).

     ``An Emblem of a Deeper Pathology in the Criminal Code: Thoughts 
on the Supreme Court's Ruling That, Sometimes, Fish Aren't Tangible 
Objects,'' Law.com (March 4, 2015).

     ``Judicial Review of SEC Consent Judgments,'' 47, Review of 
Securities and Commodities Regulation 275 (December 3, 2014).

     ``Second Circuit Adopts Bright-Line Rule for Determining Customer 
Status for Mandatory FINRA Arbitration,'' Business Law Today (September 
2014) (with Robert Giuffra, Jr. et al.).

     ``As End of Supreme Court Term Looms, High-Profile Business 
Disputes Remain,'' Law.com (May 24, 2014).

     ``Patriot Act Protects U.S.,'' Lansing State Journal (March 19, 
2006).

     ``The Revolutionary Second Amendment,'' 51, Alabama Law Review 673 
(2000).

     As a student journalist in college (1993-1996), numerous articles 
in the Lansing State Journal, the Michigan Daily (University of 
Michigan student newspaper), and the Alumnus (University of Michigan 
alumni magazine), primarily regarding University of Michigan and mid-
Michigan sports.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

    None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     I believe my experience as a lawyer representing clients in 
complex disputes and my prior service in the executive and judicial 
branches has prepared me for the responsibilities I would undertake, if 
confirmed, as General Counsel of the Department of the Treasury. Both 
in government and in private practice, my practice has focused on the 
resolution of difficult, often novel legal disputes, providing me 
experience with analysis of complicated legal problems, advocacy in the 
service of my clients, counseling and negotiation, and various forms of 
dispute resolution. Much of my practice at Sullivan and Cromwell has 
centered on the financial services industry, affording me familiarity 
with many issues relevant to the work of the Department of the 
Treasury. While in government at the White House and the Department of 
Justice, I worked with a wide variety of agencies across the executive 
branch as well as with a number of congressional committees. My time in 
government also gave me the opportunity to work on various national 
security matters, which should serve me well in addressing the national 
security matters in which the Department of the Treasury is involved. 
Finally, both in government and in private practice, I have managed 
large teams of professionals.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     If confirmed by the Senate, I will sever all such connections. 
Note that pursuant to the Sullivan and Cromwell LLP defined benefit 
plans for partners, I am eligible to receive monthly lifetime 
retirement payments from the firm commencing at age 65. If confirmed by 
the Senate, I will remain a participant in these defined benefit plans 
but will not be entitled to benefits prior to that age (approximately 
22 years from now) and will not accrue additional benefits under these 
plans after I resign from the firm.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

     No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

     Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     Any potential conflicts of interest have been identified and 
resolved in accordance with the terms and conditions of my ethics 
agreement with the Department of the Treasury, which is documented by 
letter to Rochelle F. Granat, Designated Agency Ethics Official and 
Assistant General Counsel for General Law and Ethics. Should any 
potential conflict of interest arise in the future, I will seek 
guidance from a Treasury ethics official.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     Any potential conflicts of interest have been identified and 
resolved in accordance with the terms and conditions of my ethics 
agreement with the Department of the Treasury, which is documented by 
letter to Rochelle F. Granat, Designated Agency Ethics Official and 
Assistant General Counsel for General Law and Ethics. Should any 
potential conflict of interest arise in the future, I will seek 
guidance from a Treasury ethics official.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

    None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the committee with two copies of any trust or other 
agreements.)

     Any potential conflicts of interest have been identified and 
resolved in accordance with the terms and conditions of my ethics 
agreement with the Department of the Treasury, which is documented by 
letter to Rochelle F. Granat, Designated Agency Ethics Official and 
Assistant General Counsel for General Law and Ethics. Should any 
potential conflict of interest arise in the future, I will seek 
guidance from a Treasury ethics official.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

     No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

     In 1994, when I was a sophomore at the University of Michigan, I 
was charged with one misdemeanor count of ``Receiving stolen property--
$100 or less.'' The charge was subsequently dropped.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

     No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

     Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

     Yes.

                                 ______
                                 
       Questions Submitted for the Record to Brent James McIntosh
               Question Submitted by Hon. Orrin G. Hatch
    Question. Current law provides a production tax credit (PTC) for 
refined coal facilities placed in service before 2012. The PTC applies 
to refined coal produced in the 10-year period after the facility was 
placed in service. Refined coal is a fuel produced from coal that, when 
used in the production of steam, results in a significant reduction in 
the emissions of nitrogen oxide and either sulfur dioxide or mercury 
when compared to emissions from the use of the feedstock coal.

    The IRS Chief Counsel recently issued a Technical Advice Memorandum 
(TAM) that concludes that in order to qualify for the resulting PTC, 
the activity engaged in by the taxpayer must meet certain economic and/
or commercial risk transfer goals. This has caused some concern among 
facilities producing refined coal.

    I understand that the IRS Chief Counsel might consider considering 
establishing guidance for permissible investment structures to 
facilitate the production of refined coal. If that is indeed the case, 
you may want to review the status of those efforts and organize 
additional activities to ensure that legitimate industry concerns are 
considered. Additionally, facilities qualified for the refined coal PTC 
are now at least 6 years (some have been producing for 8 years) into 
their 10-year life. You may want to consider ways to ensure that the 
intended tax benefits are realized before too much more of the 
remaining 10-year production cycle runs out.

    Answer. I can commit to work with the IRS Chief Counsel and consult 
further with your staff on this issue, if confirmed.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. Mr. McIntosh, while no one questions that we need to get 
our long-term deficits under control, we shouldn't risk the full faith 
and credit of the United States to address the debt limit, a key 
function of the Treasury Department. Raising the debt limit is a 
necessary response to past spending and revenue decisions, allowing the 
Federal Government to borrow what it needs to honor existing laws and 
commitments.

    The United States has the best credit in the world because 
investors believe the government will always honor those commitments. 
If it ever fails to do so, it may be impossible to restore the faith of 
investors.

    Republican ``debt prioritization'' proposals would have Treasury 
pay interest payments to China and pay Social Security benefits, while 
defaulting on military salaries, benefits to veterans and seniors on 
Medicare, and payments to defense contractors. The Federal Government 
makes 80 million payments each month, all of which were previously 
authorized by Congress.

    As former Treasury Secretary Lew has attested, debt prioritization 
is not a viable back-up plan for Treasury if Congress fails to raise 
the debt limit--there is just no such thing as ``managed default.'' 
Default is default and global credit markets will recognize it.

    Mr. McIntosh, as Treasury General Counsel, will you advise 
Secretary Mnuchin and members of Congress that all Federal debts must 
be honored, or, that Treasury can pay some debts while defaulting on 
others?

    Answer. I share Secretary Mnuchin's publicly stated view that the 
government should meet all of its outstanding obligations and that 
Congress should act to raise the debt limit as soon as possible.

    Question. Mr. McIntosh, as Chairman of the Committee on Foreign 
Investment in the United States, the Secretary is responsible for 
evaluating the national security implications of specific foreign 
investments and recommending whether to modify or reject them. During 
your meeting with staff you indicated you would not object to the 
Secretary meeting with the White House regarding a specific transaction 
under consideration by CFIUS and that the President's views should be 
given ``great weight.'' You also said that you would ``probe the 
position'' if you thought a financial interest was motivating the 
recommendation, but that, as you put it, ``there is very little you can 
do about being lied to.''

    I appreciate your honest engagement with staff on these difficult 
questions.

    On your last point, regarding what might be done to mitigate the 
risk that financial interests of White House officials would improperly 
influence the Secretary's decisions in a CFIUS matter, do you agree 
that it may be useful for you to have additional information regarding 
the particular financial interests of those officials in order to 
advise the Secretary on White House involvement in a CFIUS matter?

    Answer. I do not believe the statements attributed to me in this 
question accurately reflect my position as to the functioning of the 
CFIUS process. So as to put my answer to this question in proper 
context, I will first explain my view of that process.

    First, CFIUS's mandatory members are drawn from a wide variety of 
agencies, and all CFIUS members are obliged by law to evaluate a 
covered transaction impartially to determine the effects of the 
transaction on the national security of the United States according to 
the applicable statutory factors, not based on non-
statutory criteria such as any particular individual's pecuniary 
interest.

    Second, it is my understanding that in the statute mandating 
reviews of covered transactions, Congress specified that such reviews 
are to be conducted by ``the President, acting through the Committee''; 
that pursuant to a longstanding executive order followed by Presidents 
of both parties, two components of the Executive Office of the 
President--the Office of Science and Technology Policy and the U.S. 
Trade Representative--are full members of the committee; that under the 
same order, other White House components--including the National 
Security Council and National Economic Council staffs--may serve as 
observers of and participants in CFIUS reviews, as appropriate; and 
that in the CFIUS statute, Congress provided that the final decision to 
suspend or prohibit a covered transaction that threatens to impair the 
national security of the United States is made by the President. 
Notwithstanding those facts, it is my understanding that the vast 
majority of the CFIUS process is handled by portions of the executive 
branch other than the White House. My responses to your staff's 
questions were intended to describe the CFIUS process and the statutory 
allocation of authorities in that process as they exist and have been 
executed by Presidents of both parties, not to suggest some desire to 
change existing practice.

    Third, all participants in the CFIUS process are obligated to carry 
out their CFIUS responsibilities in adherence to the ethical duties 
that apply to them.

    Fourth, top executive branch personnel, including White House 
staff, are required by law to file periodic reports disclosing their 
financial interests, and those reports are publicly available.

    In summary, the CFIUS process has certain built-in safeguards for 
the integrity of that process. The diversity of views and viewpoints 
represented on CFIUS, the consideration of specified statutory factors, 
the ethical obligations incumbent on all participants, and the 
mandatory financial disclosures required of executive branch employees 
all serve to guard against inappropriate interference in the CFIUS 
process. With regard to your question about whether CFIUS should 
receive additional information beyond the information currently 
provided, I understand that CFIUS already has broad authority to 
request information from the parties to a covered transaction during a 
review or investigation of a transaction. Because I am not currently 
serving at the Treasury Department or involved in the CFIUS process, I 
do not have a view, or the information necessary to formulate a well-
informed view, as to whether the information available to CFIUS is 
sufficient to inform it fully of all relevant considerations.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. Pensions are a key lifeline for many Michigan families--
and an earned benefit based on a lifetime of hard work. About 47,000 
workers and retirees in my State have been paying into the Central 
States Pension Fund, which is in serious trouble and in desperate need 
of a workable solution. I recently led a letter along with 13 of my 
colleagues, to Secretary Mnuchin and the other members of the PBGC 
board asking about what the administration proposes to protect the 
hard-earned pension benefits of American workers and retirees. 
Obviously, any proposal has to be enacted into law by Congress, but the 
administration is in a position to lead on this issue.

    To the extent that you are involved in this issue at Treasury, do 
you commit to making the protection of workers' pension benefits a top 
priority?

    Answer. I appreciated the opportunity to discuss this important 
issue with you in your office. As you know, the Treasury is required by 
statute to implement the Multiemployer Pension Reform Act of 2014 
(MPRA). MPRA allows the sponsors of severely underfunded multiemployer 
pension plans to apply to Treasury for permission to reduce the 
retirement benefits of participants to avoid insolvency that could 
trigger even deeper cuts. To protect beneficiaries, the statute 
requires applicants to demonstrate, among other things, that any 
proposed suspension of benefits will meet but not materially exceed the 
level required to avoid insolvency. If the application satisfies all 
applicable legal requirements, Treasury is required by law to approve 
the application. Although the office responsible for reviewing 
applications under MPRA is not within the Office of the General 
Counsel, it is my understanding that Treasury is committed to carefully 
and thoughtfully complying with all legal requirements when deciding 
whether to approve MPRA applications. If confirmed, I look forward to 
assisting tax policy and other retirement policy experts at the 
Treasury Department in developing better ways to protect the pensions 
of hard-working Americans.

    Question. The Committee on Foreign investment in the United States 
is tasked with reviewing foreign transactions in the United States and 
their national security implications. I am very concerned about the 
growth in acquisitions of U.S. companies by state-owned enterprises 
(SOEs)--in particular, Chinese SOEs.

    Do you believe the CFIUS process needs to be reformed to keep up 
with the increasing volume of purchasing activity we're seeing from 
Chinese SOEs?

    Answer. Protecting our national security is central to the Treasury 
Department's mission, and CFIUS is a crucial tool in fulfilling that 
mission. I also believe CFIUS is, and should continue to be, focused on 
ensuring that any national security risks posed by the transactions 
subject to its review are identified and addressed. My understanding is 
that CFIUS has the statutory authority to review a broad range of 
transactions and consider a wide range of threats, including those that 
are unique to SOEs.

    With respect to potential CFIUS reforms, I believe it is important 
that we consider whether the U.S. Government has and is properly 
exercising all appropriate tools to address emerging national security 
risks. I understand that the Treasury Department is carefully 
considering whether any steps are necessary to further enhance CFIUS 
authorities and, if so, what steps would be most effective in 
addressing specific emerging risks. If confirmed, I am committed to 
providing legal support to this initiative.

    Question. If yes, are you committed to working with members of 
Congress to reform and modernize the CFIUS process to ensure that all 
sectors of the economy are represented on the panel, including making 
USDA and HHS permanent members of CFIUS?

    Answer. If confirmed, I am committed to reviewing the current CFIUS 
process and working with members of Congress and members of this 
administration to address new challenges CFIUS faces.

                                 ______
                                 
                Questions Submitted by Hon. Bill Nelson
    Question. On the website of Sullivan and Cromwell it lists your 
work as counsel to BP in the aftermath of the Deepwater Horizon oil 
spill among your accomplishments. Please describe what you did for BP 
in relation to the spill.

    Answer. Beginning in mid-2015, more than 5 years after the 
Deepwater Horizon oil spill, I (along with colleagues from Sullivan and 
Cromwell) represented BP in negotiating the settlement of most of BP's 
then-outstanding liabilities arising out of the spill, including 
payments to the Federal Government, the five States bordering the Gulf 
of Mexico, several hundred local government entities, and various 
private plaintiffs. I also worked briefly on analyzing a discrete legal 
question in the immediate aftermath of the spill.

    Question. On the website of Sullivan and Cromwell it lists your 
work representing Volkswagen and Audi in their emissions reporting case 
among your accomplishments. Please describe what you did for Volkswagen 
and Audi in relation to their emissions scandal.

    Answer. In 2016 and 2017, I (along with colleagues from Sullivan 
and Cromwell) represented Volkswagen and Audi in negotiating the 
settlement of Federal criminal, environmental, customs, and other 
claims arising out of the diesel emissions matter. The settlement 
involved agreements with the Justice Department's Civil Division, 
Criminal Division, and Environment and Natural Resources Division, and 
Customs and Border Protection at the Department of Homeland Security.

    Question. The final settlement between BP and the Department of 
Justice did not stop BP from writing off some of the settlement 
payments from its taxes, including natural resource damages. Did you 
play a role in protecting the deductibility of these payments for BP?

    Answer. The deductibility and non-deductibility of various types of 
settlement payments is controlled by law. In the case of BP's 2015 
Deepwater Horizon settlements, the Federal consent decree--which has 
been approved by a Federal judge--expressly provided that no tax 
deduction could be taken for civil penalty payments and did not specify 
the tax treatment of other settlement payments, and the agreement with 
the States bordering the Gulf of Mexico did not specify the tax 
treatment of the payments thereunder. I was involved in the negotiation 
of these two settlement agreements, but I am not a tax lawyer, I 
regarded the tax treatment of the various payments thereunder to be 
controlled by Federal law, and I did not regard my work to involve 
protecting the tax treatment dictated by applicable law.

    Question. Do you think it is wrong for corporations to try to use 
loopholes in law to get out of their responsibilities? Why?

    Answer. Corporations should fulfill the responsibilities that apply 
to them, not attempt to get out of those responsibilities, because 
corporations, no less than individuals, are obliged to fulfill the 
responsibilities they bear. In our system, the governed--whether 
individuals or corporations--have a right to fair notice of the legal 
obligations that apply to them, and we strive to secure that right by 
having their legal obligations clearly set forth in the law as written.

    Question. Would you advise the Secretary of the Treasury, to the 
fullest extent allowed by law, to close loopholes that allow 
corporations or individuals to undermine the intent and spirit of the 
law?

    Answer. In our system, the governed--whether individuals or 
corporations--have a right to fair notice of the legal obligations that 
apply to them, and we strive to secure that right by having their legal 
obligations clearly set forth in the law as written. As such, it is 
important that the law be written in a way that fulfills its intent. In 
some areas of the law, Congress has granted Federal agencies the 
authority to promulgate appropriate anti-abuse rules designed to 
reinforce a statutory standard or prevent gaps in compliance. In other 
cases, only Congress has the power to amend the law where it perceives 
the law as written to include ``loopholes'' that conflict with 
Congress's intent. In light of those principles, if confirmed, I would 
advise the Secretary that regulations and guidance the Department may 
promulgate must be consistent with the statutory text adopted by 
Congress and, to the extent allowed by law, should have as a goal 
prevention of ``undermin[ing] the intent and spirit of the law,'' 
insofar as the law's intent and spirit are ascertainable and not 
inconsistent with the statutory text.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. Mr. McIntosh, as you know, Treasury serves as a powerful 
stabilizing force for our country. Part of that stability is preserved 
by insulating Treasury from politics, which is central to the role of 
the General Counsel.

    Do you agree that Treasury's work to combat illicit financial 
activity, impose sanctions, and conduct national security reviews 
through the CFIUS process should be free from political interference? 
Do you believe the same is also true for tax administration and 
enforcement at the IRS?

    Answer. The Treasury Department's programs and activities should be 
administered consistent with all applicable laws, regulations, and 
administration policies, in a manner that is free from any improper 
influence.

    Question. Mr. McIntosh, I am deeply concerned about President Trump 
and his family's ongoing financial conflicts of interest. These 
conflicts have the potential to result in the President and his 
family's financial interests being directly impacted with his and his 
family's knowledge by policies, investigations, national security 
reviews, enforcement actions, and other matters related to your 
responsibilities at the Department of the Treasury.

    Can you commit that you will not allow anyone--from the White House 
or otherwise--to interfere with Treasury's work to combat illicit 
financial activity, to enforce sanctions, or to conduct national 
security reviews, even if a company affiliated with President Trump, 
his close associates, or family members is involved?

    Answer. I am committed to supporting the evenhanded and impartial 
enforcement of our Nation's anti-money laundering laws, economic 
sanctions regime, and CFIUS review process, consistent with all 
applicable statutes and the Constitution.

    Question. Can you also commit to doing everything within your power 
to protect the IRS from political interference generally, whether from 
the President, his family, or his associates?

    Answer. I believe that the neutral administration and enforcement 
of our Nation's tax law is an inviolable public trust and that the IRS 
should operate free of any improper influence.

    Question. Mr. McIntosh, will you notify this committee if 
inappropriate political interference occurs, from the White House or 
otherwise, in any of these areas?

    Answer. I am committed to ensuring that the Treasury Department's 
programs and activities are administered consistent with all applicable 
laws, regulations, and administration policies, in a manner that is 
free from improper influence.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. Mr. McIntosh, following up on my hearing question, now 
that you've had the opportunity to review the statute, as Treasury 
General Counsel, would you advise the Secretary to respond to Senators' 
requests for information regardless of their party affiliation. That 
is, would you advise the Secretary that it is improper to only respond 
to requests from Republican offices and not requests from Democratic 
offices?

    Answer. My prior service in the executive branch impressed upon me 
the importance of a strong, constructive working relationship between 
agencies and Congress. Responsiveness to congressional requests for 
information promotes comity between coequal branches of government and 
aids Congress in performing its important constitutional 
responsibilities. Accordingly, if confirmed, I would advise the 
Department of the Treasury to respond appropriately to all inquiries 
from members of Congress without regard to party affiliation.

    Question. Mr. McIntosh, as Treasury General Counsel, if you 
determine it is lawful for the Secretary to only respond to requests 
from Republican offices and not requests from Democratic offices, will 
you inform the chairman and ranking member of the Finance Committee of 
that determination and provide them a copy of that determination?

    Answer. Please see my response to the question above.

    Question. Mr. McIntosh, if White House Counsel directs Treasury or 
any office within Treasury to only respond to Republican offices and 
not Democratic offices, will you follow that direction?

    Answer. Please see my response to the first question.

    Question. Mr. McIntosh, if White House Counsel directs Treasury to 
only respond to Republican offices and not respond to letters or 
requests for information from Democratic offices, will you inform the 
chairman and ranking member of the Finance Committee that you have been 
directed by White House Counsel to not respond to Democratic 
requesters?

    Answer. Please see my response to the first question.

    Question. Mr. McIntosh, if at any time White House Counsel requests 
that Treasury not respond to the request or requests of a member or 
members of this Finance committee, will you inform the chairman and 
ranking member of the Finance Committee of that White House Counsel 
request?

    Answer. Please see my response to the first question.

    Question. Mr. McIntosh, in January, I asked Secretary Mnuchin to 
provide a copy of the number of foreclosures OneWest Bank engaged in in 
Pennsylvania while he owned OneWest Bank, as well as State-by-State 
foreclosure data. Secretary Mnuchin provided State foreclosure numbers 
to Senator Heller prior to his confirmation in January, but he has yet 
to provide Democratic requesters the same information. In other words, 
a Republican Senator has received a response for information from the 
Secretary, but Democratic offices have not received a response for 
similar information from the Secretary.

    Is it proper for the Secretary to provide this information to a 
Republican Senator and not a Democratic Senator?

    Answer. I am not familiar with the details of either request 
described here; nor do I have access to any nonpublic information 
concerning this issue. As a result, I cannot offer a responsible, well-
informed opinion on this matter.

    Question. What advice and recommendation would you provide to the 
Secretary with respect to this specific situation?

    Answer. Please see my response to the first question and the 
question above.

    Question. Mr. McIntosh, the Committee on Foreign Investment in the 
United States was established to review transactions that could result 
in a U.S. business being controlled by a foreigner, in order to 
determine the impact of these transactions on national security. Given 
the sensitivity of these investigations, only affirmative 
determinations, those that are found to present national security 
risks, are made public. The President has the discretion to not 
exercise his authority to stop a transaction, even if CFIUS makes a 
determination that a transaction presents a national security risk.

    With respect to CFIUS investigations, do you have (or intend to 
establish) a process to review internal conflicts of interest?

    If so, please describe that process.

    Will you require members of the administration, including members 
of the Cabinet, with an implicit or explicit interest in the 
transaction to recuse themselves?

    Will you establish protocols to determine whether any member of the 
administration, including the President or the Treasury Secretary, has 
an interest in the business under review or a financial interest in the 
home country of the acquiring entity?

    If a conflict is found, will you advise such individuals recuse 
themselves from CFIUS proceedings?

    How would you respond if you, the Secretary, or the Treasury Under 
Secretary for International Affairs, received or a request from the 
President or a member of the administration that Treasury either 
initiate a CFIUS investigation, requesting Treasury drop an ongoing 
CFIUS investigation or requesting Treasury to not commence a CFIUS 
investigation?

    Answer. I understand that Treasury already has in place a robust 
process for assessing and handling conflicts of interest with respect 
to Treasury's participation in the CFIUS process. Each department and 
office that participates in CFIUS is responsible for handling the 
conflicts of interest of its staff in accordance with law and agency 
ethics policies. I understand that these policies provide standards and 
guidelines for recusal. If confirmed, I will work to ensure that all 
applicable laws and conflicts of interest policies are appropriately 
applied to Treasury staff, including those related to recusal and to 
the appropriate functioning of CFIUS.

                                 ______
                                 
              Questions Submitted by Hon. Claire McCaskill
    Question. What guidance should the Treasury provide to the Trump 
Organization concerning the procedures it should follow in transferring 
payments, including the timing of these payments, policies for 
determining their necessity, and any documentation or other details 
that should accompany them?

    Answer. Based on press reports, I understand that the Trump 
Organization has indicated that it will donate profits from foreign 
government payments made to the Organization's hotels on an annual 
basis. Reports further indicate that any such profits will be 
identified based on policies and procedures developed by the Trump 
Organization. The website of Treasury's Bureau of the Fiscal Service 
provides guidance on how to make gifts to the U.S. Government. The 
website states that financial gifts can be made by check or money order 
payable to the United States Treasury and mailed to a P.O. Box in 
Parkersburg, WV. More information is available on the Fiscal Service's 
website at https://www.fiscal.treasury.gov/fsfaq/faq_gifts_to_govt.
htm.

    Question. What standards should the Treasury employ internally in 
determining whether specific transfers from the Trump Organization--
resulting from particular examples of foreign government patronage--are 
necessary to enable President Trump to fulfill his ethical promises?

    Answer. I understand the premise of your question as relating to 
the Trump Organization's decision to donate voluntarily to the United 
States Treasury certain profits earned by Trump Organization hotels. 
Because I understand these payments would be gifts to the U.S. 
Government, my understanding is that this is a Trump Organization 
matter and not a Treasury matter.

    Question. What standards should the Treasury employ internally in 
calculating whether transfers from the Trump Organization represent the 
full amounts due under the guidelines President Trump has established?

    Answer. Please see my response to the question above.

    Question. What oversight should the Treasury conduct, in general, 
regarding whether President Trump and the Trump Organization have 
fulfilled their payment obligations under the ethical guidelines 
President Trump has established?

    Answer. My understanding is that any such payments are being made 
by the Trump Organization on a voluntary basis, as gifts to the U.S. 
Government. As such, it is my understanding that any question 
concerning whether the Trump Organization has remitted any such payment 
should be directed to the Trump Organization.

    Question. At what intervals should the Treasury make disclosures to 
the public and Congress concerning transfers from the Trump 
Organization, if any, and what information, specifically, should these 
disclosures contain?

    Answer. My understanding from press reports is that any such 
payments will be made by the Trump Organization on a voluntary basis. 
It is my expectation that such payments would be handled by the 
Treasury Department consistent with all applicable laws governing gifts 
to the Treasury.

    Question. What efforts should the Treasury undertake to determine 
the full extent of President Trump's debts, including debts held by 
both international and domestic creditors, securitized debts and 
corresponding investors, and debts for limited liability partnerships 
in which President Trump or the Trump Organization maintains a minority 
share?

    Answer. It is unclear to me in what context Treasury would have the 
responsibility or authority to undertake such inquiry.

    Question. Will you commit to providing a full and public report of 
the debts described above to Congress, and if so, what level of detail 
will this report contain?

    Answer. As noted above, it is unclear to me in what context 
Treasury would have the responsibility or authority to undertake such 
inquiry.

    Question. What measures should the Treasury take to insulate 
Treasury decision-making from conflicts of interest arising from debts 
incurred by President Trump, the Trump Organization and related 
entities, or any members of the Trump family?

    Answer. As I understand it, Treasury is responsible for 
facilitating ethics compliance by Treasury employees to protect the 
integrity of Treasury decision-making. Potential conflicts of interests 
for Treasury employees turn on their personal financial interests, not 
the financial interests (including debts) of others.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    This morning, the Finance Committee will consider four nominations:

        Mr. Eric Hargan to be Deputy Secretary of the Health and Human 
Services Department;

        Mr. David Malpass to be Under Secretary for International 
Affairs at the Treasury Department;

        Mr. Drew Maloney to be Deputy Under Secretary of the Treasury 
Department for Legislative Affairs; and

        Mr. Brent McIntosh to be the Treasury Department General 
Counsel.

    Let me begin with Mr. Hargan's nomination to be HHS Deputy 
Secretary. It's the second-highest ranking position at the Department, 
effectively the chief operating officer, a big job that encompasses a 
lot more than making sure the trains run on time. As an example, Mr. 
Hargan held this job on an acting basis during the Bush administration. 
If The Wall Street Journal is to be believed, he used his position to 
block efforts by the FDA to increase food safety inspections.

    Today, with HHS pushing a radical agenda that would send the number 
of Americans without health coverage through the roof, endanger seniors 
who count on Medicaid for nursing home care, and slash the programs 
that lay out basic living standards for working families, Mr. Hargan 
and every HHS nominee will face serious questions about how they'd 
approach their roles.

    Next, if confirmed, Mr. Malpass would lead the office at Treasury 
in charge of advancing our leadership in the global economy. It's a 
tough job under any President. It's extraordinarily difficult under 
this one. Senior Trump officials regularly contradict each other on 
major economic policy issues, and then the President contradicts them. 
Is the administration for a strong dollar or a weak dollar? Nobody 
knows. Statements and actions on climate, trade and NATO have alienated 
long-time allies and close economic partners, handing China greater 
power and influence. Given all that, it'll be vital to focus on finding 
policies that give all Americans a chance to get ahead and advance our 
country's interests at the same time.

    Mr. McIntosh is nominated to be Treasury General Counsel. A key 
part of his portfolio, if confirmed, will be guaranteeing that 
sanctions and rules on foreign investment are enforced and adhered to. 
And during an administration rife with scandal and conflicts--
reportedly including undisclosed meetings with a Russian bank under 
sanction--the Treasury General Counsel has to be unflinching in their 
commitment to that task, even if they come under pressure to neglect 
it.

    Finally, I want to take a moment to address the issue of 
congressional oversight, which is closely relevant to the jobs Mr. 
McIntosh, as General Counsel, and Mr. Maloney, as Deputy Under 
Secretary for Legislative Affairs, are nominated to fill at the 
Treasury.

    Word has come down from the Trump White House that the executive 
branch essentially has free reign to ignore the questions that come 
from Democrats conducting oversight. The White House counsel's office 
is quoted as saying that the administration will only respond to the 
chairmen of congressional committees, and of course all the chairmen 
are Republicans. So this is a stated policy of stonewalling Democratic 
lawmakers.

    I want to make my feeling on this clear. This is a disgrace, and it 
is deeply undemocratic. Members of Congress do not conduct oversight of 
the executive branch for sport. Our obligation to perform vigorous 
oversight is derived from the powers laid out in Article One of the 
Constitution. We ask questions directly on behalf of the people we 
represent, and it's those people, not just us in Congress, the 
administration owes answers to. Bottom line, this is not the behavior 
of a government that sees itself as answerable to the people.

    The Finance Committee has a bipartisan tradition of supporting the 
right of the minority to get responses from the administration 
regardless of party. One of the questions this committee poses to every 
executive branch nominee that comes before us is, ``do you commit to 
provide a prompt response in writing to any questions addressed to you 
by any Senator of this committee?'' I'll repeat the last part--``any 
Senator of this committee,'' not ``any Senator of this committee with 
an ``R'' next to their name.'' When nominees answer ``yes,'' we take 
them at their word.

    This is an issue near and dear to members on both sides. Senator 
Grassley's got a track record of fighting as hard as anybody out there 
for transparency and responsiveness from the executive branch. And I'd 
wager that every member on my side of the dais could rattle off 
examples of letters they've sent to this administration only to get 
nothing substantive in return.

    It's true that in the Trump administration, Treasury has not been 
the worst culprit in terms of stonewalling oversight inquiries. If 
confirmed, Mr. McIntosh and Mr. Maloney will have a direct hand in 
working with Congress on these issues. And very shortly they'll get 
that same question asked of every nominee who sits before this dais. So 
it's my expectation that Mr. McIntosh and Mr. Maloney will help 
guarantee that the department responds to the inquiries of all of the 
committee's members, not just those of the President's party.

                                   


</pre></body></html>
